<html>
<title> - MINE DISASTER AT QUECREEK</title>
<body><pre>[Senate Hearing 107-876]
[From the U.S. Government Printing Office]



                                                        S. Hrg. 107-876
 
                       MINE DISASTER AT QUECREEK
=======================================================================




                                HEARING

                                before a

                          SUBCOMMITTEE OF THE

            COMMITTEE ON APPROPRIATIONS UNITED STATES SENATE

                      ONE HUNDRED SEVENTH CONGRESS

                             SECOND SESSION

                               __________

                            SPECIAL HEARING

                    OCTOBER 21, 2002--JOHNSTOWN, PA

                               __________

         Printed for the use of the Committee on Appropriations


 Available via the World Wide Web: http://www.access.gpo.gov/congress/
                                 senate

                                 ______




                           U.S. GOVERNMENT PRINTING OFFICE
85-406                         WASHINGTON : 2003
___________________________________________________________________________
For Sale by the Superintendent of Documents, U.S. Government Printing Office
Internet: bookstore.gpo.gov  Phone: toll free (866) 512-1800; (202) 512-1800  
Fax: (202) 512-2250 Mail: Stop SSOP, Washington, DC 20402-0001










                      COMMITTEE ON APPROPRIATIONS

                ROBERT C. BYRD, West Virginia, Chairman
DANIEL K. INOUYE, Hawaii             TED STEVENS, Alaska
ERNEST F. HOLLINGS, South Carolina   THAD COCHRAN, Mississippi
PATRICK J. LEAHY, Vermont            ARLEN SPECTER, Pennsylvania
TOM HARKIN, Iowa                     PETE V. DOMENICI, New Mexico
BARBARA A. MIKULSKI, Maryland        CHRISTOPHER S. BOND, Missouri
HARRY REID, Nevada                   MITCH McCONNELL, Kentucky
HERB KOHL, Wisconsin                 CONRAD BURNS, Montana
PATTY MURRAY, Washington             RICHARD C. SHELBY, Alabama
BYRON L. DORGAN, North Dakota        JUDD GREGG, New Hampshire
DIANNE FEINSTEIN, California         ROBERT F. BENNETT, Utah
RICHARD J. DURBIN, Illinois          BEN NIGHTHORSE CAMPBELL, Colorado
TIM JOHNSON, South Dakota            LARRY CRAIG, Idaho
MARY L. LANDRIEU, Louisiana          KAY BAILEY HUTCHISON, Texas
JACK REED, Rhode Island              MIKE DeWINE, Ohio
                  Terrence E. Sauvain, Staff Director
                 Charles Kieffer, Deputy Staff Director
               Steven J. Cortese, Minority Staff Director
            Lisa Sutherland, Minority Deputy Staff Director
                                 ------                                

 Subcommittee on Departments of Labor, Health and Human Services, and 
                    Education, and Related Agencies

                       TOM HARKIN, Iowa, Chairman
ERNEST F. HOLLINGS, South Carolina   ARLEN SPECTER, Pennsylvania
DANIEL K. INOUYE, Hawaii             THAD COCHRAN, Mississippi
HARRY REID, Nevada                   JUDD GREGG, New Hampshire
HERB KOHL, Wisconsin                 LARRY CRAIG, Idaho
PATTY MURRAY, Washington             KAY BAILEY HUTCHISON, Texas
MARY L. LANDRIEU, Louisiana          TED STEVENS, Alaska
ROBERT C. BYRD, West Virginia        MIKE DeWINE, Ohio
                           Professional Staff
                              Ellen Murray
                              Jim Sourwine
                              Mark Laisch
                            Adrienne Hallett
                              Erik Fatemi
                       Bettilou Taylor (Minority)
                        Mary Dietrich (Minority)
                    Sudip Shrikant Parikh (Minority)
                       Candice Rogers (Minority)

                         Administrative Support
                             Carole Geagley















                            C O N T E N T S

                              ----------                              
                                                                   Page

Opening statement of Senator Arlen Specter.......................     1
Statement of Hon. Mark S. Schweiker, Governor of Pennsylvania....     5
    Prepared statement...........................................     7
Statement of David E. Hess, director, Pennsylvania Department of 
  Environmental Protection.......................................     9
    Prepared statement...........................................    11
Statement of David D. Lauriski, Assistant Secretary of Labor, 
  Mine Safety and Health Administration, Department of Labor.....    21
    Prepared statement...........................................    23
Statement of Edward Yankovich, Jr., president, District 2, United 
  Mine Workers of America........................................    34
    Prepared statement...........................................    35
Statement of George Ellis, president, Pennsylvania Coal 
  Association....................................................    36
    Prepared statement...........................................    38
Statement of Joseph Main, administrator, Department of 
  Occupational Health and Safety, United Mine Workers of America.    49
    Prepared statement...........................................    50
Statement of Howard Messer, professor of law, University of 
  Pittsburgh School of Law.......................................    55
Statement of David Rebuck, president, Black Wolf Coal Company....    58
    Prepared statement...........................................    59
Statement of Mrs. Harry Mayhugh, wife of a miner.................    65
Statement of Mrs. John Phillippi.................................    65
Statement of Ronald J. Hileman...................................    66
Statement of Douglas L. Custer...................................    76
















                       MINE DISASTER AT QUECREEK

                              ----------                              


                        MONDAY, OCTOBER 21, 2002

                           U.S. Senate,    
    Subcommittee on Labor, Health and Human
     Services, and Education, and Related Agencies,
                               Committee on Appropriations,
                                                     Johnstown, PA.
    The subcommittee met at 9:30 a.m., at the Public Safety 
Building, fourth floor, Hon. Arlen Specter presiding.
    Present: Senator Specter.


               opening statement of senator arlen specter


    Senator Specter. Good morning, ladies and gentlemen, the 
U.S. Senate Appropriations Subcommittee on Labor, Health, Human 
Services, and Education will now proceed with this hearing on 
the mine disaster at Quecreek.
    Senator Tom Harkin, chairman of the committee, and I in my 
capacity as ranking member, decided that this should be a field 
hearing in Johnstown, because it is close to the site of this 
incident, and to give as many people as possible in the area an 
opportunity to be present and to participate in this hearing.
    The Quecreek mine disaster occurred on Wednesday, July 24 
of this year at 8:45 p.m. There was then a worldwide vigil led 
by Governor Mark Schweiker of Pennsylvania. The eyes and the 
ears of the world were on nine miners trapped in Quecreek some 
300 feet below the surface, approximately 25 stories down where 
an estimated up to 77 million gallons of water had poured into 
the mine.
    The incident occurred, according to preliminary reports, 
from the so-called Saxman mine which had been mined 40 years 
earlier. The maps were incomplete and the water poured in.
    As people all over the world watched, hope was very thin 
for the nine trapped miners. Nine other miners had been able to 
fortuitously escape. Then on Saturday, July 27 at 10:15 in the 
evening, the first miner was rescued and eventually all nine 
miners were brought to safety ending at 2:45 a.m.
    Governor Schweiker, who is here today as our lead witness, 
was at the scene really to inform the people around the world 
who were hanging on every detail that the miners had been 
saved, which was truly a miraculous event.
    There has been extensive publicity on this issue. There is 
an article in yesterday's Pittsburgh Tribune-Review which sets 
the stage in a succinct way, and I'm going to quote from a 
couple of the paragraphs:

    Days before nine miners sloshed through bone chilling water in a 
desperate dash to save their lives, they warned bosses their tunnel was 
`wet and getting wetter' and expressed serious concerns about the 
strength of a `soft' ceiling in the Quecreek Mine.
    The miners revealed harrowing details of their final days toiling 
in a crumbling mine: roof bolts holding off a tunnel collapse were 
pinned to an increasingly soupy ceiling of thin shale. Icy water ``was 
gushing'' around the steel nails ``like a shower.'' And as the water 
edged closer to the spit of dirt dividing them from drowning, they 
tacked a tarp across the tunnel to avoid looking at what they thought 
was a bleak, wet death.

    The Tribune-Review article goes on to raise certain 
questions. Raising concerns whether the corporation, which we 
will hear from later, played as the Tribune Reviewed called it, 
``Russian roulette'' with their lives by giving incomplete and 
misleading mine maps to the Government. That's a question which 
we will be inquiring into.
    [The information follows:]

              [From the Tribune-Review, October 20, 2002]

                  Miners Sensed Danger Before Disaster

                    (By Debra Erdley and Carl Prine)

    Days before nine miners sloshed through bone-chilling water in a 
desperate dash to save their lives, they warned bosses their tunnel was 
``wet and getting wetter'' and expressed ``serious concerns'' about the 
strength of a ``soft'' ceiling in the Quecreek Mine.
    On the eve of public hearings into the Somerset County mine 
disaster, the miners revealed harrowing details of their final days 
toiling in a crumbling mine: Roof bolts holding off a tunnel collapse 
were pinned to an increasingly soupy ceiling of thin shale. Icy water 
``was gushing'' around the steel nails ``like a shower.'' And, as the 
water edged closer to the spit of dirt dividing them from drowning, 
they tacked a tarp across the tunnel to avoid looking at what they 
thought was a bleak, wet death.
    Another bombshell: They lacked a vital tool--a horizontal driller--
designed to let them peek into unseen water-and gas-filled chambers. 
According to the miners, it wasn't even on site.
    On July 24, as their watch hands arced past 9 p.m., the continuous 
mining tractor took one bite of coal too many. Suddenly, 18 men on two 
crews were swallowed up by 77 million gallons of frigid flooding, 
forced to stumble for higher ground in a frantic race against a rising 
black tide from the neighboring abandoned Saxman Mine.
    Nine made it 25 stories up to join a daring rescue orchestrated by 
federal and state experts, who later termed the mission to save Randy 
Fogle, Mark Popernack, Tom Foy, Blaine Mayhugh, John Philippi, John 
Unger, Ron Hileman, Robert Pugh and Dennis Hall ``a miracle.''
    But seven of the nine rescued miners fear these same agencies--the 
U.S. Mine Safety and Health Administration and the state Department of 
Environmental Protection--might be overlooking damning clues into what 
went awry at Quecreek. Indeed, the regulators themselves could have 
botched the life-saving permitting and inspection processes.
    They also question whether Mincorp, a Delaware holding company 
controlling the Quecreek coal fields, played ``Russian Roulette'' with 
their lives by giving incomplete and misleading mine maps to the 
government.
    ``I want some answers,'' Hall said.
    Nicknamed ``Harpo'' by his crew, the lanky coal car operator with 
three decades of underground experience phoned a nearby nine-man crew 
that water was coming their way and that his men were already trapped. 
His warning saved their lives.
    He hopes that by speaking out now he can stop other miners 
nationwide from piercing poorly mapped mine tunnels, called ``voids.'' 
Mines dripping with water are not uncommon, he said, but sometimes an 
increasing daily deluge points to potentially deadly problems.
    He said miners should be given the best possible information before 
they make life-or-death decisions underground.
    ``Somebody was damned sure responsible for what happened to us, all 
of us. Somebody was responsible for not obtaining the right maps and we 
feel compelled to find out who that was. This never should've happened, 
and I'm damn lucky to be alive,'' Hall said.
    ``We trusted them. We thought we weren't that close to another 
mine. We had no idea we were so close to a void in the maps. And we 
damned sure would have done the precautions if we'd known.''
    Popernack and Fogle have not spoken publicly on the issue. But 
Hall, who is represented by Pittsburgh trial lawyer Howard Messer, 
joined his attorney and six other miners in calling on Republican Gov. 
Mark Schweiker to redirect a committee researching shoddy mine maps to 
discover instead exactly what went wrong in July.
    That appears unlikely.
    ``It's irresponsible of Mr. Messer to go to the commission and 
demand details of what happened at Quecreek when he knows very well the 
commission was not formed for that purpose,'' said Schweiker spokesman 
David LaTorre, who insists a ``separate DEP investigation will provide 
the answers the families are looking for.''
    ``This is the standard policy of conducting an investigation,'' 
LaTorre said. ``Once the investigation is complete, all aspects of that 
investigation will be made public. It is disappointing to Gov. 
Schweiker and others in the administration that critics out there throw 
blind accusations that nothing is being done. No one is closer to those 
mining families than Gov. Schweiker.''
    While that could be true, the governor has spent less time with the 
miners than their employer's lawyer, who sat through the miners' 
private interviews with federal and state investigators and was offered 
the chance to question them.
    ``Why is this so secret?'' Messer countered. ``What is it about all 
the information they have collected that can't be shared with public? I 
think a grand jury is necessary.''
    Mincorp officials continue to insist Black Wolf Coal Co. hired and 
controlled the Quecreek workers, that Black Wolf was a separate 
contractor led by a former Mincorp executive, and that Mincorp was 
unaware the miners had complained of safety conditions.
    Mincorp's subsidiary, PBS Coals, had an exclusive contract to 
purchase 100 percent of Quecreek's coal. But marketing director Tim 
Phillips said no executive knew about increasing flooding in the 
Quecreek chamber--even though that would have sliced production.
    ``You're talking about operation things we know nothing about,'' 
Phillips said.
    Black Wolf officials declined to comment on the miners' concerns. 
Former workers from the closed Saxman mine and other nearby shafts said 
they alerted company officials about voids in the maps that could lead 
to gas or water tragedies. During public permitting hearings in 1999, 
41 neighbors, including chemists, farmers and former miners, vainly 
urged regulators to nix the controversial Quecreek project.
                       investigation controversy
    Since the miners' rescue, Quecreek's government investigations have 
proven equally controversial. In July, Schweiker promised he'd play a 
``maximum'' role in a future public probe to determine exactly what 
went wrong and why. But two months later, his original goals had 
changed.
    In September, Schweiker tasked his blue ribbon commission--the lone 
panel conducting open meetings--with finding ways to prevent accidents 
caused by mine voids. Drawn from industry, labor, government and 
academia, the commission met in places as far away as Pottsville, and 
quickly distanced itself from Quecreek specifics.
    Commission organizers claimed they couldn't find meeting places in 
Somerset. Miners in attendance grumbled about the panel's increasingly 
bookish discussions.
    Prodded by disgruntled miners, the nine-member panel agreed to 
conduct a public meeting Tuesday in Somerset to include their testimony 
in the final study. The commission gave the miners several questions to 
answer with their lawyer.
    Messer hopes to spark public debate about the commission's goals. 
He worries federal and state probes already are compromised by coal 
industry insiders and agency self-interest.
    He points to an increasingly cozy relationship among DEP's Bureau 
of Deep Mine Safety, federal inspectors and company officials. Once 
assumed to be separate investigations, the federal and state probes 
became so indistinguishable that both MSHA and DEP agents joined to 
interview the Quecreek miners.
    Both have ``skeletons'' to hide, according to Messer and the 
miners.
    DEP regulators approved the original permit and conducted recent 
inspections that might have overlooked problems. MSHA overseers signed 
off on ventilation and site safety plans, and also inspected the shafts 
in July, one week before the disaster.
    Scott Roberts, DEP's mineral resources chief, said his staffers 
loaned to the MSHA investigation were actually ordered by federal 
directors not to discuss the probe with him.
    While many federal accident probes rely on confidential testimony, 
this one featured at least one company lawyer present for every 
interview. At one point, a coal company attorney was even offered the 
chance to question the Quecreek miners. That angered outside safety 
experts and lawmakers.
    ``One of the reasons we think public hearings are better is, with 
closed hearings, you have the miners sitting there with no 
protection,'' said Joe Main, safety director for the United Mine 
Workers. ``We don't believe management peering over the miners' 
shoulders is right when the management that is peering . . . may be 
found guilty of some infraction in the end.''
                             more criticism
    U.S. Senator Paul Wellstone, a Minnesota Democrat who chairs a 
committee overseeing federal mining laws, castigated state and federal 
handling of the Quecreek disaster.
    ``Like every MSHA accident investigation, this one needs to find 
the particular causes in a timely and publicly open way so workers and 
the community can see that the government is on their side and 
accountable,'' Wellstone said.
    ``At the same time, this was the country's third catastrophic coal 
mining accident in two years. ``The agency's job is also to find and 
explain any systemic causes of these repeat disasters. There are always 
specific conditions, but I don't think we can let the industry or the 
agency off the hook when accidents keep happening.''
    Federal and state investigators are now scrambling for answers to 
the miners' latest disclosures. Told Thursday that Quecreek's crews 
didn't have an auger in their section to find deadly gas or water 
chasms, DEP officials couldn't locate in their paperwork whether they 
already knew that--or not. ``If they could have been in the position to 
drill, there should have been drills there to drill with,'' Main said.
    ``And if drills weren't available, why weren't they?'' State and 
federal watchdogs declined to discuss what investigators have 
discovered, but they have long defended the lack of public hearings.
    As early as August, U.S. Department of Labor mining chief David 
Lauriski defended his secret probe. He said a public hearing wouldn't 
yield any new clues. DEP spokesman Dennis Buterbaugh agreed. He said 
Friday that his agency was determined to ``get to the bottom of this'' 
and that state investigators were ``working every day'' on a difficult, 
``time-consuming'' probe.
    ``We've tried to be thorough in our investigation. We certainly 
want to get it done as soon as reasonably possible.'' Meanwhile, some 
of the miners want their story told before the governor's panel shuts 
down. They insist the public should learn that crew leader Randy Fogle 
was a hero, and that he pressed management to vacate the sloshy section 
days before the disaster.
    Last week, Fogle and Mark Popernack were on the Hollywood set of 
the Disney television movie about the Quecreek rescue and could not be 
reached for comment.
    Previously, Popernack and some of the other miners had suggested 
Quecreek was a ``completely dry mine'' and that they would willingly 
return to work underground.

    Senator Specter. Other questions were raised about DEP 
regulations which had approved the original permit and 
conducted inspections and the issue is whether they were 
sufficiently thorough. MSHA oversees and signed onto a 
Ventilation and Site Safety Plan and also inspected the shafts 
1 week before the disaster, and that too will be a matter for 
our inquiry.
    The Secretary of Labor has responsibility under Federal 
statutes to inspect the mines, deep mines, four times a year 
and surface coal mines at least two times a year. For those who 
have had the opportunity to go into a mine as I have on a 
couple of occasions in connection with my Senate 
responsibilities, it is an awesome, harrowing experience to go 
25, 30 stories down--Governor Schweiker is nodding, he's been 
there--to ride in a car where you have no room to sit up 
straight. The miners perform a very important function in our 
country, they provide energy for our needs and their safety is 
of paramount concern. Too often these mine disasters occur.
    One of our inquiries will be directed at the U.S. Congress 
itself and the Senate and this subcommittee as to whether we 
have funded adequately.
    Each year for the past decade plus we have increased mine 
safety as we have moved along. We have been in touch with 
United Mine Workers--the president of the State Association 
will be here today--and in touch with the Miners Association. 
This is an inquiry of the utmost importance and we intend to 
find out what the facts are, identify the cause of the incident 
and take whatever steps are necessary to be as sure as we can, 
that there is no recurrence.
STATEMENT OF HON. MARK S. SCHWEIKER, GOVERNOR OF 
            PENNSYLVANIA
    Senator Specter. We're joined today by Pennsylvania's 
distinguished Governor, Mark Schweiker, who took the oath of 
office on October 5 when Governor Ridge went off to be the 
Federal official on Home Land Security. Governor Schweiker 
comes to this position with a very distinguished record in 
public service and in business, he had been a Commissioner in 
Bucks County, and held key positions at Merrill Lynch and 
McGraw Hill. Governor Schweiker holds a bachelor's degree from 
Bloomsburg University and a master's degree from Rider 
University.
    Governor, I want to compliment you again on your holding 
vigil and being the spokesman and keeping things together at a 
very, very difficult time. We look forward to your testimony.
    Governor Schweiker. Thank you, Senator Specter, and I would 
mention that as you referenced the significant dates in the 
summer. The miners and their families, who are literally behind 
me, will never forget those dates and I share that sentiment.
    I do appreciate the opportunity to testify today before 
your Committee.
    First, I'd like to thank everyone who responded and worked 
tirelessly to save nine very brave men. Through this I was able 
to witness firsthand the enduring hope and spirit of this great 
country. In particular, I would like to thank Dave Lauriski, 
who is also sitting behind me, of MSHA, and Dave Hess, my 
Secretary of Environmental Protection is to my right.
    The rescue of nine Pennsylvania miners from the Quecreek 
mine in Somerset County brought together all Pennsylvanians and 
inspired a Nation. Those 3 days also motivated me to make sure 
that an event like this never happens again. By now you know 
the outcome of that final night. We went nine for nine, saving 
all the miners who were trapped, a true miracle.
    The day after the rescue I announced the formation of a 
special commission to investigate the causes of the Quecreek 
mine accident. I also tasked this commission to research better 
methods to determine the exact location of abandoned mines and 
to improve general mine safety. Dr. Raja Ramani, Professor 
Emeritus of Mining and GeoEnvironmental Engineering at the 
Pennsylvania State University, was charged with leading the 
panel. Dr. Ramani has more than 40 years of experience in 
mining as a recognized expert in mine design, operation and 
safety practices. The Commission will review existing mine 
procedures and make a comprehensive set of recommendations on 
how to improve mining operations and safety. I look forward to 
receiving Dr. Ramani's report shortly in mid November.
    My goal is to make sure Pennsylvania continues to be a 
national trailblazer in mine safety. Pennsylvania laws 
concerning mining in the Commonwealth go back as far as 1870. 
Pennsylvania enacted the first major mining laws in the 
anthracite region in 1891 and in the bituminous region in 1893. 
In fact, the 1969 Federal Coal Mine Health and Safety Act was 
written with the Pennsylvania mining laws as a guide.
    Over the last 4 years, Pennsylvania established a record 
for the fewest number of underground mining fatalities in 
history for a 4-year period. While Pennsylvania ranks fourth in 
the Nation in coal production, we account for only 8 percent of 
mining fatalities. Nationally, for the fourth consecutive year, 
workers' lost-time accidents have also decreased. Now these 
milestones can be attributed to the Bureau of Deep Mine Safety 
in partnership with industry, labor and MSHA and especially to 
the workers mining Pennsylvania's coal each day.
    However, the events of Quecreek reminded us all that our 
commitment to safety will always remain an ongoing task. The 
commission I established is only the first step toward 
improving mine safety. We must make sure that all existing mine 
maps are available to the relevant State agencies and the maps 
must be centrally warehoused and digitized in order to ensure 
their preservation and, importantly, their access. These 
necessary actions will be expensive and will require State and 
Federal investment. Digitizing thousands of mine maps, for 
example, will take several years. Technology and staff expense 
will be great. But we cannot afford to wait.
    In addition to establishing the commission, I took action 
to safeguard the lives of coal miners in Pennsylvania by 
ordering bituminous deep mine operators to submit updated 
information on where water-filled mine voids are located. No 
one can afford to rely on old maps. My order requires 
bituminous mine operators to positively identify voids ahead of 
where they are mining if they are within 500 feet of a water-
filled mine void. This new requirement more than doubles the 
previous 200-foot requirement.
    I will demand that every possible precaution be taken to 
keep our brave miners safe. To that end, my administration 
pledges to vigorously, to vigorously enforce all mine safety 
regulations.
    As you know, Senator, Dave Hess, my Secretary of 
Environmental Protection, is here and is seated on my right and 
will delve into some of the specifics of what his department is 
doing in this important regard.

                           prepared statement

    In closing, the miners who work in Pennsylvania's vast coal 
reserves are some of the most courageous people I know. It is 
the responsibility of all of us, the Commonwealth, the Federal 
Government and coal companies, to ensure a safe work place for 
our miners. In Quecreek, Providence smiled on us, now we must 
persevere and make sure Pennsylvania's mines are the safest in 
the world. We owe it to the 18 miners who barely made it out of 
Quecreek alive. We owe it to their families who suffered with 
fear and despair for 77 hours, and we owe it to every miner who 
puts his life on the line when they go to work to support their 
loved ones.
    Thank you, Mr. Chairman, and I'm happy to answer any 
questions you may have at the appropriate time.
    [The statement follows:]
            Prepared Statement of Governor Mark S. Schweiker
    I appreciate the opportunity to testify today before the Committee.
    First, I would like to thank everyone who responded and worked 
tirelessly to save these men. I was able to witness first hand the 
enduring hope and spirit of this great country. In particular, I would 
like to thank Dave Lauriski, who is sitting behind me, and Dave Hess, 
my Secretary of Environmental Protection. Both of you are primarily 
responsible for the success of that rescue operation.
    The rescue of nine Pennsylvania miners from the Quecreek Mine in 
Somerset County brought together all Pennsylvanians and inspired a 
nation. Those three days motivated me to make sure that an event like 
this never happens again. By now you know the outcome of that final 
night--we went nine for nine, saving all the miners who were trapped. A 
true miracle.
    Pennsylvania has been and continues to be a trailblazer in mine 
safety. Pennsylvania laws concerning mining in the Commonwealth go back 
as far as 1870. Pennsylvania enacted the first major mining laws in the 
anthracite region in 1891 and in the bituminous region in 1893. The 
1969 Federal Coal Mine Health and Safety Act was written with the 
Pennsylvania mining laws as a guide.
    Over the last four years, Pennsylvania established a record for the 
fewest number of underground mining fatalities in history for a four-
year period. Pennsylvania ranks 4th in the nation in coal production 
and we account for only 8 percent of mining fatalities nationally. For 
the fourth consecutive year, workers lost-time accidents have also 
decreased. This milestone is attributed to the Bureau of Deep Mine 
Safety in partnership with industry, labor, and MSHA, and especially to 
the workers mining Pennsylvania's coal each day.
    However, the events of Quecreek reminded us all that ours is an 
unfinished task. Mine safety is not a destiny to be arrived at but a 
continuous journey.
    On July 24th, eighteen employees of the Black Wolf Coal Co. were 
working the Quecreek Mine. Just before 9:00 p.m., nine of the crew 
operating their Continuous Miner broke through to the water-filled 
Saxman Mine, abandoned by the Saxman Coal and Coke Co. in the late 
1950's. The miners mistakenly believed, based on faulty maps, that they 
had 300 feet of barrier remaining when the breakthrough occurred.
    Millions of gallons of water rushed in, flooding the mine. The crew 
at the breakthrough warned a second group of miners closer to the 
entrance of the rapidly rising water. Those miners were able to escape 
as the water flooded in, knocking many of them off their feet. The 
remaining nine miners were quickly forced to find the highest point of 
the mine to escape the rising water.
    The miners were trapped in the far reaches of the mine--about 8,000 
feet from the mine entrance and 250 feet below the surface. Our 
challenge to bring the miners to safety and these men back to their 
families had begun. It was a race against time.
    During my first meeting with the families, as I was leaving to 
return to the site of the rescue operation, I literally had moms and 
dads and wives grabbing my arm saying, ``Bring my son up,'' and ``Bring 
my husband home.'' I realized this was about rescue, not recovery. This 
was about bringing them back up, and we determined to do just that.
    The Pennsylvania Department of Environmental Protection first 
received word of the accident at 9:30 p.m. Richard Stickler, director 
of the department's Bureau of Deep Mine Safety, and Joe Sbaffoni, chief 
of the Division of Bituminous Mine Safety, immediately began to devise 
the first rescue efforts.
    Joe Sbaffoni coordinated with mine officials who provided him with 
estimated elevations of where the breakthrough occurred and the high 
point in the mine where the miners may have sought escape from the 
rising water. Working with that information, department staff provided 
elevation figures, underground survey points and ground-level 
coordinates to engineers who used GPS equipment to determine where to 
drill a 6-inch air hole.
    On July 25th, at 12:50 a.m. a drilling rig arrived on scene and by 
2:50 a.m. began drilling an air hole. By 5:00 that morning, the air 
hole reached the miners. Rescue workers tapped on the drill three times 
on the surface, and miraculously the miners tapped back nine times 
telling us that all nine miners were alive. The compressed air pumped 
into the hole created an air pocket that helped hold back the water 
while the water pumping continued.
    That evening equipment arrived to begin drilling a 36-inch rescue 
shaft that later became known as Rescue Shaft #1. Early on the morning 
of July 26th the 1,500 pound drill bit broke at a depth of 105 feet. 
Another drill was set up to drill Rescue Shaft #2, two feet away from 
the first.
    We were concerned about the possibility that the miners could 
suffer from ``the bends'' once they were brought to the surface. We 
called on the U.S. Navy, and they responded by transporting nine 
hyperbaric chambers, a portable hyperbaric stretcher and personnel to 
the scene.
    By late evening on July 26th, drilling resumed on Rescue Shaft #1. 
Final rescue plans began to take shape with help received from CONSOL 
Energy of Washington County, PA--an award winning team that specializes 
in mine rescue--staff from DEP, the federal Mine Safety and Health 
Administration and the Black Wolf Coal Co.
    At 10:13 p.m. on July 27th Rescue Shaft #1 broke through to the 
chamber. Communications equipment was lowered into the mine, and at 
approximately 11:00 p.m. verbal contact was made with the miners. 
Amazingly, they were in relatively good spirits. They requested ``snuff 
and food.''
    At 12:30 a.m. on July 28th, rescue workers lowered the cage into 
the shaft with food, blankets and other supplies. At 1:00 a.m. the 
first miner was brought to the surface, and by 2:45 a.m. the last miner 
had been safely taken out. All were taken for medical observation and 
treatment and only one miner suffered from the slight case of ``the 
bends.'' He received treatment in the hyberbaric chamber. By mid-week 
all nine had been released from the hospital and returned to their 
families.
    We kept our promise. We brought them home. It was a team effort in 
all respects. The Commonwealth's response teams included the Department 
of Environmental Protection, the Pennsylvania Emergency Management 
Agency, the Pennsylvania State Police, the Pennsylvania National Guard, 
the Pennsylvania Department of Transportation and the Pennsylvania 
Turnpike Commission.
    We are also grateful for the outside assistance that ensured a 
successful rescue. Pennsylvania's efforts were assisted by the National 
Institute for Occupational Safety and Health and the Mine Safety and 
Health Administration, and numerous emergency workers from the area.
    Governor Bob Wise of West Virginia called and offered his support, 
and it was drilling equipment from his state that successfully drilled 
Rescue Shaft #1. We also received the help and support of 
Pennsylvania's Congressional delegation in coordinating federal 
resources and response. Private organizations from West Virginia, 
Maryland and New Jersey donated pumps to assist in the rescue effort.
    Now we must do our part, both in Pennsylvania and across America, 
to ensure an accident like this never happens again. Our miners and 
their families need to know that they are going into the safest 
possible working environment.
    The miners who work in Pennsylvania's vast coal reserves are the 
mining industry's most important resource. The economic impact that 
mining provides this Commonwealth is immense. The combined direct and 
indirect economic benefits from coal mining exceed $11 billion. Without 
our miners, this would not be possible, and it is the responsibility of 
the Commonwealth to ensure a safe workplace for them. This time 
Providence smiled on us, and we were able to return nine for nine. Now 
we must persevere and make Pennsylvania's mines the safest in the 
world.
    The day after the rescue, I announced the formation of a special 
commission to investigate the causes of the Quecreek Mine accident. I 
also tasked this Commission to research better methods to determine the 
exact location of abandoned mines and to improve general mine safety. I 
named Dr. Raja V. Ramani, Professor Emeritus of Mining and 
GeoEnvironmental Engineering at the Pennsylvania State University, to 
lead this panel. Dr. Ramani has more than 40 years of experience in 
mining and is a recognized expert in mine design, operation and safety 
practices.
    The Commission will review existing mining procedures and make a 
comprehensive set of recommendations on how to improve mining 
operations and safety. I look forward to receiving Dr. Ramani's report 
in mid-November.
    Specifically, the commission will make recommendations regarding 
each of the following:
  --The best engineering practices to be used in the design and layout 
        of modern mines that are adjacent to abandoned mines.
  --The regulatory policies and permit review procedures for permitting 
        mines adjacent to abandoned mines.
  --The practices and procedures of mine operations to detect mine 
        voids.
  --The training of mine workers who operate mines adjacent to 
        underground mines.
  --The inspection and compliance of the mine operations with the 
        approved mine plans and operating requirements.
  --The rescue and response procedures, including policies for sharing 
        information with families of miners affected by the accident.
    To date the commission has held two meetings. The first was here in 
Johnstown on October 3rd, followed by a hearing on October 9th in 
Pottsville. The commission will host a hearing again tomorrow in 
Somerset and will meet with the Pennsylvania Coal Association and the 
United Mine Workers of America on Wednesday, also in Somerset.
    On August 28th, I took action to safeguard the lives of coal miners 
in Pennsylvania by ordering bituminous deep-mine operators to submit 
precise information on where water-filled mine voids are located. We 
will no longer rely on old maps.
    My order requires bituminous mine operators to positively identify 
voids ahead of where they are mining if they believe they are within 
500 feet of a water filled mine void. This new requirement more than 
doubles the current 200-foot requirement and provides miners with the 
extra margin of safety they need to deal with this unknown.
    Mining companies must provide the accurate information we're 
looking for, or we will not permit them to continue to mine. I don't 
ever want to see another community go through what the good people of 
Somerset County were forced to endure for 77 hours. If we can't rely on 
maps, then we have to take every precaution possible to keep our brave 
miners safe.
    We stand ready to work with the federal government in ensuring that 
our mines are safe, and that when accidents do happen, emergency 
response and rescue efforts on both the state and federal levels are 
well-coordinated and well-executed.
    Pennsylvania and the federal government must work together to make 
sure that all existing maps are readily available. Production records 
and mine maps must be archived and stored properly so that they are not 
vulnerable to deterioration over time.
    Scanning mine maps into a digital format will provide the access 
needed by federal and state regulatory officials, mining operators and 
the public. Due to the thousands of mining maps in existence, this 
effort may take years and will only be successful with the cooperation 
and financial backing of the federal government.
    I would further note that increased federal funding is needed to 
improve safety training for miners as well as technical training for 
the Bureau of Deep Mine Safety.
    As you know, Dave Hess, my Secretary of Environmental Protection is 
here and will delve into some of the specifics of what his department 
is doing in this regard.
    Thank you Mr. Chairman and I am happy to answer any questions you 
may have.

    Senator Specter. Thank you very much, Governor Schweiker. 
We will reserve the questions until we hear from Mr. Hess.
STATEMENT OF DAVID E. HESS, DIRECTOR, PENNSYLVANIA 
            DEPARTMENT OF ENVIRONMENTAL PROTECTION
    Senator Specter. David Hess was confirmed by the Senate of 
Pennsylvania as Director of the State Department of 
Environmental Protection (DEP) on May 21 of last year. He 
previously served as deputy director of DEP and executive 
director of the Senate Environmental Resources and Energy 
Committee. He received a bachelor's from Shippensburg and a 
master's degree from the University of Illinois.
    Mr. Hess, our practice in the subcommittee, both here and 
in Washington, is 5 minutes on the opening. To the extent 
witnesses can keep within that time, we would appreciate it. 
All written statements will be made a part of the record. We 
look forward to your testimony.
    Mr. Hess. Senator Specter, thank you very much for the 
opportunity to testify, and we have submitted a written 
statement.
    I really appreciate the opportunity and your work in trying 
to get to the bottom of Quecreek and to help State and Federal 
agencies respond to accidents like this and prevent them in the 
future. Right now, as Governor Schweiker said, there are 
several different investigations going on of this particular 
accident. Investigations by MSHA, Mine Safety Health 
Administration and DEP are designed to determine whether there 
have been any violations of law or requirements. If laws and 
safety rules are violated, Governor Schweiker has directed us 
to impose the maximum penalties and sanctions possible against 
those responsible as a deterrent to future accidents.
    If DEP's own requirements need to be changed, they're going 
to be changed, because nothing is more important than the 
safety of the miners. We anticipate that our accident report, 
at least the draft, will be available at the beginning of 
November in time for the Governor's special commission to 
review as part of its activities.
    There's also investigation going on by Attorney General 
Mike Fisher at the request of the Somerset District Attorney 
and as the Governor mentioned the special commission is looking 
at the broader issue of how to locate mine voids.
    The commission's very first action was to go to Quecreek 
for an underground visit to the site of the breakthrough and 
extend an invitation to those individuals directly affected, 
the nine rescued miners sitting behind us, to present their 
perspectives on the accident.
    I would like to elaborate on two points that the Governor 
raised in his testimony. One is on the rescue and the 
successful efforts there, and the second one, preventing 
accidents like this from happening in the future.
    The Quecreek Mine response was the largest mine rescue 
mobilized in Pennsylvania in over 25 years and it was truly a 
team effort. It required a coordinated response from everyone 
involved, the miners themselves, State, Federal, county and 
local government, local emergency and fire rescue resources and 
expertise and equipment from private industry.
    The success of the Quecreek rescue was no accident. It was 
built on advanced planning by the mine operator and rescue 
team, safety training and practice that in some cases started 
years before the accident.
    Four key factors were critical to the success of the rescue 
teams. Specific mine safety and communications plans for each 
mine that involved training and safety requirements for miners 
and up-to-date mine maps showing where the mine was operating 
at the time, regular safety training for the miners themselves, 
regular mine training for the mine State and Federal rescue and 
safety teams, and expertise and equipment provided by the 
special medical rescue team, the so-called SMRT Team.
    Pennsylvania is also one of the few States that requires a 
series of formal certifications for mine workers before they 
enter or operate certain equipment in a mine to make sure they 
are aware of safety requirements.
    Each year mine operators and State and Federal rescue teams 
hold training exercises to put their knowledge and skills to 
the test. Ironically, just a few weeks before the Quecreek 
accident, State and Federal officials held one of their regular 
tabletop exercises to test for rescue and response procedures.
    There is a tremendous pride in what these teams do because 
they know the life of a fellow miner is dependent on how well 
they do a job. The rescue itself was directed by a small group 
of individuals from DEP, MSHA, the SMRT Team and the coal 
company at the incident command center, they developed the 
strategies and directed the resources for the rescue effort.
    Regular and frequent reports to the families of the miners 
first, before the media, was an ironclad rule established by 
Governor Schweiker and should be part of any future rescue 
efforts. Regular briefings of the media to give accurate 
accounts of rescue efforts was also an important part of our 
response and in some cases helped us get resources like large 
pumps that became part of the rescue effort.
    Governor Schweiker's personal involvement in the rescue 
effort, by authorizing special resources and giving straight 
talk to the families of the miners, was another element 
critical to this successful rescue.
    The techniques used in the rescue have literally helped 
rewrite the book on how rescues like this were done. At the 
same time we all know because of our experience at Quecreek we 
can do things better and faster, if we have a next time.
    We can't rely on maps alone to keep miners safe, we need 
layers of protection, better mine maps, better mine designs and 
better mining techniques in the mines to achieve the only goal 
we have in this program, which is protecting the lives of mine 
workers. That starts with the mine application, the design of 
the mine and in this case we know that something went wrong, 
because the mine map that we had on our files did not show the 
correct information on where the voids were.
    However, a later map that was found, that was turned in by 
the daughter of an inspector for the old Department of Mines 
and Mineral Industries, did show that more mining was done in 
the Saxman Mine than was initially reported. Again, the 
investigations will get to the bottom of those issues.

                           prepared statement

    Governor Schweiker's direction to us is clear. Our 
investigations are to go where the information leads us to 
assure the safety of the thousands of men and women in 
Pennsylvania who work in our mines every day.
    I would be happy to answer any questions that you might 
have.
    [The statement follows:]
                  Prepared Statement of David E. Hess
    Senator Specter I want to thank you for this opportunity to join 
Governor Schweiker in presenting testimony today. The Department of 
Environmental Protection greatly appreciates your willingness to take 
on the issue of how to prevent another Quecreek Mine accident in the 
future using the lessons we learned in Somerset County.
    In addition to the review by this Subcommittee, there are now four 
separate investigations being conducted of the accident and the general 
issue of mining close to mine voids. These investigations will result 
in assessing legal responsibility for the accident and making 
recommendations on how to prevent an accident like this in the future.
    Two investigations by executive agencies--the federal Mine Safety 
and Health Administration (MSHA) and the DEP's Bureau of Deep Mine 
Safety--will look in detail at the causes of the accident from the time 
Quecreek Mining first applied for a permit until the water broke 
through from the flooded Saxman Mine and the miners were rescued. These 
investigations will seek to determine if any laws were violated or if 
there were faults in the permitting process or safety procedures by the 
holder of the mine permit, the mine operator or in DEP.
    If laws and safety rules were violated, the Governor has directed 
us to impose the maximum penalties and sanctions possible against those 
responsible as a deterrent to future accidents. If DEP's own procedures 
need to be changed, we will change them because nothing is more 
important than miner safety.
    These investigations involve extensive, individual interviews with 
each of the miners, company officials and engineers for both Quecreek 
and Saxman mines, rescuers and DEP and MSHA staff past and present and 
extensive searches of mine records for both mines. We anticipate our 
draft report on the accident will be completed by the beginning of 
November and be available for public review at that time.
    At the request of Somerset County District Attorney Jerry Spangler, 
Attorney General Mike Fisher began an investigation of the accident in 
August to determine if there are any criminal law violations 
surrounding the accident.
    The fourth review is being conducted by the Governor's Special 
Commission on Abandoned Mine Voids and Mine Safety which is looking at 
the broader issue of how to locate and safely avoid water and other 
hazards presented by mining into abandoned voids.
    The Commission's very first action was to go to Quecreek for an 
underground visit to the site of the breakthrough and extend an 
invitation to the individuals most directly affected--the nine rescued 
miners--to present their perspective on the accident.
    The Commission has already finished two of its three public 
hearings and is due to report its findings to the Governor by November 
15.
    I would like to elaborate on two key points from Gov. Schweiker's 
comments: why the rescue was a success and the steps already being 
taken to prevent an accident like this from happening in the future.
                               the rescue
    The Quecreek mine response was the largest mine rescue mobilized in 
Pennsylvania in over 25 years and was truly a team effort. It required 
a coordinated response from everyone involved--the miners themselves, 
state, federal, county and local governments, local emergency and fire 
rescue resources and expertise and equipment from private industry.
    The success of the Quecreek Mine Rescue was no accident, it was 
built on advanced planning by the mine operator and rescue teams, 
safety training and practice that in some cases started years before 
the accident. Four key factors were critical to the success of the 
rescue team--
  --Specific mine safety and communications plans for each mine;
  --Regular safety training of miners;
  --Training mine, state and federal rescue and safety teams; and
  --Expertise and equipment supplied by the Special Medical Rescue 
        Team.
    Each mine is required to have a safety and communications plan that 
anticipates potential mine hazards and provides miners the training to 
prevent and survive these hazards. Part of the safety and 
communications planning is a requirement to have continuously up-to-
date maps of mined areas so we know where miners are working.
    Pennsylvania is one of only a few states that require a series of 
formal certifications for mine workers before they can enter or operate 
certain equipment in a mine to make sure they are aware of safety and 
other procedures.
    The rescued miners have said the safety training they received 
helped them in several ways, first to warn the other miners to leave 
the rapidly flooding mine, how to share resources and protect 
themselves underground and to understand what rescuers above ground 
would be doing to rescue them. Training includes live action sessions, 
workshops and the computer based Mine Emergency Response Interactive 
Training Simulation known as MERITS.
    Each year mine operators, state and federal rescue and safety teams 
hold training exercises to put their knowledge and skills to the test. 
Ironically, just a few weeks before the Quecreek accident, state and 
federal officials held one of their regular ``table top'' exercises to 
test rescue and response procedures.
    Every year there is also a state and national competition of mine 
rescue teams to see who's the best. There is tremendous pride in what 
these teams do because they know the life of a fellow miner is 
dependent on how well they do their job.
    The expertise provided by the Special Medical Rescue Team was 
critical in this rescue because of the cold, wet and high air pressure 
conditions surrounding the miners. Pennsylvania started the SMRT Team 
in 1982 to develop not only the knowledge, but also the special 
equipment needed for these kinds of rescues.
    But it was the coordinated training and practices that helped us 
deal rapidly with issues as they, surfaced because key players knew 
their roles.
    The rescue itself was directed by a small group of individuals from 
DEP, MSHA, the SMRT Team and the coal company at the incident command 
center. They developed the strategies and directed the resources for 
the rescue effort.
    Regular and frequent reports to the families of the miners first, 
before the media, was an ironclad rule established by Governor 
Schweiker, and should be part of any future rescue efforts. Regular 
briefings of the media to give accurate accounts of rescue efforts was 
also an important part of our response and in some cases helped us get 
resources, like huge pumps, that became part of the rescue effort.
    Governor Schweiker's personal involvement in the rescue effort by 
authorizing special resources and giving ``straight talk'' to the 
families of the miners, was another element,critical to this successful 
rescue.
    The techniques used in this rescue have literally helped rewrite 
the book on how rescues like this are done.
    At the same time we all know, because of our experience at 
Quecreek, we can do things better and faster, if we have a next time.
                      preventing future accidents
    We can't rely on maps alone to keep miners safe: We need layers of 
protection--better mine maps, better mine designs and better mining 
techniques in the mines--to achieve the only goal we have in this 
program--protecting the lives of mine workers.
    Hazards associated with abandoned water filled mines are not new in 
Pennsylvania or anywhere else. In fact Pennsylvania mining law since 
the late 1800s had a requirement to look ahead of where mining was 
occurring to find voids. The 1961 state mine safety law put in a more 
specific requirement to drill ahead once mining got within 200 feet of 
where they think a mine void exists.
    When we get an application for an underground coal mine, the 
operator must submit 23 different application modules that cover topics 
such as: ownership and compliance information, hydrologic information, 
erosion and sedimentation control, reclamation plans, details of 
adjacent mines and extensive mapping requirements for existing and 
proposed mining activity. Any mining maps submitted to DEP must contain 
the seal of a registered professional engineer attesting to their 
accuracy.
    During the permit review we look carefully at maps of the planned 
area of mining and for adjacent mines at least 1,000 feet away from the 
new mine. DEP and the federal Office of Surface Mining have 
repositories of thousands of old mining maps that are supposed to show 
the location of old mine workings. However, many maps are still in the 
possession of educational institutions, consultants and private 
collections since there is no legal requirement for copies of all maps 
like this to be turned over to the state.
    We also solicit comments from over 14 agencies Pennsylvania Fish 
and Game Commissions, Bureau of Historic Preservation, PENNDOT, U.S. 
Army Corp of Engineers and municipal officials. Testimony of citizens 
at public meetings or hearings is also important. Ultimately, a permit 
application is reviewed by our engineers, hydrogeologists, mining 
specialists and compliance specialists to make sure we have the most 
accurate information possible before any decisions are made.
    In the case of the Quecreek Mining permit, it appears part of a 
more recent map of the adjacent Saxman Mine found by investigators 
shows clearly that more coal was removed at the point of break through 
than was shown on the official mine maps submitted by the Quecreek Mine 
and that DEP had on file for the mine.
    The more recent map was found at the Windber Coal Heritage Museum 
among papers donated to the Museum by the daughter of a now deceased 
former inspector for the old state Department of Mines and Minerals who 
inspected the Saxman Mine in the early 1960s.
    By law all bituminous mine operators have to submit final maps of 
their underground coal mine workings under the seal of a registered 
professional engineer or surveyor before they cease operations. And all 
mine inspectors are required to turn over any files or maps they have 
in their possession when they retire. Obviously in this case something 
went wrong and we will know more when our investigation is complete.
    In addition to maps, the Governor's Special Commission is now 
reviewing several promising new technologies that will help us address 
the question of finding mine voids so we don't have to rely on old 
maps. Everything from using robots to map underground mine voids, to 
special forward looking geophysical sensors to pick up underground 
features and new ground imaging techniques are being considered.
    But finding where we think the voids are will only be part of the 
solution and only one layer of protection.
    In August, Governor Schweiker directed DEP to have coal operators 
more than double this warning distance to 500 feet as an added 
precaution before the formal investigations make their recommendations. 
Nineteen bituminous and twelve anthracite mine operators have been 
complying with this requirement. DEP's Bureau of Deep Mine Safety also 
sent special advisories to all deep coal mine operators requiring them 
to review their mining plans and maps as another interim step.
    Again, we believe the investigations now underway will help us 
develop the new mining techniques we can apply to making mines even 
safer and provide another layer of protection.
    Governor Schweiker's direction to us is clear--our investigations 
are to go wherever the information leads us to assure the safety of the 
thousands of men and women in Pennsylvania who work in our mines every 
day.
    For more information on the Quecreek Mine Rescue, visit 
www.dep.statepa.us (directLINK ``Quecreek'').

    Senator Specter. Thank you very much, Mr. Hess. Governor 
Schweiker, you made the comment about digitizing the thousands 
of mine maps and there may be a need for some Federal funding. 
Could you elaborate on just what you have in mind on that item?
    Governor Schweiker. Well, it potentially and likely is a 
complicated process. It involves labor and hours of labor as 
well as, you know, the fancy technology processes that are now 
available in the world of information technology for it to be 
complete, ultimately to be helpful to operators and miners and 
Government.
    The term, you know, is digitizing, and in and of itself 
represents a complicated step, but it can be done, but it's 
going to require some expense. Our estimates, and it's a wind 
chill figure, Senator, that can perhaps go higher and maybe 
would go lower, but we suspect it could be as much as $3\1/2\ 
million.
    As we contemplate, and this is to the heart of your 
question, as we contemplate how we could finance that, and 
certainly the Commonwealth, here in Pennsylvania, is going to 
help to some extent. But I'm told that within the Department of 
Interior in the Federal budget is a sum of money relevant to 
reclamations of mines. Perhaps with a little research, and I 
certainly know that both you and your staff are savvy folks, 
maybe there is an opportunity to identify and access some of 
that funding, and together we would have the prospect of 
financing this important step of creating dependable maps that 
can be quickly accessed through modern means.
    Senator Specter. Governor Schweiker, the Federal Government 
stands ready to be of assistance to you. Congressman Murtha had 
taken the lead on inserting $2 million on the current 
Appropriations Bill to assist on the Quecreek matter.
    We have increased funding for MSHA from $191 million in 
1993 to approximately $261 million this year, substantially in 
excess of the inflation rate. And coal mining safety and health 
has also been increased. So Congressman Murtha who is on 
Appropriations on the House side and I on the Senate side are 
ready, willing and able to be of assistance to you.
    Mr. Hess, you made a comment about what Attorney General 
Fisher is doing on the grand jury investigation and a spokesman 
for the Attorney General, Sean Connolly, is quoted as saying, 
``We will follow the evidence wherever it leads, if our 
investigators uncover criminal wrong doing, we will hold those 
individuals responsible.''
    There has been a report, albeit a preliminary report, that 
the company did not have adequate maps, which I think is 
probably fairly evident, and the critical question that arises 
is, what efforts the company made to have accurate maps, and 
was there any element of deliberateness in misleading the 
miners as to what those risks were?
    Mr. Hess. In terms of the Attorney General's investigation, 
he's doing, they have an environmental crimes unit and they're 
doing that investigation with that particular unit at this 
point from my understanding.
    On the map issue, one of the things that our investigation 
and MSHA is getting to the bottom to is what maps were there, 
what maps were part of the permit process at the time the 
permit was originally issued to the Quecreek Mine. There was an 
additional map as a result of the joint investigation we've 
been doing, found at the Windber Museum, that was not turned in 
apparently by the inspector of the Saxman Mine in the 1960s. 
We're developing and nailing down the specific timeliness.
    Senator Specter. There was a map from the 1960s which was 
not turned in?
    Mr. Hess. That is correct.
    Senator Specter. Who failed to turn it in?
    Mr. Hess. We're nailing that down, but it appears that the 
inspector, who is now deceased, had that more recent map as 
part of his papers, and those papers were donated to the 
Windber Museum.
    Senator Specter. We're going to hear from Mr. David Rebuck, 
president of the Black Wolf Coal Company, later today. But what 
was the obligation of the coal company to have accurate maps?
    Mr. Hess. The coal company is required to identify any 
abandoned mines whether they're filled with water or not within 
1,000 feet of where they plan to put their new mine. That map 
containing information on where the old mines are and where 
they want to put the new mine must be something that has a seal 
from a registered professional engineer on it indicating, and 
by that seal saying that that information was accurate.
    Senator Specter. Was the information accurate?
    Mr. Hess. Obviously the information was not accurate, 
because the miners thought they were at least 300 feet away 
from the water-filled mine void; they obviously were right next 
to it.
    Senator Specter. Should not Black Wolf Coal Company have 
done more to ascertain the accuracy of those maps?
    Mr. Hess. The Black Wolf Coal Company is the contract miner 
for the Quecreek Mine Company, Quecreek holds the actual 
permit, so there is actually several different entities 
involved in this particular operation.
    Senator Specter. Black Wolf is the mining company?
    Mr. Hess. Is the contract mine company, they do the actual 
mining.
    Senator Specter. What is the legal obligation of a contract 
mining company to ascertain the accuracy of the maps?
    Mr. Hess. The original permit and the accuracy of the maps 
would have been the responsibility of Quecreek Mining because 
they are the ones that provided the information to our agency 
to get the original permit. There obviously is a responsibility 
on Black Wolf and the Quecreek Mining Company to assure the 
safety of the miners and follow through with all the safety 
requirements.
    Senator Specter. Well, I can see the obligation of 
Quecreek, the owners of the mines as you articulated, but you 
say the Black Wolf Coal Company has a responsibility as well to 
be sure that the mines are accurate?
    Mr. Hess. They have a responsibility in their specific 
mining plans, how they go about mining the particular seam of 
coal they're in, to comply with all the safety requirements. 
One of the things that, you had mentioned this in the 
introduction, one of the things that the investigation was 
looking at was what were the warning signs that were in the 
mine before that breakthrough occurred and were they heeded, 
did people pay attention to those warning signs.
    Senator Specter. What were those warning signs?
    Mr. Hess. The warning signs would have been any indication 
of water coming through from say, an unknown location more than 
usual.
    Senator Specter. There were plenty of indications of that, 
weren't there?
    Mr. Hess. There were some indications. Again the 
investigation will nail down specifically, based on interviews 
with the miners, interviews with the coal company, the power 
inspector, what those indications were, where they looked at 
those, where water was coming in and should they have reacted 
differently.
    Senator Specter. Was the fact that water was coming in 
communicated to the company?
    Mr. Hess. Again, based on the information from the miners, 
that information was communicated to the company. Again, our 
detailed investigation will nail down that precise sequence of 
events, and that will be ready at the end of this month.
    Senator Specter. Was that information from the miners which 
went to Black Coal also communicated to Quecreek?
    Mr. Hess. I cannot answer that question.
    Senator Specter. Who can?
    Mr. Hess. Again, part of the investigation that our staff 
is doing with MSHA will nail down the precise sequence of 
events and that report will be out the end of this month, the 
beginning----
    Senator Specter. You have interviewed the miners who passed 
that information on to the coal mining company, haven't you?
    Mr. Hess. Yes, our staff and my Safety and Health 
Administration.
    Senator Specter. What did they tell you, did they tell you 
that they notified Quecreek as well as Black?
    Mr. Hess. My understanding is, and again, they did notify 
the Black Wolf Coal Company. I don't know at this point without 
conferring with staff whether there was any other 
communications.
    Senator Specter. Well, would you please confirm with your 
staff and let the subcommittee know?
    Mr. Hess. I would be happy to do that. And again, all those 
details will be in our draft report at the end of this month.
    Senator Specter. Mr. Hess, the reports are that your 
regulators approved the original permit; is that so?
    Mr. Hess. That is correct.
    Senator Specter. What is involved in the approval of the 
original permit by DER?
    Mr. Hess. When the, an application comes in, it has at 
least 23 different sections, everything from who the mining 
company is and what their past compliance record is to the map 
that I mentioned that shows where old mining has occurred near 
or under the new mine, where they want to mine as far as the 
new, new operation, and also other background information on 
where ground water is, geology and so forth.
    All that comes in, that is, goes through an extensive 
review process that often takes more than a year to look at and 
verify things like the map information to the best of our 
ability, and also asked the public for comments, asked local 
government for comments, and other agencies as well. It's a 
fairly extensive review process.
    Senator Specter. When you talk about an extensive review 
process from your department for the approval of original 
permits, do you take a look at the issue of mapping? You have 
the Saxman Mine adjacent and it is a common practice, we are 
told, to have an adjacent owner encroach upon underground mines 
and nobody can find out about it. They take away the coal, it 
doesn't belong to them, and it impacts on the safety of the 
adjoining territory.
    So my question to you is what did your department do about 
trying to ascertain the accuracy of the maps?
    Mr. Hess. Well, mining next to old mines is nothing new in 
Pennsylvania, we have a 125 year history of mining.
    Senator Specter. So you're on notice that that could be a 
problem?
    Mr. Hess. Exactly. As the Governor had mentioned, we have 
mining laws that go back many, many years to address that 
particular issue. Because we know there is not only a hazard 
with water, but we know that there is a hazard with bad air and 
other conditions that could affect the safety of the miners.
    What we do typically in a case like this is go back and 
verify to the best of our ability from our archives of over 
10,000 mining maps that we have and from other sources the 
veracity of the information. Did, the registered professional 
engineer or surveyor who put that information on that map, did 
that person do that accurately? That's a key consideration. 
Because obviously, we don't want a repeat of what happened 
here.
    The record in this regard has been fairly good, but one is 
too many, and that's why through the Governor's special 
commission, we want to identify new techniques. Because as I 
mentioned, this is an issue where we want layers of protection, 
not just one map. For example, the special commission has 
already identified technology that could be put on mining 
machines that looks forward of where they are mining without 
drilling to identify voids. These are the kinds of layers of 
protection that we need.
    Senator Specter. Mr. Hess, is it adequate to authenticate 
the maps when there is reason to believe that the adjacent 
owner may have moved beyond the adjacent owner's property and 
gone into the adjacent property so that the map would be 
misleading?
    Mr. Hess. The assumption in these cases, because there are 
a lot of old mine workings, is that you want the best 
information, the hardest information possible on where those 
adjacent mines are and where those voids are. We don't start 
with the assumption that some of these maps are valid on their 
face, we do detective work to the best of our ability.
    Obviously in this case, from where the preliminary 
investigation shows, a more recent map that was held by the 
mine inspector, and who is unfortunately now deceased, had more 
information on it. Had we had that map, obviously things would 
be different at this point.
    Senator Specter. Well, it seems to me that when you have an 
approval of a permit and you know that the practice is for 
adjacent property owners to encroach, that the maps would not 
be accurate, but there is an obligation to go beyond and to 
ascertain what those facts are. Especially in a context where 
you have evidence of leakage which is transmitted to Black Wolf 
Coal Company; do you agree?
    Mr. Hess. And that's part of the layers of protection.
    Senator Specter. Do you agree?
    Mr. Hess. I agree, because that is part of the layers of 
protection that I was speaking to. You don't just rely on the 
map. This problem is going to be solved by a couple different 
things, including looking for those warning signs, new 
technology as you're mining that looks ahead, and other steps 
that are going to assure the safety of the miners.
    Senator Specter. Are you familiar with the technology which 
is being developed by Carnegie Mellon? After this incident I 
visited Carnegie Mellon and they have a radar gun which can go 
into the mines and flush out where the boundaries really are.
    Governor Schweiker, you're nodding in the affirmative, do 
you care to respond to that?
    Governor Schweiker. I'm certainly not someone who is deeply 
schooled in the elements of that technology. It certainly is 
relevant, I don't think the conclusion has been drawn that that 
will, that it would be a great help given the unique condition, 
the existing cavern below in Quecreek. It certainly is 
fascinating, but I think they've got quite a distance to travel 
before it's going to be genuinely helpful.
    Senator Specter. Governor Schweiker, I think you're right 
about that, but as you noted, it's a start. Mr. Hess, to what 
extent has your department received that Carnegie Mellon 
technology?
    Mr. Hess. The Carnegie Mellon technology, as the Governor 
said, I think it is promising, it is a robotic technology that 
would send a robot into certain areas.
    I think after they have talked with our staff, there are 
safety requirements and other things that need to be made, but 
there are also other technologies that have come to light 
because of the Governor's special commission that would 
actually put a geophysical sensor on the front of a piece of 
mine, the continuous mining equipment that is frequently used 
in room-and-pillar miners to help locate voids ahead of the 
mine.
    Again, I think these are promising things and I think the 
Commission is going to be very helpful in identifying which 
ones may have promise and which ones need further development.
    Senator Specter. Is there any technology you're looking at 
beyond that which is suggested by Carnegie Mellon?
    Mr. Hess. Yes, in fact of the Governor's Commission at 
their hearing in, in anthracite country just 1 week ago heard 
from this additional developer of that piece of equipment that 
is put right on the mine equipment itself.
    We have quite, we have had quite a few contacts directly 
that we referred to the Commission on these new different 
technologies, including other technologies, imaging 
technologies where you can locate voids from the surface.
    Again, many of them show promise and that's something that 
the special commission is helping us sort through.
    Senator Specter. Mr. Hess, beyond the issue of permitting, 
your department also conducts inspections. What inspections 
have been conducted of this Quecreek Mine?
    Mr. Hess. The Quecreek Mine was on, in fact our regular 
inspection schedule, we at least get there monthly for 
inspections.
    Senator Specter. When had you been there immediately prior 
to July 24?
    Mr. Hess. I do not have the specific date, but it was just, 
I believe within the last, within a few weeks before that.
    Senator Specter. What did the inspection show?
    Mr. Hess. Again, I don't have the inspection report in 
front of me, we'd be happy to get that to you.
    Senator Specter. Why don't you have the inspection report? 
That is obviously a pertinent matter for this hearing.
    Mr. Hess. We can certainly provide that for you. The 
history of the Quecreek Mine has been that it has been a safe 
mine, it has been operated safely. They have had a couple of 
typical kinds of violations in terms of minor roof falls and 
some other things that happened in a mine of that sort. 
Characteristically, though, in terms of this mine it has been a 
relatively safe mine.
    Senator Specter. Thank you very much, Governor. Thank you 
very much, Mr. Hess. We would appreciate it if you would 
provide us with the prior inspection. We would like to know on 
the prior inspection whether any of the miners were interviewed 
about water leakage and about any of these safety factors, and 
we would also like the specifics on what the miners had said to 
Black Wolf, to Quecreek with respect to the notice which they 
had specifically about these problems.
    Mr. Hess. We will also provide the Committee with our draft 
full report as well.
    Senator Specter. When can we get that?
    Mr. Hess. It should be available as I mentioned--
    Governor Schweiker. Later, November.
    Mr. Hess. The first week in November.
    Senator Specter. Again, Governor, congratulations on the 
vigil.
    Governor Schweiker. Well, I thank you for that remark.
    Senator Specter. It was very reassuring for people around 
Pennsylvania, including Arlen Specter, and I think people 
around the world.
    Governor Schweiker. We did talk, and I remember your 
supportive remarks and the attempt at making contact because it 
was a busy time for all us.
    Senator Specter. I called you, I didn't want to bother you 
but I thought there was something more that you could relay, 
but it was reassuring. The Governor is the man to be on the 
scene.
    Governor Schweiker. Senator, I can tell you that I'm often 
asked about that decision, and I don't think any of us, whether 
we hold office and have rank or may be an observer, that one 
would visit 200 family members in that volunteer fire company 
hall as I did, as Dave and I both did when I first got there, 
and would not depart, knowing that we just witnessed high 
anxiety, as you might expect, and just the tremendous feeling 
of pressure and urgency, that you would not depart.
    The folks behind me, who are dear people, and of course an 
entire region that ultimately came to know some time after the 
weekend, I don't think we knew it at the time, that it would 
become an international story that no one with any compassion 
or concern would have departed, especially if he had an 
opportunity to effect a complete rescue.
    As I said before that, you know, they needed to know that 
their Governor was going to stick it out and to that end we did 
stick it out, and I thank the Good Lord in that, the remarkable 
ingenuity and labor of so many people in helping us complete 
the rescuing.
    As I tried to make clear in my remarks, Senator, you know, 
the miners themselves, let's not forget there were nine 
additional men who had gotten out, was because of Dennis Hall's 
phone call where he said the water is coming, get out. They are 
able to fight through the onrushing water to get out. But the 
nine down below, I suspect in my life I will never again meet 
more determined people with a remarkable reservoir of 
perseverance. I mean they are just, you would want your kids to 
meet them as I did. For all those reasons we prevailed.
    Senator Specter. The symbolism of your presence was very 
important. President Bush of course came to talk to the miners 
in early August.
    On a somewhat lighter note on a very, very heavy subject, 
but for the historical record, when did you change your shirt?
    Governor Schweiker. I didn't think that was going to come 
up here.
    Senator Specter. You're under an obligation to answer that.
    Governor Schweiker. I should tell you, Senator, and 
certainly I know this is an important and serious gathering of 
information to be arranged and discovered, that my wife did 
call me on that historic Saturday early in the morning and I 
had only gotten about two hours sleep at that point and she 
knew I was going to go off quickly and early that morning. She 
called, and I said thanks for calling, it was about 5:00 in the 
morning. She said, you know, people are saying that you all are 
doing a good job. And I said, well, thank you. She goes, she 
went on to say, but they're also saying you're wearing the same 
thing every day, are you going to be changing your shirt 
sometime soon? So in that regard I did go out and buy another 
shirt.
    But anyway, it was a remarkable experience for all and a 
soul-changing experience for all. To that end, I think folks 
who had their soul affected are greatly appreciative of your 
inquiry here and helping us as advocates for them in getting to 
the bottom of it, so to speak. Thank you.
    Senator Specter. Thank you very much, Governor Schweiker. 
Thank you, Mr. Hess.
STATEMENT OF DAVID D. LAURISKI, ASSISTANT SECRETARY OF 
            LABOR, MINE SAFETY AND HEALTH 
            ADMINISTRATION, DEPARTMENT OF LABOR
    Senator Specter. Our next Witness is Mr. David Lauriski, 
confirmed by the U.S. Senate as the Seventh Assistant Secretary 
of Labor for Mine Safety and Health on May 9th, 2001. Mr. 
Lauriski was the General Manager of Energy West Mining Company, 
served as chairman of the Utah Board of Oil, Gas and Mining, 
was a board member of the Utah Mining Association, served as 
chairman of the Coal Mine Safety Committee and the Chairman of 
the Safety Commission for the Utah Coal Operators. A certified 
mine safety professional, he attended the Utah State University 
and the College of Eastern Utah.
    Welcome, we look forward to your testimony.
    Mr. Lauriski. Good morning, Mr. Chairman. I'm pleased to 
appear before you today to discuss the work of the Mine Safety 
and Health Administration to promote miner safety and health. I 
have a written statement and request that it be included in the 
record.
    It's a great pleasure to be near the site of the recent 
Quecreek Mine in the company of some of our distinguished 
partners in that rescue, and in particular Governor Mark 
Schweiker. Our cooperative effort there showed what we can 
accomplish when we worked together. This rescue was one of our 
proudest accomplishments but one that could not have been 
successful without that cooperative effort.
    We're now investigating the Quecreek Mine and working with 
the Pennsylvania Bureau of Deep Mine Safety. MSHA investigators 
have examined the mine, selected records and interviewed 
witnesses and we're now developing a complete picture of what 
happened. When they reach their conclusion we will publish a 
full report, of which I will provide you a copy.
    Meanwhile, we are already taking steps to prevent similar 
accidents. We have conducted a risk assessment at mines across 
this country to determine the potential for a similar 
breakthrough, and we're working closely with mine operators on 
the precautions they need to take to prevent a similar 
occurrence.
    We have a task force reviewing the availability, accuracy 
and quality of old mine maps and next week we will hold a 
technical symposium in Charleston, West Virginia on methods to 
accurately identify the extent and perimeter of coal mining 
operations.
    At Quecreek the whole community worked as a team. After 
Quecreek, MSHA must devote equal dedication and teamwork for 
the prevention of accidents that cause death, injury or 
illness. That is our mission, a mission prescribed by the Mine 
Safety and Health Act of 1977.
    The same team of MSHA professionals who gave their best to 
save the miners at Quecreek, also work every day with hundreds 
of other safety and health specialists to prevent accidents 
among the Nation's 350,000 miners at some 14,000 mines.
    The mining industry and MSHA can look back on a record of 
tremendous advances in safety and health; however, beginning in 
the mid 1990s, safety improvements reached a plateau. This 
accords with the law of diminishing returns. From its creation 
MSHA has focused mainly on enforcement to create and maintain a 
safe and healthy physical environment, and this undeniably has 
achieved tremendous results.
    At some point, however, it has become more difficult to 
achieve significant improvements simply through concentrating 
on the same thing, enforcement. No one is satisfied that we 
have done all that we can do. Doing more of the same, operating 
under old assumptions will not necessarily bring further 
improvements to get us to the next level of safety performance.
    We need to maintain safety and maintain enforcement, but it 
is clear that we need to supplement it with other approaches as 
well. The Mine Act provides us with a broad range of tools 
along with enforcement to improve health and safety in mines. 
We need a balanced approach, what I call the MSHA Triangle of 
Success. The three sides of that triangle are enforcement, 
education and training, and technical support, all of which 
include the component of compliance assistance. All three are 
necessary for further progress.
    I have said over and over: On my watch there will be no 
less enforcement, I have kept that pledge. In the Nation's coal 
mines, the completion rate for mandatory inspection has 
remained constant as with previous years. In 2001 we spent more 
inspection hours per coal mine than ever before. Also in 2001 
MSHA issued more citations and orders than in the years before.
    We have seen a long-term decline of significant and 
substantial violations at mines. Some have interpreted this as 
a sign of lax enforcement. I would like to deal with that right 
now.
    Significant and substantial violations are those with 
reasonable likelihood to produce a serious injury or illness. 
As the mining industry's nonfatal days loss incidence rates 
decreased, the percent of these types of violations decreased 
in parallel; that is exactly what we would and should expect. 
Many mine operators have corrected the most serious hazards, 
this is reflected in the lower injury rate.
    What we have here is further evidence that the Mine Act is 
working, but we also see the plateau that I have discussed. 
Again, it shows that we need a new approach, a balanced 
approach.
    In applying the MSHA Triangle of Success, we're also 
responding to a critical need for compliance assistance. Most 
mine operators want to have safe and healthful work places and 
want to comply, but some need help due to lack of resources and 
due to the volume and complexity of these Mine Act regulations.
    We need to recognize this, recognize their need for 
assistance and offer the help they need. For instance, our 
safety, health and compliance specialists now work with mine 
operators and miners to identify system weaknesses that may 
lead to accidents. And we are providing more user-friendly 
training materials and more on-site training. We opened a new 
Office of Small Mine Safety. We are making new training 
materials on our web site available in Spanish, and we use data 
to focus our efforts.
    This year the majority of fatal accidents occurring in the 
metal and nonmetal sectors have occurred during maintenance, 
repair and construction activity. We are now conducting an 
outreach program to help operators and miners prevent these 
accidents.

                           prepared statement

    We're starting to see results, Senator. Despite some 
setbacks last year, the mining industry is in its safest year 
on record. We continue to strengthen our work force through 
hiring, through training and more effective management of 
resources. We expect even greater progress in the months and 
years to come.
    Thank you, Mr. Chairman, that concludes my remarks and I'm 
happy to answer any questions.
    [The statement follows:]
                Prepared Statement of David D. Lauriski
    Mr. Chairman and Members of the Subcommittee: I am pleased to 
appear before you today to discuss the ongoing efforts of the Mine 
Safety and Health Administration (MSHA) to promote miners' safety and 
health. It is especially gratifying to be here in Johnstown, near the 
site of the recent rescue of nine miners at the Quecreek mine. It is a 
pleasure to be in the company of our distinguished partners in that 
effort--Governor Schweiker and Mr. Hess. Another of our partners, Mr. 
Rebuck, will appear on the next panel.
    I have spent virtually all of my life and career associated with 
the mining industry and I can tell you that I never before experienced 
the range of emotion that came with that event. I was concerned about 
the welfare of the trapped miners. I was prayerful that we could reach 
them and confident that we would. I was elated when we heard the 
miners' voices and knew they were safe. I was proud of the level of 
expertise shown by MSHA's safety and health professionals and the 
teamwork they exhibited. I was honored that we were part of a team that 
included the Commonwealth of Pennsylvania, local governments, the mine 
operator, miners and the many volunteers who gave their time and effort 
to rescue the trapped miners. And I will never be able to express the 
emotion I felt when the ninth miner arrived safely at the surface. As 
all of us worked through the days and nights in the drizzling rain, we 
never lost hope.
    Those who participated on the team at Quecreek were people who had 
a stake in the mission of our agency--to protect the health and safety 
of the Nation's more than 350,000 miners working at approximately 
14,000 mining operations. Our stakeholders include miners, mine 
operators, labor organizations, industry organizations, equipment 
manufacturers, State agencies and others. As at Quecreek, we must all 
work as a team, as partners, to identify the causes of accidents and to 
take corrective action.
                          quecreek no. 1 mine
    The Quecreek No. 1 Mine, operated by Black Wolf Coal Company, began 
production in March 2001. On July 24, 2002, at 9:40 p.m., officials at 
the Quecreek No. 1 mine notified MSHA that water was rushing into the 1 
left section and that 9 miners were unaccounted for. MSHA staff 
immediately issued an order under Section 103(k) of the Federal Mine 
Safety and Health Act of 1977 (Mine Act) to ensure the safety of the 
miners. When MSHA issues such an order, the mine operator is required 
to obtain MSHA approval, in cooperation with the appropriate State 
representatives, for any plan to rescue or recover miners or to return 
the mine to normal operations. Three MSHA officials from the field 
office here in Johnstown, along with Commonwealth of Pennsylvania 
staff, arrived at the mine about 10:45 p.m. MSHA technical support 
staff arrived at about 1:00 a.m.
    In the course of the next three days, some 50 MSHA employees 
directly participated in the rescue, with many more working behind the 
scene. Our Mine Emergency Operations staff arrived bringing the MSHA 
Command Center. This is a bus-type vehicle that serves as a temporary 
on-site MSHA headquarters. It is equipped with several types of 
communication equipment, a conference area, and normal office equipment 
(fax and copy machines, etc). During a mine emergency, the Command 
Center is staffed around the clock by appropriate enforcement and 
technical personnel. MSHA employees worked with the State and the 
company to approve rescue plans. We used a seismic detection system to 
help detect the pounding signals produced by the trapped miners. And we 
called in mine rescue teams to enter the mine in the event it was 
necessary.
    A drill rig was set up to drill a 6\1/2\ inch borehole to be used 
in an attempt to establish communication with the miners. Starting in 
the early morning hours of July 25th, the drilling progressed until 
5:06 a.m. when the 6\1/2\ inch borehole broke through into the mine in 
the 1 left section. We were elated to hear tapping on the drill steel 
from underground. Later that morning, nine taps were again heard from 
underground and we were hopeful that the tapping meant all nine miners 
were alive. Throughout the rest of that day and the next day, pumps 
were put in place to pump water out of the mine. A large drill rig 
arrived on site to begin a large-diameter borehole that could be used 
as an escape shaft. At 10:16 p.m. on July 27, the escape drill hole 
broke through into the 1 left section of the mine. A communication 
system was lowered into the mine and we learned that all 9 miners were 
alive and in reasonable condition. Food and water were then lowered 
using the MSHA rescue capsule. I am sure most of you have seen pictures 
of the rescue capsule and know what it looks like. It was lowered by a 
crane and had a TV camera mounted on the bottom to provide continuous 
video of the borehole. Thirty years ago, a similar capsule was used to 
rescue two miners from a silver mine fire in Idaho. The present capsule 
was constructed after that. For 30 years, MSHA has maintained the 
capsule as part of our mine emergency equipment. We began to bring the 
miners up, one at a time, in the rescue capsule At 2:45 a.m. on July 
28, we pulled the last miner through the rescue shaft.
                        maps of abandoned mines
    While our investigation of this accident is ongoing, I can draw no 
final conclusions about the cause. However, there have been questions 
about the accuracy of the map of the abandoned Saxman mine, adjacent to 
the Quecreek Mine, on which the mine operator, Black Wolf, relied. The 
Federal Coal Mine Health and Safety Act of 1969 contained the first 
Federal requirement that a mine operator which permanently closes or 
abandons a coal mine must file with MSHA a certified up-to-date copy of 
the mine map. This requirement was carried over to the 1977 Mine Act 
and remains today. Some States have similar requirements that predate 
the 1969 Act and my colleagues can explain the Pennsylvania 
requirements. After receiving the final map, MSHA evaluates it to 
assure the map's depiction of elevations and closed-end developments of 
mine workings are accurate. MSHA retains the map at the district office 
and sends a copy of the map to the Office of Surface Mining of the U.S. 
Department of Interior. The Saxman mine, adjacent to Quecreek Mine, was 
abandoned prior to the 1969 Coal Act and, therefore, MSHA had no copy 
of their final map.
                           maps for new mines
    MSHA requires that all new mines submit a mine ventilation map for 
approval before beginning operations. The map must be drawn or 
certified by a registered engineer or surveyor. The map must show all 
known mine workings that are located in the same coalbed within 1,000 
feet of existing or projected workings, and the locations of all known 
mine workings underlying and overlying the seam to be mined, noting the 
distance between the workings. The map must also show the dip of the 
coalbed to allow for proper evaluation of mine drainage. When an 
advancing working place approaches within 200 feet of any mine workings 
of an adjacent mine located in the same coalbed, MSHA requires that the 
operator drill boreholes into and in advance of the working face. The 
200-foot requirement provides a margin of safety to detect mine voids 
not shown on maps. Black Wolf Coal Company fulfilled its obligation to 
submit this map at the time of start-up. The map on the day of the 
accident did not indicate that mine workings at the Quecreek mine were 
within this 200-foot zone. We are examining Quecreek Mine records and 
maps as part of our investigation. You may be aware that our 
investigators located at a local museum what appears to be a portion of 
an old map of the Saxman Mine. The map differs from the map of Saxman 
Mine held by Black Wolf. Our investigators are studying this map and 
comparing it to the actual workings.
                              inundations
    MSHA is addressing the issue of inundations from abandoned mines. 
We have conducted a risk assessment of mines throughout the country to 
determine the potential for similar breakthroughs. We immediately 
issued an order to our field staff to focus on mines with a potential 
for breakthrough and to work with individual mine operators to ensure 
that necessary steps are taken to protect against these types of 
incidents. We have established a task force of MSHA personnel who are 
working with other interested parties to review the availability, 
accuracy and quality of old mine maps. Next week we are sponsoring a 
national symposium on Geotechnical Methods for Mine Mapping 
Verification. We will gather miners, mine operators, academia, and 
State and Federal personnel to discuss the most current technology and 
safe work practices to avoid the hazards associated with abandoned 
mines and inaccurate mine maps. Geotechnical equipment companies will 
display the latest technology at the symposium. We are hoping that, by 
working together, we can identify technology that could be useful. In 
any case, old maps, many inaccurate, are what the industry has to work 
with to identify abandoned mines. We will soon have a Public Service 
Announcement asking that people turn in any old mine maps they might 
have. We will also review MSHA safety standards and practices to 
identify any appropriate changes.
    There is another aspect of the problem of abandoned mines I would 
like to address. Every year, dozens of people are injured or killed 
while exploring or playing on mine property. There are over 14,000 
active mine sites and there may be as many as 500,000 abandoned mines 
in the Nation. Last year, at least 31 children and adults died in 
recreational accidents on mine property. These deaths were the result 
of drownings, falls down abandoned mine shafts, and overturned ATV 
equipment. Hazards in underground abandoned mines include deep vertical 
shafts, horizontal openings supported by rotting timbers, unstable rock 
formations, lethal concentrations of deadly gases, water, and the 
presence of unused or misfired explosives. Both children and adults 
like to explore the tunnels and shafts, unaware of the inherent 
hazards. MSHA coordinates a national public awareness campaign to warn 
the public about the dangers of exploring and playing on mine property. 
More than 70 Federal and state agencies, private organizations, 
businesses and individuals have become active partners in the campaign. 
Over a 2-week period each Spring, we deliver safety talks in schools 
throughout the country to educate children about the importance of 
steering clear of these sites. I am proud that we have this partnership 
program and know that we are saving children's lives.
                    jim walter resources no. 5 mine
    Just ten months before the Quecreek accident, explosions at Jim 
Walter Resources Number 5 underground coal mine in Alabama killed 13 
miners and injured 3 others. This tragic event touched the mining 
community deeply and continues to resonate throughout the mining 
industry. We are close to completing our investigation of that accident 
and writing the final report. Our investigation team will identify any 
and all facts that will assist us in preventing this type of disaster 
from occurring in the future. If appropriate, we will take enforcement 
action to address any deficiencies found during the investigation. Some 
stakeholders expressed concerns about MSHA practices at that mine prior 
to the accident. As a result of that concern, I have assigned an 
internal review team to investigate the quality of our management 
processes and procedures, including enforcement activities at the mine 
and the MSHA district in which it is located. The internal review, like 
the accident investigation, is continuing. I can assure you that any 
deficiencies identified will be fully addressed and corrected. Because 
of the ongoing investigation and review, however, I am not at liberty 
to discuss the particulars of that accident.
                           balanced approach
    There have been tremendous advances in safety and health in the 
mining industry over the past 30 years. However, beginning in the mid-
1990's, statistics show that continued improvement reached a plateau 
and we have seen no further significant reduction in nonfatal accident 
rates. I met with a significant number of our stakeholders to discuss 
this and to hear their concerns and views on how we can make mining 
safer. My staff met with hundreds more stakeholders. During these 
meetings, we heard concerns about MSHA's one-dimensional approach: The 
Agency has historically emphasized the enforcement mechanism embodied 
in the Act, focusing on physical conditions in the workplace. The Act, 
however, provides us with a broad range of tools, such as education and 
training--compliance assistance--and technical support, in addition to 
enforcement. I believe the increased use of these additional tools will 
take us from the current plateau to the next level of improved safety 
performance. But let me be clear about one thing: Enforcement will 
continue to be a key component of our efforts and we will not lessen 
those efforts, as some have suggested.
    While the mining industry has increased productivity and improved 
technology, the Agency has not significantly changed its business 
strategy since enactment of the Mine Act in 1977. Following our 
stakeholder meetings, we devised a management plan that will meet the 
challenges of the 21st Century and help move the mining industry to a 
new level of safety and health. The plan focuses on more collaboration 
with stakeholders, assistance to the industry in preventing accidents 
and illnesses, and improvements in our internal practices to enhance 
mine safety and health performance. I took this plan back to our 
stakeholders with the challenge for them to work with us to get to the 
next level of safety. And I asked for their commitment to work 
collectively with us to reduce accidents and illnesses. To this, they 
have agreed.
                              enforcement
    MSHA continues to actively enforce the Act. Last year, we completed 
98 per cent of the mandatory four inspections per year at each 
underground coal mine and two inspections per year at each surface coal 
mine. But because some mines are open only part of the year, or because 
mines close before the end of the year, we will never reach 100 per 
cent statistically, though we still will have met our obligation. Over 
the years, the coal industry has contracted; the number of mines has 
significantly decreased. While coal production increased to a record 
level in 2001, overall coal consumption declined by 2 percent. The 
additional production was used to replenish depleted stockpiles that 
resulted from 2 years of declining coal production during which coal 
consumption had increased.
    MSHA must adjust its resources to reflect this decrease in the 
number of coal mines. In fiscal year 2002, MSHA began to ``right-size'' 
its workforce to respond to the decline. The budget for fiscal year 
2003 provides for us to continue adjusting to the reduced number of 
coal mines, yet provides us with sufficient resources to continue to 
meet our inspection obligations.
    While the number of coal mines has decreased, there has been an 
upsurge in activity in the metal and nonmetal mining industry, 
especially in the crushed stone and sand and gravel sectors that supply 
the construction industry. There appear to be a number of reasons for 
this increase. For instance, the Transportation Equity Act provided 
funding for a significant number of new highway construction projects. 
Reduced interest rates have put home ownership within the reach of many 
citizens who otherwise would not have been able to afford to own their 
own home. Housing starts are up to meet this demand. These factors and 
others have resulted in the number of metal and nonmetal mines and 
miners steadily increasing over the past several years to meet the 
demand for construction materials and other products. In response to 
this increase, over time, we have been increasing the number of staff 
assigned to the metal and nonmetal program.
    We recognize that we have had less success in completing the 
mandatory number of inspections in this industry than in the coal 
industry. Not only has there been an increase in the number of mines, 
the increase has been mostly in the aggregate industry, which has 
always been seasonal in nature. Completing mandatory inspections at 
seasonal mines is difficult. For example, a rock crushing operation may 
open to build a portion of a road.
    The operation would then be counted as a mine and we would schedule 
an inspection. However, when we arrive to make the inspection, that 
portion of the road may have been completed and the operation shut 
down. On paper, we have failed to conduct a mandatory inspection. In 
spite of the problem with seasonal mines, we hope to improve the 
inspection completion rate in fiscal year 2003. The budget requests 
increasing the number of FTE assigned to the metal and nonmetal 
program.
    In response to stakeholder comments, we have been conducting pro-
active inspections. We have developed mine profiles that highlight the 
problem areas of any given mine. Our safety, health and compliance 
specialists concentrate on those areas or activities that are most 
likely to cause injuries or create health problems. We have trained 
these specialists to focus on overall safety and health matters and to 
identify system weaknesses that may lead to accidents. These weaknesses 
may involve violations of existing regulations or factors not covered 
by regulations.
    We are making progress. Calendar year 2001 was our safest year in 
history. We had a record-low number of fatalities in the mining 
industry. For the coal program, although the number of fatalities has 
increased in recent years, we remain convinced that as our initiatives 
are fully implemented, substantial improvements will be achieved. In 
fact, as of today, the calendar year-to-date number of coal fatalities 
is significantly below the levels of the previous three years.
    We have analyzed the causes of this year's fatal accidents in the 
metal and nonmetal industry and have found that 59 per cent are a 
result of maintenance, repair or construction activities. As a result, 
we are currently conducting a two-week industry outreach program to 
specifically focus attention on the hazards present in these activities 
and to assist mine operators in implementing preventive practices. MSHA 
safety, health and compliance specialists are visiting mines to provide 
mining personnel with information on fatal accidents, best practices, 
and hazard awareness and recognition.
    Earlier, I mentioned the plateau we reached in the mid-1990's when 
the nonfatal days lost injury rate (or NFDL) flattened. At about the 
same time, we saw a reduction in the number of significant and 
substantial (or S&S) violations at mines. S&S violations are those that 
have a reasonable likelihood to produce a serious injury or illness. As 
the NFDL injury rate decreased, the percentage of S&S violations 
decreased at about the same rate. That is exactly what we would expect 
to occur. Many mine operators have corrected the most serious hazards 
and this is reflected in the lower injury rate. This reflects the basic 
philosophy of the Mine Act--the declining number of serious violations 
correlates with the rate of decline in serious injury rates.
    As I said earlier, we are concerned about this flattening of the 
injury and fatal incidence rates. However, the traditional enforcement 
scheme is no longer bringing a reduction in these rates. We must do 
more. The agency must utilize additional approaches. We must use our 
other tools. To do otherwise would be to accept the status quo; and 
accepting the status quo is NOT something we should be willing to do.
                         training and education
    As I stated earlier, we must use all the tools of the Mine Act to 
bring further reductions in accidents and illnesses. Our stakeholders, 
from the individual miner at the mine to the CEO of a corporate mine 
operator, have told us that training for the mining industry is crucial 
to the success of our program to reduce accidents and illnesses. We are 
responding to their call for more user-friendly training materials for 
mine operators and miners. They also called for more on-site training 
where safe practices related to specific problems can be demonstrated. 
Our safety, health and compliance specialists are now providing such 
training when they uncover system deficiencies at mines. We are also 
exploring innovative approaches, such as web-based learning, DVDs, and 
the use of simulation devices. We continue to analyze accidents to 
determine patterns or trends so we can identify problems, find 
solutions, and create awareness through training and education.
    Secretary Chao recently announced a major new compliance assistance 
initiative to help employers better understand and meet their 
responsibilities to protect workers. We know that the vast majority of 
mine operators want to comply but are often hampered by the volume and 
complexity of Mine Act regulations. If we are to get to the next level 
of safety, we need to recognize industry's cry for assistance and give 
them the help they need, not just to comply with regulations, but to 
have a broader view of how to identify and prevent hazards, and to 
provide miners with safe and healthful workplaces. We need partnerships 
where we share abilities and information. For example, we are 
developing materials on Best Practices culled from industry, labor, 
academia, and MSHA experience for use at all mines. Most importantly, 
we must assist mines with poor performance or limited resources.
    In support of the Administration's initiative, we in MSHA have 
developed a Compliance Assistance Plan that sets out the specific steps 
we are taking to improve our outreach to mine operators and miners. 
Compliance assistance can mean different things to different people. We 
use the term broadly to identify concepts and accident prevention 
activities such as education and training, accident and violation 
analysis, hazard identification, root cause analysis, technical 
support, and access to information. Access to information means the 
information is readable, easily understood, and written in plain 
language the reader understands--in other words, user-friendly. Because 
we know that there are increasing numbers of Spanish-speaking workers 
in the mining industry, we have translated numerous best practices 
cards, student and instructor guides, entire training programs, and 
handout materials. All of the materials on our website are now 
available in Spanish.
    Our web site, www.msha.gov, provides access to a multitude of 
resources for compliance assistance. In 2001, there were over 55 
million ``hits'' on the MSHA web site, excluding those by agency 
employees. On the web site, we have posted a list of the 20 standards 
most often cited by major commodity and mining type and are beginning 
to post information on safe practices for each of those. On the web 
site, miners and mine operators can find safety tips, accident 
investigation reports, hazard alerts and bulletins, and single source 
pages as well as access to MSHA's Data Retrieval System.
    Compliance assistance is always needed when new regulations are 
issued. I believe that the assistance should be rendered before the 
regulation becomes effective so that everyone is aware of their 
obligations and knows how to comply ahead of time. Our new final rule 
on hazard communication took effect on September 23, 2002, for mines 
with more than five miners. Prior to that date, we held 15 National 
Roll-Out Meetings and about 100 supplemental local meetings to give 
each of those mine operators the opportunity to learn how to comply 
with the rule. The rule will become effective on March 21, 2003, for 
mines with five or fewer miners. We are preparing to provide on-site 
compliance assistance to those mines before that date.
                              small mines
    Operators of small mines face unique challenges in protecting their 
workers. In metal and nonmetal mining, about one-half of all mines 
employ five or fewer miners. In the coal industry, nearly one-fourth 
employ five or fewer miners. Small mines typically have fewer resources 
to devote to safety and health and often lack the expertise to 
implement accident prevention programs. Small mines have higher 
fatality rates. In calendar year 2000, mines with five or fewer 
employees had a fatal incidence rate four times greater than the rate 
at operations employing 20 or more. To bring small mines to the next 
level of safety, we are developing a Small Mine Initiative. We have 
established an Office of Small Mine Health and Safety in our 
Directorate of Educational Policy and Development.
    The Office will coordinate a national program to assure compliance 
at small mines and to give compliance assistance. The staff will 
determine the special needs of small mine operators and help develop 
programs to address those needs.
                              regulations
    When developing regulations, we assess the impact of the 
regulations on all mines, and on small operators in particular. We will 
review existing regulations to determine applicability to current 
mining practices and to identify those that create an undue burden on 
small mine operators. Let me give you an example of what I mean.
    I spoke with a mine operator in the bluestone industry who was the 
only miner at his operation located in the back yard of his home. 
MSHA's rules require that each mine have a stretcher to be used to 
transport injured miners. He asked me why he had to have a stretcher if 
there was no one to carry him out on the stretcher. My answer to him 
was that this was a prime example of a well-intentioned rule that was 
not flexible and which needs to be reassessed to allow alternate 
methods of complying with the intent of the rule, while maintaining 
equal safety and health protections. This is but one example where a 
one-size rule does not fit all.
    MSHA has published several important final rules recently. The 
hazard communication rule, an information and training rule, will 
reduce injuries and illnesses related to chemicals in the mining 
industry by increasing miners' and mine operators' awareness of 
chemical hazards. The high-voltage longwall rule allows a mine to use 
current technology without the need to petition the Agency for a 
modification of a standard. This rule recognizes that advanced 
technology, already in widespread use in the mining industry, can be 
used safely when it meets stringent requirements.
    We are working on rules that will address the continued risks 
associated with exposure to respirable coal mine dust. These rules 
would provide for verification of a mine operator's dust control plan 
to ensure it works effectively under typical mining conditions. 
Additionally, MSHA is considering a proposed rule that would allow the 
measurements of respirable coal dust taken during a single shift, in 
lieu of several shifts, to be used to determine the atmospheric 
condition to which a miner is exposed. These two rules would work in 
tandem to control coal mine respirable dust levels in mines and reduce 
miners' exposure to this extreme health hazard.
    The Office of the Inspector General recommended that we take 
regulatory action on asbestos to address three issues. They recommended 
that we lower the existing permissible exposure limit for asbestos, 
change the analytical method we use to quantify and identify fibers in 
our asbestos samples, and address take-home contamination from 
asbestos. We issued an Advance Notice of Proposed Rulemaking in March 
of this year requesting information and data from the public to assist 
us in our deliberations. We held seven public-meetings on asbestos and 
solicited written comments. The public comment period closed in July. 
We are examining all of the testimony and written comments as we move 
forward in our decision-making process.
    In January of 2001, MSHA published a final rule addressing the 
health hazards to underground metal and nonmetal miners from exposure 
to diesel particulate matter. The rule requires the use of approved 
equipment and establishes a concentration limit for DPM in the mine 
atmosphere. Some provisions of the rule were challenged in court. We 
entered settlement negotiations with the parties. I am happy to report 
that an agreement was reached and the legal challenge has been stayed 
pending implementation of the agreement. Pursuant to the agreement, 
MSHA delayed the effective date of one provision and clarified others. 
The interim concentration limit went into effect as scheduled and MSHA 
is providing compliance assistance for one year. Also, as part of the 
settlement agreement, MSHA has published an Advance Notice of Proposed 
Rulemaking on several provisions.
    Another rulemaking currently in process would provide a simplified 
compliance alternative for conducting methane tests during roof bolting 
in underground coal mines. The proposed rule is based on a joint 
recommendation by industry and labor organizations. We think this is an 
example of stakeholders working together to improve the rulemaking and 
compliance process.
    We have just proposed a rule that would allow us to accept testing 
and evaluation of certain mine equipment by independent laboratories. 
We are also working on a proposed rule on the use of belt entry 
ventilation for coal mines that recognizes that improved technology, 
such as new atmospheric monitoring systems, may make it possible to 
safely use this type of ventilation.
    These are the rules on which we intend to concentrate our 
resources. These are our priorities.
                           technical support
    Our technical support staff includes experts on ventilation, roof 
support, dust control, electricity, ground stability, structural 
analysis, impoundment stability, mine fires and explosions, and 
chemical exposure. While mine operators provide rescue teams, MSHA 
gives technical assistance to the operators during mine emergencies. 
You saw our technical support people in action during the Quecreek 
rescue. Many parties drew on their expertise in the decisions on where 
to locate the miners, where to drill the boreholes, and the many other 
decisions that were critical during the successful rescue effort. Mine 
rescue is just one of the many ways we give technical assistance. These 
same individuals are creating partnerships with other government 
agencies, equipment manufacturers, mining companies, and trade and 
labor organizations to more effectively identify and evaluate 
technological solutions to mining hazards. We are also identifying new 
technologies to address emerging hazards.
                               conclusion
    In conclusion, Mr. Chairman, I am very honored to be able to lead 
the Mine Safety and Health Administration. MSHA staff care deeply about 
the safety and health of America's miners. You witnessed this at 
Quecreek. Our stakeholders also care deeply. No one is satisfied that 
we have done all we can do to reduce accidents and illnesses. But we 
have reached a plateau and, according to the Law of Diminishing 
Returns, doing more of the same, operating under the old assumptions, 
will not necessarily bring further improvements or get us to the next 
level of safety. We have examined our way of doing business and devised 
the new management plan for the Agency that will emphasize enforcement, 
but will add to it by increasing training and education, compliance 
assistance, and technical support. I am confident that, working with 
our stakeholders, we can get to the next level of safety.
    Mr. Chairman, that concludes my prepared remarks. I would be happy 
to respond to your questions.

    Senator Specter. Thank you very much, Mr. Lauriski. I will 
begin by asking you about the adequacy of the funding for MSHA. 
The appropriation in 1993 was $191 million, and in 2002 $253 
million and the Senate has put in its Appropriation Bill which 
Senator Harkin and I took the lead on, almost $262 million; is 
that adequate?
    Mr. Lauriski. Well, I think it is, Senator, I think it is 
adequate in the sense of how you apply those resources. What we 
need to consider is where we put our best efforts to get an 
adequate return on an investment. One of the things we talked 
about since I've been here is making sure that we allocate our 
resources in areas where we make a difference, and that's in 
the field.
    Senator Specter. The MSHA overseers signed off on the 
ventilation and site safety plans, when did that occur, Mr. 
Lauriski?
    Mr. Lauriski. Well that, the ventilation plan would be 
every 36 months, I assume we're talking about Quecreek now?
    Senator Specter. I'm talking about Black Wolf, Quecreek, 
I'm talking about this incident.
    Mr. Lauriski. There would have been an initial filing with 
the Agency to look at their ventilation and roof control plans 
along with other plans that are required by regulations.
    Senator Specter. You are talking about the general rule, 
but how about specifically, do you know?
    Mr. Lauriski. Specifically, it would have happened on 
several occasions.
    Senator Specter. It would have happened? I want to know if 
it did happen?
    Mr. Lauriski. Yes, sir, it happened.
    Senator Specter. Do you have those records?
    Mr. Lauriski. Yes, we have those records.
    Senator Specter. What date was that inspection carried out?
    Mr. Lauriski. The last time we were at the mine was just a 
week before the accident, but the plans you're talking about 
would have been every 6 months from the beginning of the 
inception of the mine.
    Senator Specter. I was about to come to the inspection, but 
I wanted to start with the overseers signing off on ventilation 
and site safety plans; when did that occur?
    Mr. Lauriski. Sir, I'll be happy to get that for you, there 
is an approved plan that would be in our office that would show 
that.
    Senator Specter. Mr. Lauriski, why didn't you bring that 
with you to this hearing?
    Mr. Lauriski. Chairman, I didn't know that would be 
something you would want to know about, but I will certainly 
have that available.
    Senator Specter. Of course, the subcommittee is interested 
to know what the safety plan was, that is the purpose of the 
hearing.
    Mr. Lauriski. Yes, sir, I understand that, sir. There are 
several plans that are required by the coal company to be filed 
with the agency, including the ventilation plan.
    Senator Specter. Do you know what the safety plan said?
    Mr. Lauriski. It would say what----
    Senator Specter. No, I don't want to know what it would 
say, I want to know if you know what it did say?
    Mr. Lauriski. No, I do not.
    Senator Specter. We're going to have to have another 
hearing.
    Mr. Lauriski. I do know that it would say what the minimum 
requirements of the standards are and what additional standards 
the company would take in certain instances.
    Senator Specter. What are the minimum requirements of the 
standard?
    Mr. Lauriski. In ventilation it would be a minimum 
requirement to have 12,000 cubic feet of air, for example, at 
the last open cross-cut. It would be the requirement to have 
bolting on a spacing pattern, either 4 or 5 feet, the size of 
the bolts that would go into the roof. There would be training 
requirements that would be submitted too, the kinds of training 
that the mine operator had to apply that meet the standard, 
such as new miner training, annual retraining, those sorts of 
things would be in all these plans. There are guidelines that 
are provided by our standards.
    Senator Specter. That is the generalization, but as you 
say, you cannot tell me what happened here?
    Mr. Lauriski. Not specifically.
    Senator Specter. That's the requirement; you cannot tell me 
specifically what occurred on this situation?
    Mr. Lauriski. Again, Senator, I'm a little bit confused, 
because the plans themselves are prescribed by law to be filed, 
and there are items within the regulations that the operator 
must submit within that plan that we would then take a look at 
improving. Included in that would be the amount of air that 
would be available, the types of bolts that would be used for 
control of the roof, the kinds of, again, training.
    Senator Specter. What kind of bolts would be required?
    Mr. Lauriski. The operator could use a bolt that would be 
adequate to maintain the roof if either through a----
    Senator Specter. Wait a minute, I know it would be 
adequate, but what?
    Mr. Lauriski. Probably in this case they used resin bolts.
    Senator Specter. Mr. Lauriski, it's not adequate, not 
sufficient for you to tell me probably. I want to know what was 
done, I want to know what the inspection showed, I want the 
specifics here. There are a lot of requirements which were not 
followed, it happens all the time, that is why you have 
congressional oversight. We need to get down to the specifics 
as to what happened here.
    There are reports here that the bolts were inadequate, 
there was a thin veneer, inspection was made a week before, 
what did the inspection show? Have there been any reports of 
flooding, of water coming in?
    Mr. Lauriski. Those questions I can answer, Senator.
    Senator Specter. Okay, if you can answer them, fine.
    Mr. Lauriski. I can answer those questions.
    Senator Specter. The question is, what were the facts as to 
water coming in?
    Mr. Lauriski. The week before we were there, there was 
nothing abnormal that our inspector reported seeing; however, 
the inspector had visited the mine when the mine was getting 
ready to go under a stream channel. He asked the mine operator 
to submit a plan for dealing with any water that may come into 
the mine as a result of crossing under that bed.
    Senator Specter. Why did he ask the owner to submit a plan 
for water; was there some indication that there was a water 
problem?
    Mr. Lauriski. There was an indication that they were going 
to cross under a bed of water that was in a stream, a creek, if 
you will, so that there was an assurance that the mine operator 
was taking adequate precautions to deal with crossing under 
that bed during the mining process.
    But with respect to what they physically saw at the mine 
the week before this incident, they saw nothing abnormal, 
either in the first left section or the second left section. 
That's the report.
    Senator Specter. They saw nothing abnormal?
    Mr. Lauriski. Nothing abnormal.
    Senator Specter. Did you review the report yourself that 
they concluded there was nothing abnormal?
    Mr. Lauriski. I have spoken with the inspector and I have 
spoken with the supervisors of the office that offered the 
reports.
    Senator Specter. My question was, did you look at the 
reports themselves?
    Mr. Lauriski. I have not, but that is part of the 
investigation material that our investigators will gather for 
this accident.
    Senator Specter. But we are conducting an investigation 
here, Mr. Lauriski, that is why we would like to have the 
firsthand information.
    Mr. Lauriski. Senator, that is being told to me directly by 
the officials in the district which the mine is located by the 
inspector himself.
    Senator Specter. I appreciate that, but hearsay is not as 
good as seeing the record, and talking about the record is not 
as good as having the subcommittee look at the record, so would 
you please provide the record to us?
    Mr. Lauriski. Absolutely.
    Senator Specter. Had you had any indications of the mapping 
being inadequate?
    Mr. Lauriski. At the time of the accident, no, we did not. 
Subsequent to the accident during our investigation, we did 
uncover at a museum, the Windber Museum, near here, a map that 
appears to be, a portion of the map that shows something 
different than what the mine operator's map showed.
    Senator Specter. Even in addition to the map, as we covered 
with Mr. Hess, it is a common occurrence for adjacent owners to 
move in or take coal from an adjacent property. So whatever the 
mine map showed, wouldn't necessarily be adequate. To what 
extent does your Department as MSHA take into account the 
encroachment of adjacent coal miners?
    Mr. Lauriski. We have very similar regulations to those of 
Pennsylvania. Mine operators are required, when they file their 
map, to include indications of approaching any old abandoned 
mine within 1,000 feet. That would be part of their mine 
mapping requirements, so they would have to show those 
boundaries. As they mine toward those boundaries, if they 
approach within 200 feet of those boundaries, they have to 
begin a very rigorous drilling process ahead, not only straight 
ahead, but at 45 degree angles across the working areas where 
they are cutting.
    Senator Specter. Is that 200 feet requirement adequate?
    Mr. Lauriski. Yes, that is one of the things we are looking 
at, Senator. To make sure, we are conducting rigorous 
investigation to see, is that something that we need to look 
at, is it adequate or is it not adequate? It has been in place 
since 1969. I believe that the founders of the Mine Act 
recognized the seriousness of the problem, there are literally 
thousands of these abandoned mines across this country.
    Senator Specter. That's an act of Congress?
    Mr. Lauriski. An act of Congress.
    Senator Specter. We can change it.
    Mr. Lauriski. I understand.
    Senator Specter. But we are not, we would like to have your 
judgement on it.
    Mr. Lauriski. We are going to be looking very closely at 
that.
    Senator Specter. We may become experts or we may not, 
depending on what we find, but you are an expert now. What is 
your conclusion?
    Mr. Lauriski. My conclusion is not there yet. Until I see 
the investigation report in terms of what we found and what all 
of the facts were in this case, I have not reached that point 
yet.
    We have an issue here where we have a map that appears to 
be different from the map that the mine operator was using to 
show those boundaries. That map appears to be consistent with 
what we saw in the mine itself where the breakthrough occurred. 
We need to understand what if any precautions were being taken, 
what the actual distances were between what the mine map showed 
from the operator versus what the old Saxman Mine showed. Then 
we have already undertaken a risk assessment of all these 
processes across this country. And once we have the ability to 
see this investigation, we'll take a very close look at our 
regulations to determine whether or not they are adequate. If 
they are not adequate, Senator, we'll change the rules.
    Senator Specter. Do you need an act of Congress to do that?
    Mr. Lauriski. No, we do not. We can do that from a regular 
perspective.
    Senator Specter. When do you expect to formulate your 
judgement? You have got a lot of mining going on every day.
    Mr. Lauriski. We hope to have a report within the next 
month to 2 months. They are very close right now.
    Senator Specter. Are there Federal criminal statutes which 
apply to this kind of a situation?
    Mr. Lauriski. Certainly they could. If we found that there 
was reckless disregard or there was knowing conduct, that could 
be something that could be referred to----
    Senator Specter. Or false maps?
    Mr. Lauriski. Or false maps.
    Senator Specter. Or failing to take precautions knowing 
that there was water leakage?
    Mr. Lauriski. Anything where we could determine that there 
was a failure on the part of an operator, a knowing failure or 
a reckless disregard, could in fact put the case toward 
criminal prosecution.
    Senator Specter. Have you notified the U.S. Attorney with 
jurisdiction of this matter to take a look?
    Mr. Lauriski. Not at this point, not until we finish our 
investigation. Our investigation will determine whether there 
were infractions to the regulations and it will determine the 
level of those, the negligence on the part of the mine 
operator. If any of those infractions meet the standard for 
notification, we will then do that.
    Senator Specter. Well, shouldn't the U.S. Attorney be 
apprised of an early date to take whatever steps the U.S. 
Attorney thinks appropriate by way of empaneling a grand jury?
    I think you ought to notify--never mind, Mr. Lauriski, I'll 
notify the U.S. Attorney. I think the U.S. Attorney ought to be 
in on this matter. The U.S. Attorney has a lot of authority in 
convening a grand jury, on subpoenaing the witnesses, on taking 
testimony.
    Well, okay, Mr. Lauriski, you're not prepared to make any 
recommendations today. How soon do you expect to have those 
recommendations, you say a month or two?
    Mr. Lauriski. We hope that we'll have a completed report 
within 1 month or 2.
    Senator Specter. On behalf of the subcommittee, may I 
request that you do that as early as possible?
    Mr. Lauriski. Yes, sir.
    Senator Specter. Let us know. If you find the need for 
regulations, how long does it take you to promulgate 
regulations? There are a lot of procedural steps you have to go 
through, that is a time-consuming process, even after you come 
to the conclusion that you want these regulations.
    Mr. Lauriski. That is correct.
    Senator Specter. How long will it take?
    Mr. Lauriski. Normally at the outside, if you bypass the 
advance notice process, we could be talking 12 to 18 months to 
put a rule through. If there were evidence that the situation 
was grave enough, we could enact an emergency temporary 
standard, but that's something we will a take a very close look 
at, that could move this process faster.
    Senator Specter. Mr. Lauriski, I hope it's possible on your 
schedule for you to stay for the conclusion of the hearing. We 
hope to hear from some of the miners yet today who may be in a 
position to shed some light on some of the questions you are 
considering; can you stay?
    Mr. Lauriski. Sure.
    Senator Specter. Thank you. We now move to panel III. Mr. 
Ed Yankovich, Joseph Main, Howard Messer, George Ellis, David 
Rebuck.
STATEMENT OF EDWARD YANKOVICH, JR., PRESIDENT, DISTRICT 
            2, UNITED MINE WORKERS OF AMERICA
    Senator Specter. Our first witness will be Mr. Ed 
Yankovich, President of District 2 of the United Mine Workers 
of America since 1989. Mr. Yankovich represents nearly 25,000 
active and retired miners in Pennsylvania, New York, and 
Western Maryland. He previously served as a member of the Labor 
Counsel Advisory Committee for the AFL-CIO. Graduate of the 
California University of Pennsylvania. Mr. Yankovich, thank you 
for joining us today.
    Mr. Yankovich. Thank you, Senator.
    Senator Specter. Any prepared statement will be made a part 
of the permanent record and we look forward to your testimony, 
sir.
    Mr. Yankovich. I want to begin by thanking Senator Specter 
for the opportunity to speak before the Subcommittee today on 
behalf of the United Mine Workers of America.
    I would also like to express our heartfelt thanks to the 
Senator for his long serving commitment to ensuring that proper 
laws and safeguards established by the Mine Health and Safety 
Act are enforced protecting miners in this Commonwealth and our 
entire Nation.
    I will not detail the United Mine Worker's position as to 
the changes that should be considered to the applicable 
provisions of the Act to prevent potential disasters from 
occurring similar to this summer's events at Quecreek Mine in 
Somerset County. Joe Main, who is the Director of Safety for 
the United Mine Workers of America International Union, will 
testify in this hearing addressing our position on this matter.
    I would like to take time here today to salute the bravery 
of all 18 miners who escaped a tragic death thanks to the 
divine intervention of God.
    The nine men who were trapped for 77 hours proved to our 
Nation and the whole world the steadfastness of spirit, the 
compassion of humanity, and the bonds of brotherhood that 
miners all over the world possess, in facing the daily dangers 
of our chosen occupation.
    I would hope that the goal of this subcommittee is to bring 
to light efforts that can be made and provisions that can be 
established to prevent such an occurrence from ever happening 
again.
    I would also like to add that our concerns over health and 
safety of our Nation's miners goes beyond Quecreek. The recent 
mine disaster in Alabama that killed 13 miners, and 3 years of 
increased coal mining deaths in our Nation's mines, shows there 
are serious health and safety problems. It also identifies the 
fact that an increase in the enforcement of the Mine Safety and 
Health Act is needed.
    Many miners, as well as myself, are concerned about the 
current direction of MSHA. In addition to actions to weaken the 
enforcement of the Mine Act, there are attempts to cut the 
Agency's enforcement budget. I urge that your committee 
seriously examine these concerns.
    In conclusion, I'm compelled to commend Senator Specter 
again. Through his efforts during administrations of both 
parties, he has been steadfast in demanding that the budget 
cuts in the funding of MSHA not be permitted. I know that he 
once again faces this challenge in light of this accident.

                           prepared statement

    Safety in our Nation's mines should be the first and 
foremost focal point given priority consideration by all of our 
branches of Government. To cut funds and weaken the agency's 
ability to do so is not acceptable to the United Mine Workers 
of America, nor should it be to any person who enters our 
Nation's mines to make a decent and honest living.
    Senator Specter. Thank you very much, Mr. Yankovich.
    Mr. Yankovich. You're welcome, sir.
    [The statement follows:]
             Prepared Statement of Edward D. Yankovich, Jr.
    I want to begin by thanking Senator Specter for the opportunity to 
speak before this Subcommittee today on behalf of the United Mine 
Workers of America. I would also like to express our heartfelt thanks 
to the Senator for his long serving commitment to ensuring that proper 
laws and safeguards established by the Mine Health and Safety Act are 
enforced, protecting miners in this Commonwealth and our entire nation. 
I will not detail the United Mine Workers of America's position, as to 
the changes that should be considered to the applicable provisions of 
the Act to prevent potential disasters from occurring, similar to this 
summer's events at the Quecreek mine in Somerset County.
    Joe Main, who is the Director of Safety for the United Mine Workers 
of America International Union, will testify later in this hearing, 
addressing our position on this matter. I would like to take time here 
today to salute the bravery of all 18 miners, who escaped a tragic 
death, thanks to the divine intervention of God. The nine men who were 
trapped for 77 hours, proved to our nation and the whole world, the 
steadfastness of spirit, the compassion of humanity and the bonds of 
brotherhood that miners all over the world possess, in facing the daily 
dangers of our chosen occupation. I would hope that the goal of this 
Subcommittee is to bring to light efforts that can made and provisions 
that can be established to prevent such an occurrence from ever 
happening again.
    I would also like to add that our concerns over the health and 
safety of our nation's miners goes beyond Quecreek. The recent mine 
disaster in Alabama that killed thirteen miners and three years of 
increased coal mining deaths in our nations' mines, shows there are 
serious health and safety problems. It also identifies the fact that an 
increase in the enforcement of the Mine Safety and Health Act is 
needed. Many miners, as well as myself, are concerned about the current 
direction of MSHA. In addition to actions to weaken the enforcement of 
the Mine Act, there are attempts to cut the Agency's enforcement 
budget. I urge that your committee seriously examine these concerns.
    In conclusion, I am compelled to commend Senator Specter again. 
Through his efforts during administrations of both parties, he has been 
steadfast in demanding that budget cuts in the funding of MSHA not be 
permitted. I know that he once again faces this challenge, in light of 
this accident. Safety, in our nation's mines, should be the first and 
foremost focal point, given priority consideration by all of our 
branches of government. To cut funds weakening the Agency's ability to 
do so is not acceptable to the United Mine Workers of America, nor 
should it be to any person who enters our nation's mines to make a 
decent and honest living.

STATEMENT OF GEORGE ELLIS, PRESIDENT, PENNSYLVANIA COAL 
            ASSOCIATION
    Senator Specter. We turn now to Mr. George Ellis, president 
of the Pennsylvania Coal Miners Association. Prior to taking 
this position, Mr. Ellis was a member of the Keystone 
Bituminous Coal Association and the executive director of the 
Pennsylvania House of Representatives' Mines and Energy 
Management Committee, and a graduate of King's College in 
Wilkes-Barre, the heart of coal country.
    Welcome, Mr. Ellis, and we look forward to your testimony.
    Mr. Ellis. Thank you, Senator, and good morning. You have 
my complete testimony so I'll try and summarize what I think 
the high points are.
    One of the things I do want to start off with, though, is 
the commitment that PCA member companies have to safety is 
paramount. PCA, PCA members, our coal companies do not play 
Russian roulette with their workers' safety. The evidence 
indicates that that is the case. While mining inherently is a 
dangerous job, our companies' commitment to safety is 
paramount, among all mining factors.
    Both the State and Federal laws have served to focus the 
attention of industry and miners on the prevention of hazardous 
conditions that lead to major disasters. One clear purpose of 
the law was to develop a safety culture within the mining 
community designed to ensure, not only compliance with 
standards, but also to emphasize the importance of risk 
analysis in reducing or minimizing the causes of accidents.
    These laws, coupled with Federal and State regulators 
working in tandem with mine operators and their employees, and 
the tremendous advances that have been made in mining 
technology, have unquestionably been effective in reducing the 
frequency of accidents and fatalities in Pennsylvania's coal 
mines. This is evidenced by the trend line illustrated on the 
attached chart to my testimony.
    As Governor Schweiker and Secretary Hess said, both the 
Lost Time Accident Frequency Rate and the Fatal Accident 
Frequency Rate have decreased in Pennsylvania over the past 
decade as overall coal production increased by 25 percent.
    While a single fatality is one too many, our commitments to 
workers' health and safety is equal to any other coal producing 
State or Nation.
    Indeed, prior to Quecreek, Black Wolf's safety lost time 
advisory, lost time accident frequency rate was zero. It was 
our understanding that the purpose of this hearing was to 
discuss mappings and rescue efforts, so I prepared my testimony 
for that.
    I do want to talk about July 24, though, obviously, when 
nine very brave coal miners became trapped underground at the 
Quecreek Mine. For the next 78 hours America and the world 
watched as a team of able rescuers relentlessly struggled to 
bring these men to the surface, which is certainly a profile in 
courage and valor and a testament to the skill and 
determination of both the rescuers and those that they saved.
    From the beginning, DEP, MSHA and Black Wolf Company 
officials emerged as the triumvirate heading the rescue effort. 
DEP and MSHA, two deeply ingrained safety cultures that at 
times appeared to be on a collision course, set aside their 
rivalries, integrated operations at a designated command center 
and managed and coordinate the response. Together with company 
officials, they marshaled their considerable skills and 
resources and collectively evaluated the situation and made the 
correct decisions that ultimately lead to the rescue of the 
trapped miners. It was an extraordinarily unified effort that 
was as remarkable as it was successful.
    As you begin to analyze the events that led to the 
accident, it is important to understand the comprehensive 
statutory and regulatory requirements already in place 
governing the mine. Generally speaking, PCA believes that the 
current State and Federal requirements for the mapping of 
mines, and for the retention of maps, are adequate. It is the 
accessibility of old maps that is the problem.
    The current standards for mapping abandoned mines appears 
to be sufficient and the current buffer requirements provide an 
additional layer of safety to account for potential 
inaccuracies. What is lacking, though, is a central repository 
for maps, and the most important recommendation that can be 
made is for the State or Federal Government to gather all the 
available maps, plot them on a uniform coordinate system and 
place them in a computerized central repository that is readily 
accessible to agencies, operators, employees and the public. On 
the State level, Representative Bob Bastian moved to introduce 
legislation this week that will provide $4 million for this 
effort.
    In addition to approving the collection, storage and 
archiving of mine maps, we also ask that you consider and 
address the limited resources available to support mine rescue 
teams. These are critical responders to mine emergencies and 
sufficient funding should be allocated to sustain their 
efforts. In addition, NIOSH should be encouraged to continue 
its research on mine emergencies and development of training 
materials to address such emergencies.
    Finally, there is a significant concern about the prompt 
payment of vendors who respond to mine emergency situations. 
While we laud the recent efforts of Congress to include a $2 
million line item in a Defense Appropriation Bill to help 
defray the rescue cost, we also recommend that you consider 
establishing a continual fund to ensure timely payment to the 
vendors who participate in a mine rescue.
    Once the arrangements are worked out between the carrier 
and the company, then the State or Federal Government could 
collect its money, recover its expenses there.
    We also recommend that a centralized database of vendors is 
developed on both the State and national levels to facilitate 
rescue efforts.

                           prepared statement

    The rest of my testimony, Senator, really highlights, sets 
out the comprehensive State and Federal regulatory requirements 
on mapping and submission of maps. I don't know how much more 
time I would have, but I'd be glad to answer any questions.
    [The statement follows:]
                   Prepared Statement of George Ellis
    Good Morning. I am George Ellis, President of the Pennsylvania Coal 
Association (PCA).
    Seated with me is David Rebuck, President of the Black Wolf Coal 
Company, Joseph Yuhas, counsel for Black Wolf, and R. Henry Moore of 
Buchanan Ingersoll, P.C., counsel to PCA on mine safety issues. We 
appreciate this opportunity to provide comments on the Quecreek Mine 
accident.
    PCA is a trade organization representing surface and underground 
coal operators that produce three-fourths of the bituminous coal 
annually mined in the Commonwealth and over 90 percent of the coal 
produced by underground mining methods. In addition, it represents 
companies whose existence depends in whole or in part on a robust coal 
industry by providing essential services, ranging from engineering and 
consulting to financial, insurance and the sale of mining equipment.
    The Association's mission is to advance the mining and use of the 
state's most abundant and economical energy resource in an 
environmentally responsible manner through sound legislative and 
regulatory policies and judicial decisions.
    Pennsylvania ranks fourth among the states in the annual production 
of bituminous coal. Last year we mined 85 million tons and directly 
employed over 8,000 workers. Using conventional multipliers, the 
Pennsylvania coal industry has a combined direct and indirect economic 
benefit in excess of $11 billion.
    Over 90 percent of Pennsylvania's coal production is used to 
generate electricity. Last year, coal accounted for more than half (51 
percent) of the electric power generated nationally and 59 percent of 
the power produced in Pennsylvania.
    While coal mining, inherently, is a dangerous job, PCA member 
companies' commitment to safety is paramount among mining factors. We 
closely follow the sage maxim that a safe mine is a productive mine and 
a productive mine is a safe mine.
    The state and federal safety laws have played a significant and 
longstanding role in fostering occupational safety and health in our 
mines.
    These acts have served to focus the attention of industry and 
miners on the prevention of hazardous conditions that lead to major 
disasters and loss of life. One clear purpose was to develop a safety 
``culture'' within the mining community designed to ensure not only 
compliance with regulatory standards relating to the physical 
conditions of the mine but also to emphasize the importance of risk 
analysis in reducing or minimizing the ``causes'' of accidents.
    These laws, coupled with federal and state regulators working in 
tandem with mine operators and their employees and the tremendous 
advances that have been made in mining technology, have unquestionably 
been effective in reducing the frequency of accidents and fatalities in 
the state's coal mines.
    This is evidenced by the trendlines illustrated on the attached 
charts. Both the Lost Time Accident Frequency Rate and the Fatal 
Accident Frequency Rate have decreased in Pennsylvania over the past 
decade as overall coal production increased by 25 percent. While a 
single fatality is one too many, our commitment to workers' health and 
safety is equal to any other coal producing state or nation.
    It is our understanding that, among other things, the purpose of 
the hearing is to discuss mapping of abandoned mine adjacent to active 
workings, the coordination of Federal, State and Local rescue efforts 
following the Quecreek Mine inundation; and the adequacy of Federal 
funding for the mine-related emergencies. We will address a number of 
these issues in our testimony.
    On July 24th, nine very brave coal miners became trapped 
underground at the Quecreek Mine in Somerset County. For the next 78 
hours, American and the world watched as a team of able rescuers 
relentlessly struggled to bring these nine men to the surface. This 
profile in courage and valor was a testament to the skill and 
determination of both the rescuers and those they saved.
    From the beginning, DEP, MSHA and Black Wolf company officials 
emerged as the triumvirate heading the rescue effort. DEP and MSHA, two 
deeply ingrained safety cultures that at times appear to be on a 
collision course, set aside their rivalries and historical turf 
battles, integrated operations at a designated Command Center 
(initially near the mine portal then later at the rescue site) to 
manage and coordinate the response. Together with company officials 
they marshaled their considerable skills and resources and collectively 
evaluated the situation then made the correct decisions that ultimately 
led to the rescue of the trapped miners. It was an extraordinarily 
unified effort that was as remarkable as it was successful.
    As you begin to analyze the events that led to the accident, it is 
important to understand the comprehensive statutory and regulatory 
requirements already in place governing mining activities. The 
following includes a discussion of the current statutory, regulatory 
and policy guidance requirements relating to mine maps for bituminous 
underground mines and which regulate mining near adjacent workings, as 
well as mine permits and planning requirements and rescue and response 
procedures.
    Generally speaking, PCA believes that the current state and federal 
requirements for the mapping of mines and retention of the maps are 
adequate, but the accessibility of old maps is the problem. The current 
standards for mapping abandoned mines appear to be sufficient and the 
current ``buffer'' requirements provide an additional layer of safety 
to account for potential inaccuracies. What is lacking, though, is a 
central repository for maps; and the most important recommendation that 
can be made is for the state or federal government to gather all the 
available maps, plot them on a uniform coordinate system and place them 
in a computerized central repository that is readily accessible to the 
agencies, operators, employees and the public.
    On the state level, Representative Bob Bastian of Somerset County 
has proposed legislation that would appropriate $4 million to DEP for 
the conversion of some 10,000 underground mine maps to GIS (Geographic 
Information System) data and images. The funding 2 would include all 
drilling and geophysical surveying activities necessary to accurately 
locate the entire extent of mine workings. Sixty-three other State 
House members have joined Representative Bastian as sponsors of the 
legislation and the Representative intends to introduce the measure 
this week.
    In addition to improving the collection, storage and archiving of 
mine maps, we also ask that you consider and address the limited 
resources available to support mine rescue teams. These are critical 
responders to mine emergencies and sufficient funding should be 
allocated to sustain their efforts. In addition, NIOSH should be 
encouraged to continue their research work on mine emergencies and the 
development of training materials to address such emergencies.
    Finally, there is a significant concern about prompt payment to 
vendors who respond to mine emergency situations. While we laud the 
recent efforts of Congress to include a $2 million line item in a 
defense appropriations bill to help defray the rescue costs, PCA 
recommends that the state or federal government establish a continual 
fund to insure timely payment to the vendors who participate in a mine 
rescue. Further, PCA recommends that a centralized database of vendors 
be developed on both the state and national levels to facilitate rescue 
efforts.
                          permit requirements
Current statutory and regulatory permit requirements for maps
    The Pennsylvania ``permit'' mapping requirements are set forth in 
the Bituminous Mine Subsidence and Land Conservation Act (``BMSLCA''), 
52 P.S. Sec. 1406.1, et seq. Section 5(a) of the BMSLCA, 52 P.S. 
Sec. 1406.5(a), imposes a requirement that each applicant for a 
subsidence permit, which would include all bituminous underground coal 
mines, must submit a ``map or plan of the scale and in a manner in 
accordance with rules and regulations of the Department . . . showing 
the location of the mine or mining operation, the extent to which 
operations presently have been completed, and the extent to which 
mining operations will be conducted under the permit being requested . 
. .''
    The mapping requirements of Section 5 are implemented by 
regulations administered by DEP's McMurray District Mining Office 
during the permit application process. Specifically the applicant must 
provide information on: (1) the type of mining, surface or underground; 
(2) name of mine, permit numbers or other identification; (3) the coal 
seams or other mineral strata mined; (4) the extent of the coal or 
other minerals removed; and (5) the location and elevation of impounded 
water in the mine workings either overlying, below or within the permit 
area. If this information is not available the applicant shall outline 
the efforts to obtain it. 25 Pa. Code Sec. 89.141(c)(1)-(5).
    The area covered by the above informational/narrative requirement 
is the ``permit area,'' which is defined as ``The mine and surface 
areas where underground mining activities occur.'' 25 Pa. Code 
Sec. 89.5. See also, definition of ``underground mining activities,'' 
which broadly defines such activities. 25 Pa. Code Sec. 89.5.
    More importantly, the applicant is required to submit a ``general 
mine map,'' which must show, inter alia, ``the location and extent of 
known workings of active, inactive or abandoned, underground or surface 
mines, including identification of the coal seams mined and location of 
mine openings to the surface within, above and below the proposed 
permit area and adjacent areas.'' 25 Pa. Code Sec. 89.154.
    The area covered by this mapping requirement is larger than the 
area covered by the information/narrative requirements of 
Sec. 89.141(c)(1)-(5) because it requests mapping on the permit area 
and ``adjacent areas,'' which is defined as ``land located outside the 
permit area, where air, surface or groundwater, fish, wildlife, 
vegetation or other resources protected by this chapter may be 
adversely impacted by mining and reclamation.'' 25 Pa. Code Sec. 89.5.
    ``The permit application, including all required maps, are 
generally available for inspection and copying at DEP's McMurray 
District Mining Office. 25 Pa. Code Sec. 86.35. In addition, applicants 
must provide public notice that they have filed an application. 25 Pa. 
Code Sec. 86.31.''
                         current state guidance
    In addition to the regulations, DEP's ``guidance'' on permit 
applications further refines the informational/mapping requirements 
relating to adjoining active or inactive mines. The instructions for 
completing Module 6 of the permit application relating to 
``environmental resources'' provides that the applicant must submit 
Environmental Resource Maps, which show the area above and adjacent to 
the mining activity. At a minimum, the map shall include all areas 
within 1,000 feet beyond the permit boundary unless otherwise directed 
by the Department. The map must be no smaller than 1"=500', and be 
prepared by a registered professional engineer, registered professional 
land surveyor or a registered professional geologist. The ``Module 6.3 
Map'' must, inter alia, outline other active, inactive and abandoned 
mine workings (surface, auger and underground), above, below or within 
1,000 feet laterally of the underground permit area. See, 
Sec. 6.3(e)(7) of Module 6.\1\
---------------------------------------------------------------------------
    \1\ It should be noted that some of the mine mapping requirements 
are ``local.'' For example, several provisions of the Municipal Code 
authorize local municipalities to create a Bureau of Mine Inspection 
and Surface Support, which can request mine maps from mines operating 
within its boundaries. See, e.g., 53 P.S., Part V, Chapter 81, Article 
XXII (relating to Third Class Cities) and 53 P.S., Part VI, Chapter 91, 
Article XI (I) (relating to Boroughs). In addition, there is a separate 
``mine map'' requirement relating to Allegheny County, which requires 
mine maps to be filed with the County Commissioners. See 52 P.S. 
Sec. 1408 (relating to Counties of the Second Class).
---------------------------------------------------------------------------
    In addition, all bituminous underground operators are required to 
file in the Recorder of Deeds Office of the county where mining will 
occur, an updated mine map every six months. This map shows the 
location of adjacent mines in relationship to mining that is projected 
to occur during the next six months. 25 Pa. Code Sec. 89.145(b).
    The information that is submitted on the location of abandoned mine 
workings is based on the information available to the operator. There 
are no uniform procedures for obtaining this information and, 
certainly, no single source. Invariably, operators rely on a variety of 
sources to obtain old mine maps, including the federal Greentree 
Repository, DEP's McMurray and Uniontown offices, universities' 
libraries, the county courthouse, the owner of the mineral estate and 
other coal companies. While operator's engineers cannot always 
``certify'' the location of the abandoned workings if the survey data 
is not available (and those who do certify the maps are attesting to 
the accuracy of the work they performed), in our experience it is the 
availability of the final maps of abandoned mines that is the biggest 
problem not the accuracy of otherwise available maps.\2\ In this 
regard, it is crucial to recognize that ultimately a ``good map'' of 
the old Saxman Mine was found. It is not that reliable maps do not 
exist, it is that there is no surefire central place to obtain them.
---------------------------------------------------------------------------
    \2\ This may not be true in the anthracite portion of Pennsylvania.
---------------------------------------------------------------------------
    In addition to a review of the maps during the permitting process, 
where there is more of an environmental focus, further reviews 
confirming the accuracy of the mapping of active workings for 
subsidence purposes occur at the time of mining and are conducted by 
state mine inspectors as part of their routine inspections of 
underground mines. This provides inspectors with another opportunity 
for validating the accuracy of mine maps.
    Please keep in mine as you examine issues relating to the accuracy 
of active mine mapping or the accuracy of the mapping of mines closed 
since the early part of this Century, that Pennsylvania operators, 
since 1911, have been required to prepare a ``final'' map on each mine 
closed. (See Section 240 of the Mine Act, 52 P.S. Sec. 701-240, the 
provisions of which have been in effect since at least 1911.) Thus, 
there is no need to impose ``new'' permit mapping requirements. There 
is, however, a need to make maps easily and readily available.
    Finally, current requirements provide that the mine maps prepared 
as part of the permit application process must be available for public 
inspection and copying at DEP's McMurray District Office and before an 
application is filed each operator must publish a ``public notice'' 
informing the public that an application has been filed and can be 
reviewed. 25 Pa. Code Sec. Sec. 86.31 and 86.35. As noted, at least 
every six months ``updated'' mine maps are recorded in the Recorder of 
Deeds Office. Thus, there is no need to impose ``new'' permit 
requirements relating to public access to mine maps.
                      state mine safety provisions
Current statutory requirements
    In addition to the statutory requirements that are ``permit'' 
related, there are additional mapping requirements imposed by the 
Bituminous Coal Mine Act of 1961 (``BCMA''), 52 P.S. Sec. 701-101, et 
seq. which are appropriately designed to assure the accuracy of mine 
maps at the time most crucial to mine safety--when active mining 
actually approaches adjacent workings. In this regard, PCA submits it 
is crucial to recognize that requiring maps to be ``certified'' when a 
permit is issued, years before mining near adjacent workings will 
occur, is not the answer. The time to determine if ``good'' maps exist 
is at a time appropriately prior to when actual mining will occur, when 
the goal should be to obtain good, reliable, current information. 
Reliance should not be placed on ``stale'' data. These mine safety 
related mine map requirements include: (i) a requirement that the 
superintendent of each bituminous coal mine maintain an accurate mine 
map showing, inter alia, the location of adjoining mines, 52 P.S. 
Sec. 701-235; (ii) a provision authorizing mine inspectors to require 
accurate mapping of an adjoining mine when the working of another mine 
are within 1,000 feet of the adjoining mine, 52 P.S. Sec. 701-236; and 
(iii) a requirement that when a mine has been abandoned for a period of 
one year a map of the abandoned working be prepared and sent to the 
BDMS, 52 P.S. Sec. 701-240.
    In addition, the general mine map is required to be reviewed every 
six months. 52 P.S. Sec. 701-238. A true copy of the map is kept at the 
mine office, typically in the foreman's room, and it is available to 
the mine inspector and the miners who work in the mine and/or an 
authorized representative of the miners. 52 P.S. Sec. 701-237.
    In addition to being available at the mine, every six months an 
operator is required to furnish the state inspector responsible for its 
mine with a copy of the updated map. This map includes projections of 
anticipated mining for the next six to twelve months, providing the 
inspector the time to check the maps to ensure no intersection with 
abandoned mines. 52 P.S. Sec. 701-239. The maps are maintained by the 
state inspector and there are provisions that address the issue of what 
happens to the map when the inspector is no longer responsible for the 
mine. 52 P.S. Sec. 701-239. In practical application, the inspector 
assigned to a mine will request, and receive, updated maps more often 
than every six months.\3\
---------------------------------------------------------------------------
    \3\ Section 239 of the BCMA indicates that the maps will be 
exchanged between operators of adjacent active mines but requires 
consent of the operator to permit production of the maps to outside 
parties. That provision appears to have been superseded by federal 
requirements about the availability of maps to the public under BMSLCA 
and the Federal Mine Safety and Health Act of 1977 (``FMSHA''). See, 
e.g., 30 U.S.C. Sec. 801, 30 C.F.R. Sec. 75.1203.
---------------------------------------------------------------------------
    As previously discussed, Section 240 of the BCMA requires an 
operator to submit a certified map to the Department when a mine has 
been abandoned for a year or more. 52 P.S. Sec. 701-240. This 
requirement, along with most other provisions of the BCMA, has been in 
effect since at least 1911. Prior to the creation of DEP, the maps 
would have been submitted to the Department of Mines, one of DEP's 
predecessor agencies. Section 241 of the BCMA, permits an inspector, if 
he believes a map is inaccurate, to require a survey of the mine at the 
operator's cost. Again, the issue is not whether good maps exist--the 
issue is developing a system to assure that all available maps are 
readily accessible to mine operators, their employees and 
representatives, the State and the public.
    In addition to the mapping requirements, Section 224(b) of the BCMA 
requires underground probe drilling to occur whenever mining is within 
200 feet of an adjacent mine. It further requires boreholes to be 
drilled to a distance of at least 20 feet in advance of the face (as 
measured at the end of the cut). This last provision has not kept pace 
with certain contemporary mining practices. For example, a number of 
mines in Pennsylvania have obtained approval to take ``deep cuts'' when 
they are mining with continuous miners. Traditionally 20 foot cuts have 
been the norm because that is the distance from the operator's 
compartment on a continuous miner to the front of the miner. Deep cuts 
typically exceed the length of the miner and, depending on roof 
conditions, may result in cuts 40 feet in depth from the last row of 
permanent roof supports to the face.
    When ``good maps'' are not readily available the answer should not 
be a requirement for operators to drill holes from the surface in a 
particular pattern in an attempt to locate adjacent abandoned workings. 
This procedure is not an effective way of locating abandoned mine 
workings. It depends on the driller hitting the mined out areas, as 
opposed to coal pillars, and recognizing them as voids, as well as 
recognizing that water encountered is, in fact, mine water, rather than 
an aquifer. In Quecreek's case, such drilling may have missed the 
narrow extension from the body of the mine workings that the miners 
actually encountered.
    The State has also granted at least five variances under Section 
702 of the BCMA to permit horizontal drilling (Section 702 is the 
operator's only mechanism to use an alternative method or technology to 
a specific requirement of the state's safety law). This type of 
drilling is done at the operator's initiative. Because horizontal 
drilling may be more effective in certain cases than the type of 
drilling required by Section 224(b), it is likely that any operator 
subject to the Section 224(b) requirement who can feasibly conduct such 
drilling will seek a variance.
    However, the 702 process is protracted and extremely cumbersome. To 
illustrate the time and effort needed to secure a variance under 
Section 702, I submit for the record, correspondence from one of PCA's 
member companies that chronicles the process that it had to follow to 
receive a variance to permit horizontal drilling. To ease this 
burdensome requirement and make this provision of the law applicable to 
contemporary mining technology, PCA has prepared a draft amendment 
(attached) to Section 224(b) to allow horizontal drilling without going 
through the Section 702 variance approval process.
State enforcement provisions
    Pennsylvania coal mines are rigorously and frequently scrutinized 
by State mine inspectors. Although State law requires quarterly 
inspections of mines that liberate methane, it does not mean an 
inspector's presence at the mine is limited to four days a year. 
Indeed, with the recent consolidation and concentration of the mining 
industry, there are now fewer underground coal mines than at any point 
in Pennsylvania's history. Without a corresponding reduction to the 
State workforce, this means that many mines have an inspector assigned 
to them on a full time basis. This results in as many as 150-200 
inspection shifts a year from a state mine inspector, not including the 
number of inspection days that may result from state electrical 
inspections.
    An inspection shift means one inspector at a mine for all or part 
of a shift. Typically, an inspector spends four to six hours 
underground in the active mining areas taking methane and gas readings, 
checking roof conditions and ventilation controls and looking for 
potential hazards.
    State mine inspectors are able to keep track of the extent of 
ongoing mining on a timely basis and to observe the conditions in the 
active sections. By focusing their attention on areas of active mining, 
inspectors are able to correlate what they observe in the mine with the 
continually updated maps, required by the Mine Act to be on file in the 
mine office, to verify accuracy. Inspectors can (and should) even walk 
the perimeters of soon to be sealed areas to verify the mapping, and if 
any inaccuracies are found, they can be immediately corrected.
    BDMS is allowed, at the inspector's discretion, to request an 
updated map from the operator. BDMS' Uniontown office also makes such 
requests from time to time and maps are then provided.
    If a BDMS inspector believes that an operator has not complied with 
the statutory requirements, he can force compliance. This is normally 
done through the issuance of ``compliance orders'' requiring compliance 
within a specified time period. They also have the authority to issue 
immediately effective withdrawal orders if they believe mine conditions 
present so great a hazard that delay in correcting the conditions might 
cause loss of life or serious personal injury. 52 P.S. Sec. 701-121.
    The system is in place to assure that accurate maps are prepared. 
What is needed is a system to cause all available maps to be centrally 
located and easily accessible.
Post-Quecreek actions by the state
    In the aftermath of the Quecreek accident, DEP took a number of 
steps to determine if other active underground coal mines, at least in 
the short-term, are at risk of ``breaking through'' to abandoned voids.
    DEP's McMurray and DMS offices reviewed maps of permitted 
underground coal mines to determine their accuracy. According to the 
Department, 34 of the 54 permitted underground coal mines were in some 
way adjacent to an abandoned working. The maps of these mines were 
examined to determine if mine pools exist in the abandoned section that 
could submerge the adjacent mine with water if breached.
    The intent was to try to define the universe of mine polls within 
abandoned mines through an inventory and fixing their exact locations 
and proximity to active workings.
    In addition, DMS sent out an advisory to all underground operators 
urging them to review their mining plans and maps as a precaution after 
the Quecreek accident. Referring to Quecreek and the consequences of 
inaccurate maps of abandoned mine workings, the directive stated that:

    ``Each mine operator should immediately review their mining plans 
and assure that the required `Barrier Pillars' are in place. Any 
questionable areas need to be identified and appropriate safety 
precautions implemented. Inspectors with the Bureau of Deep Mine Safety 
also review plans submitted by any mine operator who has active 
workings within 1,000 feet of an abandoned mine.''

    These actions led to the issuance of orders to operators of 19 
underground bituminous coal mines to ensure that abandoned adjacent 
workings are properly identified and defined. This order provides that 
when mining is within 500 feet of a ``charted mine working'' (defined 
as one that is known to exist and which is shown on an existing map) 
the operator must provide DEP with ``credible evidence'' of the 
location of such workings. This requirement, which is not currently 
applicable industry-wide, is in addition to the mapping requirements 
imposed by the Mine Act and 25 Pa. Code Chapter 89, as interpreted by 
DEP's permit module instructions.
    The Department and Governor's office view this as an interim step 
and is looking for guidance on more permanent action from a special 
panel that the governor convened to review certain aspects of the 
Quecreek incident.
    In addition, MSHA is conducting a national symposium in Charleston, 
West Virginia on October 29 to discuss application of state-of-the-art 
technology as a means to help prevent an accident like the one that 
occurred at Quecreek.
                                  msha
Applicable MSHA standards
    In addition to the numerous State ``permitting'' and mine safety 
related mapping and operational requirements the Federal Mine Safety 
and Health Administration (``MSHA'') also imposes various mapping and 
operational requirements relative to adjacent workings. 30 C.F.R. 
Sec. 75.1200 requires each operator to maintain a mine map showing all 
adjacent workings within 1,000 feet and all mines above or below the 
mine, as well as water pools above the mine.\4\ 30 C.F.R. Sec. 75.1200-
1 further requires the Section 75.1200 map to show areas within the 
mine where water has been dammed or held back within the mine.
---------------------------------------------------------------------------
    \4\ This provision was contained in the Federal Coal Mine Safety 
and Health Act of 1969 as well as FMSHA, 30 U.S.C. Sec. 862. No such 
federal requirement appears to have existed prior to that in the 
Federal Coal Mine Safety Act of 1952, Public Law 552, Ch. 877.
---------------------------------------------------------------------------
    30 C.F.R. Sec. 75.1203 requires the operator to make its mine map 
available to state and federal mine inspectors, miners and their 
representatives, operators of adjacent coal mines, and persons owning, 
leasing or residing on the surface of such mines or adjacent surface 
areas. That map must be updated with temporary notations and is 
typically posted in the foreman's office at the mine. According to 
informal MSHA policy, such updating must be done within 24 hours, 
although in practical effect it occurs after the shift on which the 
mining occurred. These requirements have been in effect since 1969. 
Further, 30 C.F.R. Sec. 75.1204 requires the filing of a map when an 
operator closes a mine or idles it for 90 days. The map is to be filed 
with the Secretary of Labor, is required to be certified, and be 
available for public inspection.
    In addition 30 C.F.R. Sec. 75.372(b)(3) and (4) require an operator 
to submit a ventilation map which shows overlying and underlying mine 
workings and any mine working within 1000 feet. Those maps are required 
to be updated every 12 months. Although surveys are not conducted, 
these maps are closely reviewed by MSHA personnel on an on-going basis 
through inspections specifically intended to verify the accuracy of the 
maps.
    30 C.F.R. Sec. 75.388 requires probe drilling when mining is within 
200 feet of any adjacent mine working unless it can be examined. In 
order to use horizontal drilling under the federal standard, an 
operator must seek approval from the District Manager. 30 C.F.R. 
Sec. 75.388(g).
Federal enforcement
    The requirements of the Federal Mine Safety and Health Act of 1977, 
(``FMSHA''), 30 U.S.C. Sec. 801 et. seq., and the regulations 
promulgated under it are enforced by regular inspections of 
Pennsylvania mines. MSHA is required to inspect underground mines in 
their entirety four times a year. 30 U.S.C. Sec. 813(a). If mines 
liberate methane, additional spot inspections are required, the number 
depending on the amount of methane liberated. 30 U.S.C. Sec. 813(i). 
MSHA also responds to complaints by miners whenever they are made in 
accordance with Section 103(g) of the federal law or are anonymous 
``code-a-phone'' type complaints. 30 U.S.C. Sec. 813(g).
    For larger mines, this means that there is a federal inspector at 
the mine almost every weekday. The larger mines in Pennsylvania have as 
many as 500 ``inspection days'' a year. In 2000, the latest year for 
which PCA has data from MSHA, two Pennsylvania mines had over 3,500 
MSHA on-site inspection hours, four mines had over 3,000 such hours. 
While the number of mines has declined over the last several years, the 
number of federal inspectors has remained constant. This has resulted 
in an increase in the inspector presence at the mines.
    These inspectors focus their attention primarily on the active 
mining areas. For example, spot inspections done every 5 days in some 
mines are conducted almost exclusively in the areas of active mining. 
They are readily able to observe mine conditions as mining advances and 
correlate it to the mine mapping that is done. If this is not the case, 
it can easily be remedied.
    MSHA inspectors also have enforcement authority which they 
routinely exercise. They can issue citations which carry civil 
penalties of up to $55,000 and which require abatement within a 
specified time. They can issue immediately effective withdrawal orders 
if abatement is not accomplished within a specified time, if an 
``imminent danger'' exists, if a ``pattern of violations'' exists, if a 
miner has not received the required training, or if certain 
preconditions related to the operator's negligence, known as 
``unwarrantable failures'' exist.
                                training
    The State has no training specific requirements under the BCMA, 
although it does provide training assistance and oversees certification 
of mine officials. MSHA, however, has extensive training requirements. 
It requires 40 hours of training before an underground miner begins 
work. 30 C.F.R. Sec. 48.5. It requires 8 hours of annual refresher 
training. 30 C.F.R. Sec. 48.8. It requires ``task'' training if a miner 
operates equipment that he has not previously operated or if the new 
job he is to perform is not part of his regularly assigned duties. 30 
C.F.R. Sec. 48.7. The new miner training and annual refresher training 
include ``hands-on'' training in the use of self contained self 
rescuers, training on the mine's escapeways, and barricading. See, 30 
C.F.R. Sec. 48.5 and Sec. 48.8. Such training also includes many other 
topics, such as roof control.
    Once the State and federal investigations of the Quecreek Mine 
accident conclude, those lessons learned about mining near impounded 
water, including an identification of precursory conditions or early 
warning signs that would indicate potential hazards, should be 
incorporated in the MSHA required annual refresher training.
    With respect to training, PCA urges careful review and restraint. 
While we recognize that the type of inundation which occurred at 
Quecreek had very serious consequences, the accident was not the result 
of a lack of training. A review of accident histories indicates there 
are other, at least as significant, hazards to miners which result in 
injuries on a far more frequent basis. PCA members direct their non-
mandated training efforts towards avoiding these types of hazards. PCA 
believes far more significant benefits can be derived by focusing 
training on the type of injuries that are common to our industry, such 
as roof falls, strains and sprains. We are not suggesting that training 
on the issues associated with inundations is unnecessary. On the 
contrary we recognize the need for such training. However, we believe 
that such training should be situation-specific and mine-specific. To 
adopt an across-the-board requirement for additional inundation 
training would divert training resources from subjects that are of more 
consequence to the majority of miners.
    The Quecreek rescue may also present an opportunity for 
improvements to emergency response procedures. In this case, the rescue 
was accomplished as a result of a very prompt response to the 
breakthrough by the miners underground and by excellent communication 
and coordination among the agencies and the operator on the surface. We 
would suggest that this presents several opportunities for sharing what 
was learned among emergency responders, particularly in emergencies 
where there are multiple agencies involved.
    After other mine emergencies, NIOSH has developed training tools to 
help in response to future emergencies. For example, they have 
developed a short training program known as ``The Emergency 
Communication Triangle,'' to help facilitate communication in an 
emergency. The Quecreek miners appeared to have utilized such 
principles especially in their communication to the miners who escaped.
    In addition, NIOSH has conducted research on emergency response and 
management issues by interviewing miners who escaped mine fires and 
this research has helped the agency prepare additional training tools. 
In this instance, it might be appropriate and useful the for Bureau to 
conduct such research with respect to how events evolved underground as 
well as in the command center. While such research would not be 
specific to inundation, it would have broad applicability to mine 
emergencies in general.
                     rescue and response procedures
    PCA's members prepare themselves for an emergency in a number of 
ways. MSHA requires operators to establish mine rescue teams or to 
enter into arrangements which insure the availability of at least two 
teams while miners are underground. 30 C.F.R. Sec. 49.2. A number of 
PCA's members maintain mine rescue teams. Some of PCA's members provide 
personnel to the state maintained mine rescue team.
    The cost of establishing and maintaining a team is significant, 
about $250,000 per year. MSHA requires 20 hours of initial training and 
40 hours of annual refresher training. Many mines exceed that by a 
large margin, some mines hold 35-40 practices for their rescue teams 
each year. For a team of 10 members, this is a significant cost in 
terms of wages alone, at an average of $150/miner/shift. Mine rescue 
equipment costs $6,000 per apparatus and most of the inventory in 
Pennsylvania will have to be replaced by 2006 because parts are no 
longer being made to equip the current apparatus. For an operator that 
has a 10 member team, that cost alone will be $60,000.
    But such preparation does not end with the establishment and 
training of mine rescue teams. Many PCA members who maintain teams also 
participate in mine rescue contests and in mine emergency problems that 
have been conducted in conjunction with the BDMS and MSHA. These 
exercises have included mock drills and role-playing, and have proven 
to be extremely valuable training and evaluation tools.
    Unfortunately, this important resource is dwindling at an alarming 
rate. At an MSHA public meeting at the Beckley Mine Academy in March, 
it was reported that at the 1985 National Mine Rescue Contest, there 
were 106 rescue teams, 28 first aid teams and 62 bench participants. At 
the last National Contest in 2001, there were 38 rescue teams (-64 
percent), 15 first aid teams (-46 percent) and 37 bench competitors 
(-40 percent).
    It is PCA's belief that this Commission should recommend that 
Pennsylvania utilize monies received as state grants from MSHA to 
subsidize rescue teams both for large and small operators. It already 
assists small operators in using such grants to obtain mine rescue 
apparatus. It should also expand the use of such grants to assist in 
paying the wages of rescue team members as well as the purchase of 
equipment for both large and small operators.
    PCA members also have in place emergency preparedness plans. These 
plans cover such issues as the responsibilities for notification of 
appropriate government agencies, mine and corporate officials and 
emergency services.
    The difficulty with the use of such plans is that much of what 
occurs in the event of a major mine accident such as a fire, or 
explosion, must be accomplished as the event unfolds. Most of the 
preplanning that occurs is intended to establish the parameters of 
notification of management, the agencies, and the miners, recognizing 
that hard and fast rules cannot be readily applied to every mine-
specific situation.
    The interaction of the mine personnel with the agency personnel may 
be determinative of the outcome of an accident. MSHA has the authority 
to issue orders, known as 103(k) orders, which order withdrawal of 
miners and essentially control access to the mine for rescue purposes. 
Because of this authority and because of the need for interaction 
between state and federal agencies and mine management and the 
representative of the miners, it is on occasion difficult to have 
decisions made and executed in the time frames necessary for effective 
rescue.
                                vendors
    In every mine emergency, vendors, such as drillers and equipment 
companies, are asked to respond in an expedited fashion without the 
luxury of purchase agreements or invoices. In mine emergencies, the 
operator may have mine emergency insurance but usually it has a large 
deductible. The mine emergency may destroy an operator's ability to 
render prompt payment. In some instances, the state or MSHA may have 
requested the supplies or equipment. All of this may make it difficult 
to resolve payment issues after the emergency passes. PCA would suggest 
that the State or Federal government establish an ``emergency fund'' 
out of which vendors may be promptly paid while the agencies, the 
operators and the insurance company resolve payment issues. The state 
in turn could then seek repayment from the operator or the insurance 
companies. This would prevent vendors who may be small companies from 
incurring a huge cost burden which could be an impediment to 
volunteers.
    One area that might assist in an emergency is maintenance by the 
state of a vendor database. Some operators maintain such a list, but it 
would be a useful tool in emergencies. MSHA and the National Mining 
Association are considering developing such a database. Such database 
would have to include ``after hours'' contact numbers and be easily 
accessible and updated regularly. It seems to us it would be 
appropriate for the state to devote resources to such a database.
                               conclusion
    The current mine map requirements imposed on bituminous underground 
coal operators are adequate. There is not a need for new statutory, 
regulatory or policy requirements relating to mine maps or permitting. 
The focus should be on assuring that the existing requirements are met 
and latest maps of abandoned mines are accessible in a central 
location.
    Similarly, the existing operational requirements relating to mining 
near ``adjacent'' mines appear to be adequate. Again the focus should 
be on assuring that accurate information concerning the location of 
adjacent workings is available.
    It is our recommendation that the following steps be taken:
    1. That a central repository be established for mine maps in the 
Commonwealth consistent with its existing authority.
    2. Copies of any and all mine maps of existing mines shall be 
placed in such repository. The BDMS and DEP would collect in such 
repository copies of mine maps that have been submitted to DEP or BDMS 
for mines that have ceased to operate. DEP and BDMS would also obtain 
from MSHA copies of any and all maps of abandoned mines in the 
Commonwealth that have been submitted to it. DEP and BDMS will seek out 
other sources of maps of abandoned mines from existing operators, state 
mine inspectors, former state mine inspectors, museums, universities' 
libraries, the former U.S. Bureau of Mines or any other source that 
might provide information.
    3. That such information be placed into a computerized mapping 
system available to operators and state and federal agencies.
    4. That grant money be available to mine operators for 
establishing, maintaining and training mine rescue teams and for 
purchasing required equipment.
    5. That an emergency fund be established for the purpose of 
reimbursing vendors who provide services in a mine emergency in a 
timely fashion.
    6. That NIOSH conduct a study of the response underground and at 
the command center at Quecreek and develop training to assist in miner 
emergencies.
    7. That DEP develop an accessible database of vendors who may be 
utilized in mine emergencies.

    Senator Specter. How much more time do you have? The red 
light has been on for some time, but go ahead.
    Mr. Ellis. I'll take as much as you will give me.
    Senator Specter. Take as much as you need, Mr. Ellis, these 
are very important subjects.
    Mr. Ellis. I appreciate it. On the State level there really 
is two different laws that regulate mining, in general. One is 
the Bituminous Mine Subsidence Act, the other is the Bituminous 
Mine Safety Law. The Subsidence Act, and we're just, for this 
hearing since I thought the purpose was just on addressing 
maps, and I'm just talking about the mapping the requirements, 
we must submit a general map that shows the location of the 
mine for mining operation and the extent to which operations 
have been completed and the projected operations. Then there, 
under section five, we also have to designate the location and 
elevation of impounded water in mine workings, either 
overlying, below or within the permit area.
    Among other things as part of the permit process, 
applicants are also required to submit a general mine map. This 
among other things must show the location and extent of known 
workings of active, inactive or abandoned underground surfaced 
mines.
    It further requires mapping on the permit areas in the 
adjacent areas, again, which I define as land located outside 
the permit areas, so it would take care of the adjacent areas.
    There is also a guidance on how we go about doing this, and 
at a minimum, our map has to include all areas within 1,000 
feet beyond the permanent boundaries, and our Module 6.3 of the 
permit application has to outline----
    Senator Specter. You think the map ought to go 1,000 feet 
beyond the known boundary?
    Mr. Ellis. At the time of permit we have to, we have to 
identify all these features and locations.
    Senator Specter. How would that have related to the 
incident at Quecreek, had that 1,000 foot addition been in 
place, would this incident have been avoided?
    Mr. Ellis. Unfortunately, Senator, the problem as I see it 
with Quecreek was the accessibility of the final map as I go 
later on to show.
    Senator Specter. How much later on do you show that?
    Mr. Ellis. I'll shut up and try to answer some of your 
questions, because I think I know where you're coming from. 
Since 1911, coal operators in Pennsylvania have been required 
to submit a final map of their operations when it closes, okay. 
That's been on file since 1911.
    Senator Specter. But how good is a map, Mr. Ellis, if an 
adjacent owner will take somebody else's ground so that you 
don't know what the dangers are?
    Mr. Ellis. Senator Specter, it is not, bootleg mining I 
grant you occurred at times in the 1930s and 1940s, but it is 
not a common occurrence that you seem to imply.
    Senator Specter. Bootleg mining now is not a common 
occurrence?
    Mr. Ellis. That's correct. Right now, yes. Okay.
    Senator Specter. Do you agree with that, Mr. Yankovich?
    Mr. Yankovich. At this point in time, do I think, it 
depends on the company, Senator, it depends on the size of the 
company. I believe that the larger companies tend to be more 
cautious and tend to be more careful about what they do. But as 
far as small companies who--actually there is less, there is 
less inspections done in smaller mines than there are in larger 
mines, so if it could occur, it would occur there as opposed to 
larger mines.
    Senator Specter. Well, it seems to me that it is a 
potential problem of enormous magnitude when you can't check on 
it underground because there is no mechanism. That's something 
we want to get into, but obviously here at Quecreek--maybe you 
disagree with this, Mr. Ellis--here at Quecreek, the map was 
inadequate because there had been, as you call it, bootleg 
mining; correct?
    Mr. Ellis. That's, that's the speculation. However, there 
was also a final map of Quecreek that was correct and that was 
in the State inspector's hands.
    Senator Specter. Would that final map have disclosed the 
bootleg mining?
    Mr. Ellis. My understanding is that, yes, it did, that the 
final map actually showed that the pillar of coal that Black 
Wolf thought it was mining, a sizable portion of that was not 
there.
    Senator Specter. How would that map have shown it? Somebody 
would have to go down into the mine to see the bootleg coal 
mining. If you have a map which delineates the property, you 
wouldn't expect the adjacent owner to be encroaching on 
property which was not his.
    Mr. Ellis. You're assuming it was bootleg mining. If the 
facts, and see, the other problem we have, Senator, is that----
    Senator Specter. I am not assuming that, that has been the 
report. Is that report inaccurate?
    Mr. Ellis. What's that, that there was bootleg--I haven't 
heard----
    Senator Specter. That adjacent owner, the Saxman Mine, had 
moved beyond the line which was theirs and which was not 
disclosed in the map.
    Mr. Ellis. The mapping that this company had, my 
understanding is that a final map of that mine was made 
available to the State mine inspector and that did show the 
worked out sections, the sections that Black Wolf thought they 
were actually mining, that sizable portion was gone.
    Senator Specter. We will come to that. There is some 
disagreeing witnesses behind you, the miners, they are shaking 
their heads in the negative. But that is why we have the 
hearing, we are interested in what you have to say and we are 
interested in what others have to say. We will find the facts, 
and we will make the factual determination.
    Mr. Ellis. We certainly stand ready to help you with those.
STATEMENT OF JOSEPH MAIN, ADMINISTRATOR, DEPARTMENT OF 
            OCCUPATIONAL HEALTH AND SAFETY, UNITED MINE 
            WORKERS OF AMERICA
    Senator Specter. I would like to call now Mr. Joseph Main, 
the administrator of the United Mine Workers of America, 
Department of Occupational Health and Safety, since 1992. 
Responsible for oversight of mine accident investigations and 
mine inspections since 1998. He served on the Centers for 
Disease Control and Prevention Federal Advisory Committee on 
Mine Health Standards. Mr. Main testified before this 
subcommittee on July 22, 1992 at a hearing regarding coal dust 
monitoring.
    Mr. Main, it's nice to see you again. We've had a number of 
hearings on mine safety, and regrettably, we are having one 
today. Thank you for coming, and we look forward to your 
testimony.
    Mr. Main. It is a pleasure, Mr. Chairman. On behalf of the 
United Mine Workers and the miners who are represented across 
the country, I want to take the opportunity to thank you for 
holding this hearing today and asking some of the tough 
questions that really need to be asked here.
    Senator Specter. We just started on tough questions.
    Mr. Main. I think that once a better picture of what's 
going on gets laid out, I think there will be some more 
questions that really need to be asked.
    I would start off my testimony this morning, I'm going to 
try to be very brief. No, there is not adequate funding of MSHA 
as a start. Second, with regard to some previous testimony that 
was submitted for the record, there is some major disagreements 
with regard to the direction that MSHA, the leadership of MSHA 
is moving this agency when it comes to what we believe needs to 
be done to protect the miners. We have raised a number of those 
issues directly with the agency and some involved enforcement 
of the mine law here in the State of Pennsylvania, which I will 
not get into today, but it is a troubling problem that, I think 
you know that point in time in the role of the Mine Act, we are 
taking, of course, this very, very mine.
    With regard to Quecreek, and I will start there and talk 
about the state of affairs on the national level last, but one 
thing, I think that all of us recognize that that was a 
miracle, that nine miners were pulled out of the Quecreek Mine. 
A lot of my buddies who I work with on mine rescue were there 
at the mine and I, like many others, sat on the sideline 
watching as the rescue efforts unfolded, and I would have to 
tell the miners they had some of the best that has been around 
to carry out that job. We just recently served together in 
Alabama at a mine disaster.
    I would like to take the time to pass on appreciations to 
Governor Schweiker, whose efforts brought to bear resources we 
would all like to have seen in rescue efforts in the past, that 
really I think helped the rescue process work.
    But having said that, we are now to the questions of what 
went wrong with Quecreek, and I think there are a lot of 
questions that need to be asked. The public and the miners all 
deserve a clear accounting of what went wrong.
    How did so many miners get in a situation that their lives 
were placed at so much risk? How did the coal company get so 
close to a large uphill underground lake of water and cut into 
it, jeopardizing those miners' lives? What signs did the 
company have about the closeness of the underground lake as the 
mined toward it? What was the seepage, or was the seepage to 
the coal seam a warning in advance? Did the company have 
advanced warnings as they mined closer to those old workings? 
What did the pre-shift and on-shift examinations that the mine 
operators are required to conduct each day at that mine show to 
report the conditions the miners were in? What did the public 
hearings that was held to allow the permitting of the Quecreek 
Mine to begin with show? We've heard that there has been a 
number of public citizens show up at those hearings that raised 
concerns in advance of the approval about the large body of 
water and potential of the mine mapping being inaccurate. Those 
are all records that we think are pertinent.

                           prepared statement

    Were the maps wrong at Saxman? Were the maps wrong at 
Quecreek? Those are all fair questions that we believe have to 
be answered to get to the truth of why so many miners were put 
at risk.
    [The statement follows:]
                  Prepared Statement of Joseph A. Main
    In late July, the nation watched as rescuers scrambled to reach 
nine miners trapped in a coal mine 240 feet below the earth's surface 
in south western Pennsylvania. The real life drama played out for more 
than three days as Americans, from coast to coast, were glued to their 
TV's and radios praying for the miners to be found alive at the 
Quecreek Mine.
    Families of the trapped miners gathered in anguish at the 
Sipesville firehouse near the Somerset mine, awaiting word on the fate 
of the missing miners. It was a scene reminiscent of accidents that far 
to often tragically strike coal mining towns across the country. As the 
nation nervously awaited word from the rescue site, minutes turned into 
hours and hours into days with hopes for the rescue of miners fading 
fast. Water pumps, large drill rigs and rescuers rushed to the scene to 
save the miners. After three days of exhaustive efforts, prayers were 
answered when the miners were all found alive. Many called the survival 
and ultimate rescue a ``miracle'' as the nine-trapped miners were 
pulled from the jaws of death. The nation witnessed this coal mining 
catastrophe in the malting come to an end. They experienced the 
enormous dangers miners face daily. They better understood the 
importance of mining safety laws--along with the need for stringent 
enforcement.
    From the moment millions of gallons of water rushed into the 
Quecreek mine from the old Saxman mine workings, questions were raised. 
What went wrong? How did so many miners' lives get placed at such a 
high risk? How did the coal company get so close to such a large uphill 
underground lake of water and cut into it, jeopardizing miners lives? 
What signs did the company have about the closeness of the underground 
lake as they mined toward it? Was there seepage through the coal seam 
to warn them? Did the company have advance warnings as they mined close 
to the old workings? Were the mining maps wrong from the old Saxman 
mine? Were the maps for the Quecreek mine accurate? What information 
was available on the massive amount of water embodied at the higher 
elevation? What did the company know about the conditions in the 
adjacent mine and when did they know it? There is much to be examined 
in the wake of the Quecreek accident.
    Answers to these questions are still illusive as federal 
investigators conduct inquiries. Unfortunately, the information the 
Federal Mine Safety and Health Administration (MSHA) has been 
collecting on the accident is currently shielded from the public. It is 
not known what information will be shared with the public on the 
accident or when that will happen. Like other recent investigations of 
mining accidents, MSHA's investigative process is beginning to raise 
questions.
    On the heels of the Quecreek accident, the UMWA quickly called upon 
MSHA to conduct a review of mining operations nation-wide in order to 
assess similar dangers. We called on MSHA to launch inspections to 
identify mines that have a potential for inundations. While 
investigations into Quecreek were ongoing, the UMWA called for 
additional safeguards to protect miners where the boundaries of coal 
barriers could not be verified and potential inundations exist. That 
included requirements for larger coal barriers and earlier drilling to 
take place until permanent solutions are found. We felt this was a 
prudent safety policy. The current federal law that calls for drilling 
only 20 foot holes, maintaining ten feet ahead of mining (which leaves 
only a 10 foot barrier of coal between the miners and potential lakes 
of water) as a mine gets within 200 feet of where a mine operator 
thinks a barrier exists is inadequate protection for miners! The 
Governor of Pennsylvania agreed and ordered drilling to begin 500 feet 
from the suspected boundaries.
    The capability exists to drill more than 20 foot holes ahead of 
coal faces where miners are working so that mined out areas can be 
detected. Some mine operators have been drilling holes for hundreds and 
thousands of feet horizontally in coal mines. Some of these mines are 
in Pennsylvania. Although mine operators drill the long holes to drain 
methane gas in coal blocks, some do it to detect mined out areas of 
abandoned coal mines. As Quecreek points out, drilling holes well in 
advance of mining can and should be required for detecting faulty 
boundaries. In the end there must be verification of boundaries or 
large coal blocks to be in place as barriers separating old workings. 
Additionally, more scrutiny must take place in mines to detect early 
signs of water seepage from abandoned mines. Based on information 
available, the barrier between Quecreek and the old Saxman mine was 
mined up to a razor thin barrier when the water broke through. With the 
lake of water at a higher elevation one would have expected pressure to 
have caused water with the stagnant mine odor to seep in to the 
Quecreek, giving some warning.
    The near disaster at Quecreek has also placed a national spotlight 
on coal mine health and safety--and rightfully so. Some were shocked to 
learn that 42 coal miners were killed on the job last year and that the 
number of coal miners killed on the job had risen each year for the 
last three years. Many were also surprised to learn that the United 
States had just suffered the worst coal mine disaster in nearly two 
decades when a mine explosion ripped through the Jim Walter Resources 
#5 Mine in Brookwood, Alabama last September. That mine disaster, which 
killed 13 coal miners, came in the shadows of the September 11, 2001 
attacks on America. (Although investigations into that disaster are 
ongoing, findings thus far have identified numerous flaws in MSHA's 
enforcement of the Mine Act.) In one short moment in time many 
Americans learned that something was terribly wrong with coal mine 
health and safety.
    The response to this troubling safety record is more than 
disturbing. In the face of three years of increases in coal miners' 
deaths and the worst coal mine disaster in 17 years, the Bush 
Administration sent a budget proposal to Congress urging cuts in 
federal coal mine enforcement. Instead of putting more police on the 
beat to increase enforcement of the mine safety laws and curb mining 
deaths--they called for cuts in coal mine enforcement personnel. We do 
appreciate the recent actions of the Senate Appropriations Committee in 
proposing funding increases to correct these problems. We, however, 
found that to only be the beginning of actions to undercut protections 
for miners. In December of 2001, MSHA announced that they halted action 
on a number of important health and safety rules aimed at increasing 
protection for miners. Rules responding to; surface haulage accidents 
(the number one killer at surface mines); flaws in use of Self 
Contained Self Rescuer devices; and standards requiring use of 
continuous respirable coal mine dust monitors to prevent the black lung 
disease, were among those eliminated.
    The Administration's budget also called for an end to the highly 
successful ``miners choice'' chest x-ray program. This program had the 
support of Congress and miners, which improved miner participation in 
chest x-ray programs to identify the black lung disease. It also 
provided surface miners with chest x-rays. Who will no longer have 
chest x-rays available to them. MSHA recently inflicted even more 
damage on the efforts to end black lung disease with policy changes in 
the enforcement of the respirable coal mine dust standards. In July, 
the Agency implemented policies contrary to past congressional support 
that neutered MSHA mine site enforcement of the coal mine dust 
standards. The policy reduced the number of MSHA dust sampling 
inspections from six to four a year. They also barred inspectors from 
using any of the four samples to cite mine operators for over 
compliance. MSHA inspectors would only use those as targets for follow-
up sampling--and the operator could expose miners to dust levels well 
in excess of the current standard before compliance dust sampling 
inspections would be triggered. These policies are contrary to logic, 
needs of miners and findings of Congress.
    The actions to eliminate health and safety standards that would 
increase protection for miners did not end after Quecreek. On September 
26, 2002, MSHA announced the withdrawal of action on ``Air Quality, 
Chemical Substances and Respiratory Protection Standards''. Those 
standards have been in the works for some time to upgrade the levels of 
chemicals and harmful agents coal miners have to breathe. The current 
standards are three decades old and allow miners to be exposed to 
chemicals and agents that are now recognized as unhealthy. Prior to 
this announcement, MSHA abruptly withdrew action on rules that would 
require conveyor belting in mines that would not catch fire as quickly 
as older belting--ending years of work on standards to reduce fires 
that far too often threaten miners lives.
    As Quecreek unfolded it was believed the Agency would change 
course. That was wrong! Not only have we have heard no calls by the top 
levels of MSHA to ``beef up enforcement of the Mine Act'' since 
Quecreek, we have instead heard calls for the Agency to move more 
toward co-operation with mine operators. As the Administration's 
proposed budget cuts in coal mine enforcement continues to be embraced 
by the Agency, they continue to shift even more coal enforcement 
resources toward compliance assistance programs. While compliance 
assistance has its place, it should not be at the expense of policing 
the nation's mines. The Agency is also reinforcing the shift in the 
approach toward compliance assistance by changing the name of those 
that police the nation's mines. With an administrative stroke of a pen 
the Agency is finalizing plans to eliminate the ``coal mine inspector'' 
created by Congress in 1969. They are preparing to give them to a less 
enforcement-orientated title--Health and Safety ``Compliance Assistance 
Specialists.'' That sends the wrong message! Complaints about actions 
to weaken enforcement are becoming far too common as the direction of 
MSHA shifts. As we seek information from MSHA to investigate the 
complaints being raised, delays and stonewalling has increased. A 
number of complaints have been filed with MSHA over delays or refusal 
to provide Freedom of Information requests.
    When one assesses the leadership of the Agency it is easy to see 
why MSHA is becoming an agency favoring mine health and safety policies 
urged by the very industry being regulated. That is because the mining 
industry has become a hiring hall for the top policy and career jobs in 
the Agency. Currently; the Assistant Secretary for MSHA, the two Deputy 
Assistant Secretaries for MSHA, the Assistant to the head of MSHA, the 
Chief of Health and the Chief of Safety for Coal all came from the 
corporate levels of the mining industry. With coal miners historically 
being one of the most often killed workers in this country, it is 
understandable why they do not take kindly to turning over their health 
and safety to the company bosses.
    In closing, we urge Congress to; Assure that a thorough 
investigation of the Quecreek accident takes place--with increased 
protections so other miners will not be placed in similar jeopardy; 
Reverse the funding cuts sought by the Bush Administration, including a 
beefing up of coal mine enforcement, restoration of the ``Miners 
Choice'' chest x-ray program and restoring MSHA's coal mine dust 
enforcement program; Act to reverse the current course which is 
undercutting the enforcement of the Federal Mine Safety and Health Act; 
Move to restore regulatory actions on health and safety rules that 
affect miners; And send a strong message to the leadership of MSHA that 
Congress intends that the Mine Act be fully enforced and standards in 
the nation's mines be improved. We would also urge Congress to examine 
the process of filling top agency positions in MSHA. Thank You.

    Senator Specter. What do you think, Mr. Main, do you have 
enough to venture a judgement?
    Mr. Main. I have enough to venture certain judgements, some 
unfortunately we do not. One of the reasons for that is that 
the State and Federal investigators that are putting most of 
the stuff together are doing that behind the scenes and a lot 
of that information has not been put out to the public.
    Senator Specter. I think it's important for investigations 
to be concluded. When they're done behind the scenes, there are 
quite a few comments and concerns about not having public 
hearings. That's one of the congressional oversight functions 
on the State level as well, Mr. Ellis knows, he worked for the 
State House of Representatives, to have public hearings and 
disclose the facts and allow the public dialogue. Whenever you 
raise a question during public dialogue, people hear it and 
come forward with more information. That's the way to encourage 
more fact finding, by having matters in the public dialogue. If 
you have them all concealed and then you file some long report 
that gathers dust, it doesn't really aid in the process.
    So when I ask you about a judgement, I use the word 
carefully. I'm not interested in speculation or guessing, I'm 
interested here professionally, you've been at this a long 
time, and my question to you is do you know enough to have a 
judgement?
    Mr. Main. On certain things I do have, and on the public 
hearing issue, yes, we do. We came out early in support of the 
public hearing. The last one that was done in a situation like 
this actually was here in Pennsylvania, it was following the 
Coca Cola Tunnel disaster where miners cut into water and nine 
miners were killed.
    Senator Specter. When was that?
    Mr. Lauriski. That was in 1977 in Western, or in Eastern 
Pennsylvania.
    We saw the dimensions of what was going on here and we've 
had a number of problems with the way the investigations have 
been conducted in the past and raised a lot of concerns about 
those, and we were one of the ones on the forefront calling for 
a public hearing to get to the bottom of that so the facts 
could get out and the public could see open faced what was 
going on.
    Unfortunately as we sit here now, we are barred from many 
of those facts. We are on the sidelines, so to speak, this is 
not a mine that we represent, but on the sidelines trying to 
collect information.
    Senator Specter. No, you are not, Mr. Main, you are on the 
playing field.
    Mr. Main. We are trying to get on the playing field.
    Senator Specter. We are going to get those facts from the 
investigation, in the public domain as well.
    Mr. Main. The questions that I posed I think were all 
important ones that we are hopeful that the investigators were 
asking. We don't know that; but those are the ones that should 
be within the framework of the questions raised, and what was 
the inspector's findings when they were last in those mines? 
Those are very, very important.
    We need to keep in mind every mine operator's company is 
required to, every shift, before they send miners into an area 
of the mine workings, inspect that mine and to make sure that 
the conditions are safe. What we read yesterday in the papers 
was very disturbing to me, it confirms some of our suspicions, 
Senator, that there was advanced warnings. But given some 
certain facts here, was there enough facts----
    Senator Specter. What facts do you know, Mr. Main, if any, 
on advanced warnings? Because that's a critical point.
    Mr. Main. There is some that we unfortunately are unable to 
ask questions about, because a record has not been developed. 
Was there citizens that showed up at the public hearings that 
laid out concerns about a large body of water that the mine 
operator would be mining next to? Was there concerns about 
inaccurate maps? Was there advanced warnings as they mined into 
that, was that things that the company would need to ask before 
this tragedy occurred?
    The question about the mine mapping, I think everyone has 
agreed that we have had so many problems with the mapping in 
this country that we've got to fix that problem. We need to 
figure out a way to have the most accurate maps. But in this 
case I understand that they had production records that may 
have been available to show that they were still producing coal 
at the old Saxman Mine well after the mining had, the mapping 
had ended in the mine. I think the mapping ended in the 1950s, 
they were still mining into the 1960s. I mean, production 
records would have given someone an indication had they looked 
at that.
    Senator Specter. Production records of Saxman?
    Mr. Main. Yes, that there was still mining at the time of 
the map.
    Senator Specter. We'll look into that.
    Mr. Main. There is a number of questions along those lines. 
The law currently as it is written, that requires the drilling 
in advance with the 200 feet, is inadequate, and there is a 
long list of accidents that have occurred, many since the Mine 
Act passed, where miners were killed because they mined into 
areas from either inrush of water or dangerous gases and were 
killed. I think the Governor of Pennsylvania had it right when 
he called for an immediate extension of that distance to 500 
feet. We urged them to take similar approaches and to increase 
those boundaries, figure out what they have got in mines----
    Senator Specter. 500 feet and up?
    Mr. Main. At this stage I feel a lot more comfortable with 
500 feet than I do 200 feet. But there is some other 
technologies and things that may even enable us to expand that 
more.
    Senator Specter. Is 500 feet enough?
    Mr. Main. At this stag I'm not willing to say that that is 
enough.
    Senator Specter. Let us know.
    Mr. Main. The reason I'll say that is that we have mines in 
Pennsylvania that is drilling hundreds and thousands of feet, 
some of them to detect voids, we talk about a standard that 
only has us drilling 20 feet, and that is 10 feet ahead of the 
actual coal face into the plot. It tells us that the knowledge 
you were using in the mines is outdated, we can drill a lot 
deeper holes than there are now.
    In conclusion, I just have to say that with regard to the 
Mine Safety Act, we have encountered numerous problems, 
attempts to cut the budget, cut out the dust program that we 
talked about in 1991, I'm not sure if you are aware of this but 
there has been some major cutbacks in the enforcement program 
that your Committee gets support for over the years. We really 
don't have MSHA out doing dust inspections at coal mines 
anymore, only target inspecting that may lead to follow-ups.
    We have a concern about the folks who are running this 
agency leading a path away from the Mine Act. And we recently 
just found out there is attempts on their way to eliminate the 
famous Coal Mine Safety Inspector Title, that those we now have 
be called Health and Safety Analyst of some sort, and no longer 
be Coal Mine Inspectors--be Compliance Assistance Analysts. 
We're moving the resources in enforcement as we cut back more 
to mine safety, or I mean to compliance assistance.
    Senator Specter. Thank you very much, Mr. Main.
STATEMENT OF HOWARD MESSER, PROFESSOR OF LAW, 
            UNIVERSITY OF PITTSBURGH SCHOOL OF LAW
    Senator Specter. We turn now to Howard Messer, Esquire, 
counsel for seven of the nine miners who were trapped in the 
Quecreek Mine. Mr. Messer has been a professor of law at the 
University of Pittsburgh School of Law since 1986. Past 
President of the Pennsylvania Trial Lawyers Association, and 
graduate of the University of Pittsburgh School of Law.
    Thank you for joining us, Mr. Messer, and we look forward 
to your testimony.
    Mr. Messer. Thank you for giving me permission to speak 
with you today, Senator. With all due respect to everybody 
that's testified here today, I think I have a different 
viewpoint of the calamity that could have happened at Quecreek 
than most other folks.
    The reason we're here today and the reason we're talking 
about mine safety in Pennsylvania is because of all these men 
behind me. The nine miners that walked out of that mine were 
saved by a phone call from Dennis Hall, as you already have 
mentioned. The other nine miners were trapped there for 77 
hours.
    The other thing we shouldn't forget here is that there are 
a number of family members, all of the wives sitting in fire 
halls in Sipesville and Shanksvillle, and I'm not sure of 
everywhere else, but everybody was up, had as much emotional 
connection with this event as the miners had. As the Governor 
stated, it was an extremely emotional time.
    But what we're here to find out is what could have made a 
difference. As you pointed out, what could have made a 
difference is understanding what I think is a backward 
understanding of what could have given safety to these men.
    The simple fact is that there is encroachments on a lot of 
leases in Western Pennsylvania and throughout the State. It is 
widely accepted among coal operators in Western Pennsylvania, 
with all due respect to Mr. Ellis, that they know about 
possible encroachments, they don't always occur, but there is 
always that possibility. Therefore, what we have to conclude is 
that all the mine maps are wrong, that unless we have a way in 
which defined accurately what a mine map must entail or doesn't 
have, we are on a wild goose chase.
    There is a very simple--and I would offer to you, and I'm 
not a mining engineer, there is a very simple way in order, I 
believe, to define and to implement an excellent review of all 
mine maps and upgrade them all. For example, in this situation, 
it would have been very simple for Black Wolf, or Quecreek, 
whoever owns this coal, to locate the Saxman Mine and the part 
that was contiguous to their property. Obviously, that is the 
most important element. Where was Saxman Mine in relation to 
Quecreek?
    Once you determine that and once you accept that there may 
be an encroachment, then you have to drill for it. You should 
not place the risk of finding the water on the miners, you 
should place the risk of finding the voids and the water on the 
people that mine the coal. These men go into a coal mine for 
$15 an hour and risk their lives. It should be imperative for 
the State and the Federal Government to have the burden of 
proof on defining these voids and mines, not making the miners 
do it themselves by horizontal drilling or some other way.
    There might be a misconception that the miners did not know 
that they were approaching a mine full of water. They knew that 
they were approaching a mine, they were not told and not 
advised that mine had been flooded and there was 77 million 
gallons of water sitting there.
    It is very important, and I would request your 
consideration for the fact that we need open hearings here.
    Senator Specter. Mr. Messer, was it known that the adjacent 
mine had this tremendous quantity of water?
    Mr. Messer. Yes, sir, in fact some of the homes that were 
sitting on top of the mine were getting their house water from 
the water in the mine. So that in the community, not only in 
the community, but in the mining--to the DEP and others, they 
certainly knew that the water was there. Somebody had to be 
treating it, it had to be coming out of somewhere else as well. 
I mean, there had to be notice of that fact.
    Senator Specter. In addition to the homeowners as you 
describe them above the mines getting their water----
    Mr. Messer. Yes, sir.
    Senator Specter [continuing]. Was there other evidence that 
the mine had water?
    Mr. Messer. I can't answer that question because I have not 
been privy to any of the investigations being done by any of 
the governmental bodies.
    Senator Specter. When the homeowners got the water, they 
must have had it treated in some way, they could not use it as 
it came from the Saxman Mine could they?
    Mr. Messer. I don't know, I can't tell you that, but it 
clearly proves the water was there. Whether it was good water 
or bad water, I can't tell you, but it shows that the water was 
there.
    Senator Specter. Proceed, please.
    Mr. Messer. I have been faced in my representation of these 
men and their wives and families with a, what I consider to be 
an inadequate attempt to make them privy to the facts of what 
happened to them. In order for me to get their statements from 
MSHA, I had to sign a confidentiality agreement that I would 
not release any of the information in those statements to 
anyone, including this committee.
    Senator Specter. Which statements were those?
    Mr. Messer. The ones the miners themselves made to MSHA. As 
you know when you give a statement to the FBI or a client gives 
a statement to the FBI, the lawyer is entitled to a copy of the 
statement. It seems to me the miners should have the same 
benefits.
    Senator Specter. Are you saying the miners gave statements, 
they then wanted a copy of the statement and they were denied 
it unless you as their lawyer agreed to keep it confidential?
    Mr. Messer. That's correct. And I had to sign that 
confidentiality agreement and return it to MSHA before they 
would furnish me with those statements.
    In addition, even after they knew that I was representing 
at least five of the miners at that point, a meeting was called 
at the premises of Black Wolf Mining, where, by the way, all of 
the investigation work and interviews had taken place, to tell 
the miners about the mine map that was discovered in the 
museum.
    I requested permission to attend with my clients this 
meeting that was called by their employer and to be attended by 
MSHA, and I was denied access to that meeting by MSHA and 
indicated that at that point I would be a trespasser.
    Senator Specter. Who was present at that meeting?
    Mr. Messer. The representatives of Black Wolf, the 
representatives of the Department of Environmental Protection 
and MSHA. And I believe all the miners were invited to attend 
as well.
    Senator Specter. Did the miners attend, any of the miners 
attend?
    Mr. Messer. Yes, they did.
    Senator Specter. But you as counsel----
    Mr. Messer. I was not permitted to attend. The reason for 
that, and I don't want to dwell on it anymore, the reason I 
feel that these men and women need legal representation is 
obvious, they are not sophisticated and they haven't been 
trained to understand what the process is or the procedures 
are, and the least we can do is afford them the rights that we 
afford criminals charged with crimes, which is counsel to help 
them move through and understand this process.
    Senator Specter. You think they ought to have at least as 
many rights as criminals?
    Mr. Messer. Yes, sir.
    Senator Specter. May the record show the miners and their 
wives are smiling at that analogy.
    Mr. Messer. Let me say lastly, Senator, that there aren't 
many of us that came to work today, and I'm working and so are 
you and many of the other ladies and gentlemen in this room are 
here because they're working, but they do not walk into their 
place of employment expecting a governmental agency or their 
employer to protect them from personal injury. Most of us do 
not on a daily basis risk our lives to do our jobs. Contrary to 
what most of us do, these miners risk their lives every day to 
mine coal. They go into the mine and they must rely, they do 
not have any other resource, but to rely upon the Federal 
Government through MSHA, the State government through the 
Department of Environmental Protection and from their employer 
to protect them from unforeseen events or known events or 
suspected events or possible events. They have to trust and 
have confidence that the information that they are given will 
protect them.
    So this Commission, this Committee that you are in charge 
of, must understand that this isn't an ordinary circumstance. 
We could have lost 19 men, and it all may be due to the fact 
that somebody should have just said, close this section off and 
get out, it is just too dangerous.
    Senator Specter. Mr. Messer, the whole world knows that 
this is no ordinary matter and that these men could have 
perished. There are many others in mines every day, even as we 
speak who are undertaking these risks. And our purpose of being 
here is not only to praise these men but to try to prevent an 
occurrence with others.
    Mr. Messer. We thank you, because I think we found out more 
information today than any of the hours of hearings we have sat 
through up to this point.
STATEMENT OF DAVID REBUCK, PRESIDENT, BLACK WOLF COAL 
            COMPANY
    Senator Specter. And we have just begun. Our next witness 
is David Rebuck, President of the Black Wolf Coal Company and 
Superintendent of the Quecreek Mine. Previously Mr. Rebuck had 
been president of Rox Coal, Inc. and executive vice president 
of Mincorp Inc. Mr. Rebuck received his bachelor's degree from 
Penn State University and his master's degree from the Indiana 
University of Pennsylvania.
    Mr. Rebuck, at the outset, as a matter of fairness, 
although I'm sure you have counsel who has advised you, there 
is a possibility that whatever you say could be incriminating 
both as to civil and potential criminal liability. There's no 
requirement of warnings such as Miranda warnings, you're not in 
custodial interrogation, but just as a matter of fairness, I 
want to alert you to that. Although I am sure you have had 
counsel and you know what you are about to do. For the record, 
I want to say those few words.
    Thank you for joining us and to the extent you wish to 
testify, we would appreciate it.
    Mr. Rebuck. Thank you, Senator Specter. My testimony really 
deals with the rescue itself, and I would present it to you as 
part of the record.
    I would like to publicly thank all the many people, 
businesses, agencies who assisted in the rescue of the nine 
miners here at Quecreek. There was an overwhelming number of 
people that contributed to the success of the rescue operation. 
Many donated their time, equipment, supplies and expertise. 
Companies throughout not only Somerset County and Pennsylvania 
but actually from all over the country provided manpower, 
equipment, supplies, technical advice and support.
    Governor Schweiker delivered invaluable leadership and 
inspiration to the rescue crews and to the miners' families. 
Secretary Hess, Pennsylvania Department of Environmental 
Protection, mine safety professionals from Pennsylvania's 
Bureau of Deep Mine Safety, they were all instrumental to the 
successful rescue effort.
    Secretary Lauriski, the Mine Safety and Health 
Administration, personnel from Johnstown field office, MSHA 
District 2 Office, the engineers and scientists from MSHA Tech 
Support, MSHA's Mine Emergency Unit were all available to 
provide expert resources and guidance. There were many other 
State and Federal agencies involved.
    In particular, I must recognize the efforts of the 
Pennsylvania State Police. Sergeant Madigan and troopers from 
Somerset Barracks responded early to the situation and 
controlled the rescue sites, they established family quarters 
at Sipesville Fire Hall and they helped escort equipment and 
supplies to the site.
    Our local government representatives and staffs, 
Representative Murtha, State Senator Richard Kasunic, State 
Representative Bob Bastian and you and your staff, Senator 
Specter, were available to provide any assistance.
    Our local community provided support by the hundreds, 
through local fire departments, emergency medical units, 
Sipesville Fire Department Ladies Auxiliary, counselors, 
churches, community organizations, neighbors and individuals 
who made offers to do whatever was needed.
    Closest to my heart is our own Quecreek Mine Team Members 
and other coal miners throughout our area who volunteered their 
time. They worked relentlessly in difficult conditions in the 
mine pit or in the cornfield to reduce the level of water in 
the mine. These hardworking men toiled generally out of sight 
of the public eye, but certainly without their efforts the 
rescue would not have been a success.
    I would also like to mention the nine miners that are to 
our left over here, they had escaped the mine that night and 
were determined to stay and assist in the rescue efforts, 
whatever their assigned duties. These miners are here today and 
it is their unselfish spirit to succeed in the rescue that 
exemplified all who participated.
    These men along with other members of our staff were the 
very first responders to the accident and their decisions and 
actions in the initial hours of the rescue effort were 
instrumental in successfully completing the mission.
    I especially appreciate the faith and determination of the 
rescued miners and their families.

                           prepared statement

    Senator Specter, there is not enough words to express my 
sincere appreciation for the dedication of the hundreds of 
people that were involved in this rescue. If it were possible I 
would like to thank each one individually, but I appreciate the 
opportunity you gave me here today.
    Ultimately, I thank God for his Divine guidance throughout 
the rescue operation, only through His help was the miracle in 
the mine achieved. I hope and pray that God will continue to 
bless everyone. Thank you.
    [The statement follows:]
                   Prepared Statement of David Rebuck
    Thank you, Senator Specter, for inviting me here to offer comments 
today. My name is David Rebuck. I am President of Black Wolf Coal 
Company and Superintendent at the Quecreek Mine. I am a life long 
resident of Pennsylvania and have served in our state's mining industry 
for over 27 years. I have a BS degree in Mining Engineering from the 
Pennsylvania State University and a Master of Business Administration 
degree from the Indiana University of Pennsylvania.
    The Quecreek Mine is owned by Quecreek Mining, Inc., a subsidiary 
of PBS Coals, Inc. Black Wolf Coal Company is the contract operator at 
the Quecreek Mine. A partner, Charles ``Chuck'' Hankinson, and I 
established Black Wolf Coal Company in 2001 specifically to operate the 
Quecreek Mine and to eventually grow from there. At present, the entire 
revenue for Black Wolf Coal Company is derived from operations at 
Quecreek.
    Chuck and I constitute the entire staff of the company along with 
the Quecreek mine team members. All staff functions one would normally 
associate with larger companies, such as engineering, accounting, legal 
and other services, are provided to us by vendors. You can imagine 
being a smaller company involved in an undertaking with the magnitude 
of the Quecreek rescue that we desperately needed the help and 
assistance of many others, which, thankfully was received.
    Today I would like to publicly thank the many people, businesses 
and agencies who assisted in the rescue of the nine miners at the 
Quecreek Mine.
    An overwhelming number of people and businesses contributed to the 
success of the rescue operation. Many donated their time, equipment, 
supplies and expertise. Companies throughout not only Somerset County 
and Pennsylvania, but actually all over the country, provided manpower, 
equipment, supplies, technical advice and support.
    Governor Mark Schweiker delivered invaluable leadership and 
inspiration to the rescue crews and the miner's families. Secretary 
David Hess, the Pennsylvania Department of Environmental Protection and 
the mine safety professionals from Pennsylvania's Bureau of Deep Mine 
Safety were instrumental to the successful rescue effort.
    Asst. Secretary David Lauriski and his Mine Safety and Health 
Administration (MSHA) team, with personnel from the Johnstown Field 
Office, the MSHA District 2 office, the engineers and scientists from 
MSHA Tech Support and MSHA's Mine Emergency Unit provided expert 
resources and guidance.
    Many other state and federal agencies provided worthy assistance. 
In particular I must recognize the efforts of the Pennsylvania State 
Police. Sgt. Patrick Madigan and troopers from Somerset Barracks 
responded early and controlled the rescue sites, established the family 
quarters at Sipesville Fire Hall and escorted equipment and supplies. 
Our local government representatives and staffs--Rep. John Murtha, 
State Senator Richard Kasunic, State Rep. Robert Bastian and you and 
your staff, Senator Specter--were available to provide any assistance 
required.
    Our local community provided support by the hundreds through local 
fire departments, emergency medical units, the Sipesville Fire 
Department and Ladies Auxiliary, counselors, churches and community 
organizations, and neighbors and individuals who made offers to do 
``whatever was needed''. The words of hope and encouragement from 
individuals throughout the world which were passed on to us, helped us 
maintain positive morale.
    Closest to my heart is our own Quecreek Mine team members and other 
coal miners throughout our area who volunteered their time. They worked 
relentlessly in difficult conditions in the mine pit and in the 
cornfield to reduce the level of water in the mine. These hardworking 
men, under the supervision of our Mine Foreman, Joe Hoffman, and Chuck 
Hankinson, who also is the mine's Chief Electrician, toiled generally 
out of sight of the public eye, but certainly, without their efforts 
the rescue would not have been a success.
    I want to mention the nine miners who had escaped from the mine 
that night and who were determined to stay and assist in the rescue 
efforts whatever their assigned duties. These miners are in attendance 
today--Larry Summerville, Joseph Kostyk, Ronald Schad, David Petree, 
Ryan Petree, Wendell Homer, Frank Stewart, Douglas Custer, and Barry 
Carlson--and their unselfish spirit to succeed in the rescue 
exemplified all who participated.
    These men along with Dave Keller, our Safety Director, Dave 
Harclerode, Mine Clerk, Joe Yuhas, and Joe Gallo of PBS Coals 
Engineering, were the very first responders to the accident and their 
decisions and actions in the initial hours of the rescue effort were 
instrumental in successfully completing the mission.
    I especially appreciate the faith and determination of the rescued 
miners and their families throughout their ordeal. I especially want to 
thank Quecreek miners Doug Custer, James Weiland and Leroy Lehman and 
later John Weir of PBS Coals who were unfailing with their assistance 
in communicating with the families.
    Senator Specter, there are not enough words to express my sincere 
appreciation for the dedication of the hundreds of people involved in 
this rescue operation. If it were possible I would thank each person 
individually. So to all I would ask to please accept my sincere and 
heartfelt thanks on behalf of the nine team members, their families and 
all involved with Black Wolf Coal Company and the Quecreek Mine. 
Ultimately, I thank God for His divine guidance throughout the rescue 
operation. Only through His help was the ``Miracle in the Mine'' 
achieved. I hope and pray that God will continue to bless everyone.

    Senator Specter. Thank you, very much, Mr. Rebuck. I'm 
interested to know the corporate structure. Quecreek is a 
subsidiary of PBS Coals, Inc.; is that correct?
    Mr. Rebuck. That's correct.
    Senator Specter. Black Wolf is the contractor for Quecreek?
    Mr. Rebuck. That's correct. We are the contract operator at 
the mine.
    Senator Specter. Black Wolf is the contractor for Quecreek, 
Mincorp Inc. and Mincorp----
    Mr. Rebuck. Mincorp is the parent company, PBS Coal is the 
subsidiary and Quecreek Mining is a subsidiary of PBS Coal.
    Senator Specter. Your resume lists you as an official of 
Mincorp?
    Mr. Rebuck. Former.
    Senator Specter. Former. You're not an official of Mincorp 
now?
    Mr. Rebuck. That's correct.
    Senator Specter. Do you speak only for Black Wolf or do you 
speak also for PBS?
    Mr. Rebuck. I speak only for Black Wolf Coal Company.
    Senator Specter. To the extent you wish to comment, Mr. 
Rebuck, did Black Wolf know that there had been encroachment by 
Saxman into Black Wolf's land?
    Mr. Rebuck. We did not.
    Senator Specter. To the extent you wish to comment, what 
efforts did Black Wolf make to ascertain the accuracy of the 
maps which you were using?
    Mr. Rebuck. We accepted the maps that was on our approved 
permit.
    Senator Specter. Accepted what maps?
    Mr. Rebuck. The maps as indicated on the permit 
application.
    Senator Specter. Do you accept what Mr. Messer has said 
about the frequency of encroachment by adjacent mine owners 
like Saxman onto Black Wolf's land?
    Mr. Rebuck. I was not aware of any encroachment. I have not 
seen any encroachment at all.
    Senator Specter. Aside from not being aware of any 
encroachment, to the extent you wish to comment, were you aware 
that it was a practice or a common practice to have such 
encroachment? Here to lay all the cards on top the table, Mr. 
Rebuck, I'm asking you to the extent you want to comment 
whether you had a duty of inquiry. If you know it, that is one 
thing, and you testified you didn't know it.
    Mr. Rebuck. That's correct.
    Senator Specter. The second level of responsibility arises 
on a duty of inquiry, if you know that it is a common practice 
to encroach, then there may be a duty of inquiry on the part of 
Black Wolf. So my question to you, again, to the extent you 
wish to answer, did you know that it was a common practice to 
have encroachment?
    Mr. Rebuck. I do not know that it is a common practice for 
encroachment.
    Senator Specter. Have you ever heard of encroachment, to 
the extent you wish to answer?
    Mr. Rebuck. I've heard all kinds of rumors, but I have 
never actually encountered any encroachment since I have been 
in the mines.
    Senator Specter. With respect to the water, were you aware 
of the information Mr. Messer testified to, that the homeowners 
above Saxman were getting the water from that property?
    Mr. Rebuck. I am now, sir, yes.
    Senator Specter. But had you been prior to July 24?
    Mr. Rebuck. On the night of July 24, after the accident 
occurred, I was aware, yes.
    Senator Specter. How about prior to July 24, to the extent 
you wish to answer?
    Mr. Rebuck. I cannot say for sure if I was.
    Senator Specter. Might have?
    Mr. Rebuck. I might have.
    Senator Specter. Might have?
    Mr. Rebuck. I do not know.
    Senator Specter. Think about it for just a minute, Mr. 
Rebuck, to the extent you want to answer. What leads you to say 
you might have? What is going through your mind that leads you 
to that statement?
    Mr. Rebuck. Because I do know that now and I'm not sure if 
I did know that before or if this was afterward.
    Senator Specter. Mr. Rebuck, you were the Superintendent of 
Black Wolf, Quecreek, and to the extent you wish to answer, did 
you know that there was significant leakage of water into the 
Black Wolf Mine?
    Mr. Rebuck. There was not significant leakage of water into 
the Black Wolf Mine.
    Senator Specter. There was not?
    Mr. Rebuck. No, sir.
    Senator Specter. There had not been any complaints by any 
of the miners about the leakage of water, to the extent you 
wish to answer?
    Mr. Rebuck. Not that I'm aware of; we did have water.
    Senator Specter. You say you did have water.
    Mr. Rebuck. Yes, and that condition has been throughout the 
entire mine, not only in this particular area. So when there 
are reports of roof water and they are investigated and they 
are discussed, the conditions that were in that mine did not 
lead me to believe that we were approaching water from an 
abandoned mine.
    Mr. Ellis. Senator, could I interject something here?
    Senator Specter. No, but you may in a minute.
    Mr. Ellis. Okay.
    Senator Specter. You say you did know there was water 
there?
    Mr. Rebuck. Water where?
    Senator Specter. In the Quecreek Mine.
    Mr. Rebuck. Yes, sir, that is common throughout.
    Senator Specter. Common practice, but what you are saying 
is, to the extent you wish to answer, you didn't know it was 
excessive or dangerous water; is that what you are saying?
    Mr. Rebuck. That's correct.
    Senator Specter. We are going to take a break for just 
about 5 or 10 minutes, because I'm going to want to talk to the 
miners before we proceed with the hearing, so I thought I would 
just give you a notice that in just a few minutes we are going 
to take a break.
    Mr. Ellis. Could I just put something on the record?
    Senator Specter. Mr. Ellis, you may.
    Mr. Ellis. Thank you. This line of questioning about----
    Senator Specter. If anybody has a comment they want to 
make, we have gone over on the red light, I even turned the red 
light off, because while the rules are for 5 minutes, this 
matter is of sufficient importance to take whatever time it 
takes. So if anybody has something they want to say, feel free 
to interject. Go ahead, Mr. Ellis.
    Mr. Ellis. On this issue of whether or not there were 
recursary conditions. Much of the questions seem to be coming 
from a news article that appeared yesterday. I just, for the 
record, the State select panel that Governor Schweiker convened 
that is conducting public hearings, 2 weeks ago had the State 
mine inspector responsible for Quecreek testify before them, 
and he said that there were no early indicators or warning 
signs that would lead him to believe.
    Senator Specter. Who testified to that?
    Mr. Ellis. The State mine inspector who was responsible for 
inspecting Quecreek, he was there within at least a week before 
the accident happened. He definitively told the panel that 
there were no precursory conditions or early indications that a 
breakthrough was imminent, so----
    Mrs. Mayhugh. He said it was dry, too, and it wasn't. This 
inspector said it was dry. I was there.
    Senator Specter. We'll give you a chance to testify in just 
a minute, but I want to hear what you have to say. May the 
record show that a lady with a baseball cap and a red jacket--
--
    Mrs. Mayhugh. Mrs. Mayhugh.
    Senator Specter. Mrs. Mayhugh.
    Mrs. Mayhugh. Mrs. Mayhugh, everybody knows me.
    Senator Specter. Mrs. Mayhugh. We are going to give you a 
chance to testify, but I think in the interest of order, we 
will go to the front row. But you will have a full chance to 
say whatever you want to.
    Mr. Rebuck, you have heard the testimony of Mr. Messer. Is 
there anything you would like to comment on or disagree with? 
Same chance with you, Mr. Messer. You heard the testimony of 
Mr. Rebuck; anything you would like to comment on or disagree 
with?
    Mr. Messer. Obviously, we have conflicting testimony of the 
indicators of mine water problems, but I'm not sure that my 
further answer on that is possible since I have agreed in a 
confidentiality agreement not to disclose information.
    Senator Specter. Well, Mr. Messer, I have grave doubts as 
to the validity of the confidentiality agreement, it sounds 
like a contract of adhesion to me. If you were bound by 
confidentiality, I don't think it would govern a Senate 
hearing. It wouldn't govern a Senate hearing, but I'm not going 
to pressure you on it.
    Mr. Messer. My response, Senator, is very simple, that 
there were indicators of severe water problems in this mine. My 
understanding is from sources independent from the miners 
themselves that these particular concerns have been relayed to 
the operators of the mine. So I can only say that based upon my 
investigation there were enough factors present here to cause 
an alert and an investigation to, into the location of these 
voids.
    I mean, it's, I have not seen it physically yet, but 
apparently there is a ventilation shaft located within 50 to 
100 yards of the place these men were rescued, and the only 
ventilation that that shaft could have provided was to the 
Saxman Mine, and that would be the encroachment, because that 
ventilation shaft was on property that was not part of the 
Saxman lease.
    I mean, there are a lot of factors here that we can, you 
can always say that this is what the Government requires me to 
do and I did it and that is the end of it. But what I think Mr. 
Rebuck is essentially saying is that once Quecreek got the 
permit, we relied upon everything Quecreek did and we took that 
information and then we started the mine. I don't think that 
anyone else applied for a permit other than Quecreek, certainly 
Black Wolf did not.
    Senator Specter. Mr. Messer, this subcommittee has 
oversight jurisdiction over MSHA and I have the confidentiality 
agreement and we will pursue that. I don't think it's an 
appropriate thing that you were asked to do and I don't think 
it is binding, but I can understand the constraints you feel. I 
won't press you to go beyond the confidentiality agreement.
    That does not stop any of the miners from telling this 
subcommittee anything they wish to as long as they don't show 
us the statement. They are not barred from their own 
recollections in response to questions which the subcommittee 
will ask.
    We are going to take a very brief recess so that I can talk 
to the miners about the testimony which has been given already 
in an effort to find out what more they can add to this record 
at this time.
    Does anybody else have a comment? Mr. Ellis, you want to 
make comment?
    Mr. Ellis. No, I already made it, thank you.
    Senator Specter. Mr. Main?
    Mr. Main. Yes, I would just like to echo a problem 
explained by Mr. Messer. We have had a lot of difficulties with 
regard to the investigative process, we have had to sign 
confidentiality agreements, we were even barred from getting 
some of our own statement about mine disaster, even when the 
mining, that testimony be given to us. So there is a lot of 
problems. I just handled this.
    But I think Quecreek represents just a tip of a bigger 
problem with respect to the Mine Safety Act. We would encourage 
your committee to look deeper into the many problems of mine 
safety.
    Senator Specter. Mr. Yankovich, you can have the last word 
if you want.
    Mr. Yankovich. Just outside the facts that I think we made 
light here today, but there was probably a lot of tell-tale 
signs that was not taken into regard by the mining company at 
this point in time, from what I can see, and they should have 
been.
    Senator Specter. We are going to recess for just a few 
minutes. If the miners and their wives will go to the 
conference room I will be there.
    The hearing will now resume. I have just been talking to a 
number of miners, some of whom got out early and some of whom 
were trapped. A number of them have stated their interest in 
testifying. So at this time I would like for Mr. and Mrs. Harry 
Mayhugh to step forward, Mr. and Mrs. John Phillippi to step 
forward, Mr. Robert Hileman to step forward, Mr. Frank Stewart 
to step forward, and Mr. David Petree to step forward.
    Those are the individuals who have stated an interest in 
testifying, and if there are any others who would like to 
testify, simply tell Bettilou Taylor or one of my staffers and 
we will hear you.
    Mrs. Mayhugh, we are going to start with you because you 
were the one that spoke up. So we will give you a chance to say 
first what was on your mind and why you spoke up. As I said at 
the time, I thought it would be a good idea to have you speak, 
but I have a lot of people, and we need an orderly process, it 
is better to have you at the witness table. We are all 
interested in what you have to say. So the floor is yours.
STATEMENT OF MRS. HARRY MAYHUGH, WIFE OF A MINER
ACCOMPANIED BY:
        MRS. JOHN PHILLIPPI, WIFE OF A MINER
        RONALD J. HILEMAN, MINER
        HARRY B. MAYHUGH, JR., MINER
        FRANK E. STEWART, MINER
        JOHN R. PHILLIPPI, MINER
        RYAN S. PETREE, MINER
        DOUGLAS L. CUSTER, MINER
    Mrs. Mayhugh. We were just wondering why when you do go to 
a meeting or something in the paper, it is always no comment or 
they don't have that information on file. We should be entitled 
to know all the details as they come about them.
    When you find a map and they have their representative 
present, why shouldn't ours have been allowed to be there 
either?
    I just want to make sure it's being run fairly the whole 
way with both sides, the mines and the miners, and I don't 
think it has been.
    Senator Specter. Mrs. Mayhugh, I think you are entitled to 
know. There is something to be said for conducting an 
investigation and finishing it so you hear from all parties, 
but I do believe that there is a duty on the part of public 
officials to disclose the critical information as promptly as 
possible. One of the reasons this hearing is being held 
publicly is to bring it out.
    Some people don't want to say, you can understand that, for 
a while, but I believe that regarding an incident from July, 
considering this is October----
    Mrs. Mayhugh. Yeah, how long do they have to keep denying, 
saying we don't have that information?
    Senator Specter. It is something that is a great public 
interest and public concern and there are many miners who are 
underground who could benefit from what we are learning.
    We have one other wife who signified an interest in saying 
something, so we'll go to the ladies first, Mrs. Phillippi, and 
hear from you.

                SUMMARY STATEMENT OF MRS. JOHN PHILLIPPI

    Mrs. Phillippi. You were talking about all the money that 
you give for these inspectors in the mines. If they're doing 
their job, why did this happen? Isn't that what their job is, 
to protect these men? You know, aren't they supposed to inspect 
and know? You know, shouldn't someone have seen this? They were 
there the week before. Where did he go, what part of the mine 
was he in?
    And there was water, because I know because my husband came 
home every night and his feet were froze. I know when he works 
in water and I know when he doesn't, I know.
    Somebody is responsible for this, we just want to know who 
and what happened, and it can't happen again. This was a 
horrible, horrible ordeal. And I would never want someone 
else's wife to have to sit there and not know for 3, almost 4 
days, whether your husband's alive or dead. Whose job is it to 
make sure that the mines are safe and why wasn't it done, if 
there was inspectors there the week before? They talk about not 
having money but you're talking about billions of dollars, and 
you've given them more money and more money. If we don't do our 
jobs, we lose them; don't we?
    Senator Specter. Mrs. Phillippi, you are right, if we do 
not do our jobs we do lose them. You raised very good questions 
and those precisely are the questions we are going to answer. 
What happened on the inspection the week before, what happened 
with the safety plan, what happened with the encroachment, what 
happened with the water. Those are all relevant questions and 
fortunately your husband was one of those who was trapped and 
got out, one of the lucky nine.
    Mrs. Mayhugh, your husband was one of the lucky nine who 
got out also.
    Mrs. Mayhugh. And my father.
    Senator Specter. And your father. Who is your father?
    Mrs. Mayhugh. Tom Foy. So it is my whole world down there, 
and yeah, I want answers.
    Senator Specter. So you were lucky twice.
    Mrs. Mayhugh. I am very lucky twice.
    Senator Specter. Those are the questions we're going to 
seek to have answered.
    Let me turn now to Mr. Ronald J. Hileman. Mr. Hileman, I 
talked to you shortly after the incident, I called you up and 
got you on the phone.
    Mr. Hileman. Right.
    Senator Specter. Your phone must have been ringing off the 
hook.
    Mr. Hileman. Yes, it was.
    Senator Specter. I thank you for taking the call and I 
thank you again.
    Mr. Hileman. Thank you for having us here.
    Senator Specter. Mr. Hileman, in your own way, tell us what 
happened.

                 SUMMARY STATEMENT OF RONALD J. HILEMAN

    Mr. Hileman. It started just like any other day, I mean, 
just an ordinary shift. You know, when we hit the water----
    Senator Specter. Could you pull the microphone just a 
little closer to you, please?
    Mr. Hileman. Right there?
    Senator Specter. That's fine.
    Mr. Hileman. There was a lot of questions answered here 
today that I think, you know, we never had the chance to do 
before. But they're saying that was a dry mine; it wasn't. The 
mine was very wet from the very beginning.
    Senator Specter. Do you think the owners knew that?
    Mr. Hileman. Well, the roof, when we first started in, that 
mine's roof was dry, we was getting water in on the bottom, we 
had some washouts. That could have been coming from the Saxman 
Mine, I don't know, I am no mining engineer, I'm just a coal 
miner, I have no idea.
    But there was a good many washouts on the bottom when we 
first started that mine, the roof was dry, it was sandrock. As 
we progressed in further, we run out of sandrock roof, we went 
into slate roof, and that's where we started having our water 
problems.
    We went around a fault that we had hit previously to this, 
and where that fault, I don't know if that had anything to do 
with the Saxman Mine or not.
    Senator Specter. Did you or do you know if any of the other 
miners told the company, Black Wolf, about the water 
conditions?
    Mr. Hileman. The company knew about the water conditions. 
From the time we started first left section, we had water in 
the roof.
    Senator Specter. When you say the company knew about it, 
why do you say that?
    Mr. Hileman. We all, as far as our foreman, our boss, face 
boss, I mean, he knew, and I'm sure he told them.
    Senator Specter. Who was your foreman?
    Mr. Hileman. Randy Fogle.
    Senator Specter. He knew?
    Mr. Hileman. He knew that there was quite a bit of water in 
the roof. I was the bolter, that's what puts the pins in the 
roof and that's where we were seeing, again, quite a bit of our 
water problem from the roof.
    Senator Specter. With respect to this issue of encroaching, 
Saxman coming over into land which really wasn't theirs----
    Mr. Hileman. Right.
    Senator Specter [continuing]. What is your view of that? 
Are you familiar with the encroachment problem?
    Mr. Hileman. From what I was told there was encroachment 
from the old Saxman Mine.
    Senator Specter. When did you learn about that 
encroachment, was it before July 24?
    Mr. Hileman. No, since July 24 is when I was made known.
    Senator Specter. You're a miner and you wouldn't 
necessarily be familiar with it, but to the extent that you 
are, had you heard about encroachment as a common problem?
    Mr. Hileman. Oh, yeah, I've heard about it quite a 
different--some of the old timers. I live in a small town there 
just out of Somerset, Gray, almost all them small towns around 
the area was coal mining towns, Quecreek itself, Gray, Jerome, 
they all, that's how they sprung up, because of the old mines.
    Senator Specter. So the encroachment is when a mining 
company goes into an adjacent land which is not theirs to mine 
the coal. It's pretty hard to detect that and you can't see 
that.
    Mr. Hileman. Exactly, they have to find a way. The old 
timers there in Gray told me lots of times about how they mined 
coal, they knew they crossed their boundaries and everything, 
you know, they knew it. The roof was good, the bottom was good, 
the coal was there, well, let's take a little, what's stopping 
them?
    Senator Specter. Take a little or take a lot?
    Mr. Hileman. Sure, take a little, take a lot, take a whole 
lot, who knows. It's down under there, nobody sees. And, you 
know, I've heard about it quite often.
    Senator Specter. When you knew about that encroachment, did 
that concern you that there might be a safety problem because 
the maps would be inadequate?
    Mr. Hileman. It concerned me, yes, at that time, but you 
put your life in the Federal, State, and company's hands when 
you're under there, they are the ones that is supposed to keep 
you safe. Right?
    Senator Specter. That's right.
    Mr. Hileman. That's what your agencies are made for.
    Senator Specter. That's right. You ask me a question, I 
will answer your question, that's right. I'm glad to answer a 
relevant question. Anybody who was underground as long as you 
were, I will answer your question.
    Would you care to comment about the experience generally? I 
know you're under contract to Disney for a movie, I don't want 
to get into any of your proprietary rights, but do you care to 
comment about what it was like underground there for all those 
hours?
    Mr. Hileman. Anybody that's never been underground don't 
really know what it's like. I could sit here for hours and try 
to----
    Senator Specter. Mr. Lauriski wishes to depart for other 
commitments. I understand, Mr. Lauriski, and we excuse you at 
this time and we will be in touch with you later.
    Go ahead, Mr. Hileman.
    Mr. Hileman. Like I was saying, nobody that's ever been 
underground really don't understand what it's like to be under 
there. It's a hidden profession, nobody can drive down the road 
and see what we do every day. Very few people know what we do. 
It's a hard way to make a life, but we all have done it for so 
long we did it.
    Senator Specter. How long have you been a coal miner, Mr. 
Hileman?
    Mr. Hileman. 27 years. As far as the accident itself, I had 
started to say that it was just a normal shift, we started in, 
worked 3:00 to 11:00 shift that evening. And it was like at 
8:45 that evening our shift was pretty much so over. I run twin 
boom bolter, I was the operator, Mr. John Unger was the helper 
on the machine, we was in number 4 entry bolting.
    A few hours into the shift there, like I said about 8:45, 
Tom Foy come over past and said, we hit some water. At that 
time I didn't know how bad, how much or anything else. So we 
proceeded down No. 4 entry until we got to the feeder. That's 
where most of us met. We could look over into No. 6 entry and 
see that there was a lot of water coming in. It was, the seam 
in there is approximately around 50 inch, 48 to 50 inches high 
and the water was, it was up within probably a foot of the roof 
at that point.
    Senator Specter. How did you feel?
    Mr. Hileman. At that point I, you know, I never dreamt that 
we would be trapped, I figured we could get out, one way or the 
other, you know. In the 27 years I never went through anything 
like this, I never, never dreamt that we would do something 
like, you know, to be caught in such a situation.
    But we proceeded down No. 4 entry to try to get out that 
way. The water kept getting higher and higher, it was very 
wild, very swift river.
    Senator Specter. You say it was within a foot of the 
ceiling?
    Mr. Hileman. Right.
    Senator Specter. How much higher could it get and still 
have that air space?
    Mr. Hileman. You still have that air space until it's to 
the roof, you know, I mean, you still got room to breathe as 
long as the water isn't to the roof.
    Senator Specter. What was the highest the water got?
    Mr. Hileman. It completely went to the roof down further, 
down in the mines. We were mining on an elevation there, steep 
incline, not a steep incline, but a gradual incline. The bottom 
part of the mines filled up with water first.
    Senator Specter. When the water went to the roof, where 
were you?
    Mr. Hileman. At one of the highest elevations in the mines, 
the highest elevation.
    Senator Specter. So you had a little breathing room?
    Mr. Hileman. Right, but it choked off the air from the 
outside. The mines runs on an exhaust fan.
    Senator Specter. It shut off the air from the outside?
    Mr. Hileman. Right, exactly, it choked it off.
    Senator Specter. So you were able to breathe, but barely?
    Mr. Hileman. Barely. At that point we was all gasping for 
air, you couldn't breathe through your nose, you couldn't get 
enough air in. Some was throwing up due to the bad air that was 
coming out of the Saxman Mine. It was very hard to breathe.
    Senator Specter. You were trapped for more than 3 days, 
from 8:45 on July 24 the Wednesday through Saturday July 27 at 
10:15?
    Mr. Hileman. July 28.
    Senator Specter. July 28?
    Mr. Hileman. Yes, I come out around 2:15, yes, in the 
morning, 2:15 a.m.
    Senator Specter. On July 28?
    Mr. Hileman. Right.
    Senator Specter. But you first had a knowledge that you 
were going to be rescued about 10:15 at night on Saturday the 
27?
    Mr. Hileman. Yes, I guess, I'm not sure on that, I don't 
know the exact time on that.
    Senator Specter. Did you ever give up hope?
    Mr. Hileman. Oh, sure, there was different times, I didn't 
think we was coming, there was different times, through the 
whole ordeal there was ups and downs, you know, our hopes was 
up, our hopes was down.
    Senator Specter. What got your hopes up? I can understand 
what got your hopes down, but what got your hopes up?
    Mr. Hileman. When we was running out of air we had 
proceeded to start building some flood walls to try to hold the 
water back from the highest elevation where we was trapped at. 
During that, they had drilled a six-inch air shaft down 
through, into an intersection, where we was working to build 
the walls, which that was a good sign, they were bringing fresh 
air to us, and they knew pretty much where we was, that was a 
good sign.
    Senator Specter. How did you feel when you got out?
    Mr. Hileman. Words can't express that. I mean, if you've 
never been faced in a life and death situation then you 
wouldn't know what I was talking about. I mean, I take 1 day at 
a time, I just enjoy life more.
    Senator Specter. Mr. Mayhugh, we heard from your wife 
testifying. Do you think that it was known that there had been 
encroachment and that the maps were unreliable and that water 
was a problem?
    Mr. Mayhugh. Yeah, I definitely know.
    Senator Specter. Tell me why you say you definitely know.
    Mr. Mayhugh. Well, we was on our death bed down there. And 
at the time Randy Fogle, our boss, he told us 2 weeks prior to 
this he talked to Dave Rebuck and wanted to pull out of there 
because the conditions were bad.
    Senator Specter. Who was it who said that?
    Mr. Mayhugh. Randy Fogle. Randy proceeded to say he talked 
to Dave 2 days before this, Mr. Rebuck, and Dave Rebuck said he 
was scared that we was getting up in there. So why would you 
say he was scared up in there if he thought we was 300, 400, 
500 feet from the mine? Randy Fogle didn't tell us this until 
we were on our death bed. Not all of us heard it, but at least 
three or four heard the comment that he made.
    Senator Specter. Mr. Fogle, what was his position?
    Mr. Mayhugh. He was our face boss, or section foreman.
    Senator Specter. He was not one of the 18 in the mine, or 
was he?
    Mrs. Mayhugh. He was.
    Mr. Mayhugh. He was.
    Mrs. Mayhugh. He was the one that----
    Mr. Mayhugh. He was the one that told us when we was on our 
death bed, when we thought we only had an hour to live, I don't 
know if he wanted to clear his conscience or what it was, but 
he told us that.
    Senator Specter. Mr. Fogle, though, is not here today?
    Mr. Mayhugh. No, he isn't.
    Senator Specter. Mr. Fogle told you that he told Mr. 
Rebuck?
    Mr. Mayhugh. 2 weeks prior he wanted to pull out because he 
was loading a load of coal, the water was bad.
    Senator Specter. How long before July 24 did Mr. Fogle say 
he told Mr. Rebuck?
    Mrs. Mayhugh. Two weeks prior to July 24. Then as I said, 
Mr. Fogle, when we was on our death bed he told us 2 days prior 
to the accident Dave Rebuck said that he was scared that we was 
up in there. So why would you say that?
    Senator Specter. Mr. Rebuck said what again?
    Mr. Mayhugh. That he was scared that we was mining up in 
there.
    Senator Specter. Mr. Rebuck was concerned that you were 
mining up in there?
    Mr. Mayhugh. Yes, that's what Randy Fogle told us.
    Senator Specter. How long have you been in the mines, Mr. 
Mayhugh?
    Mr. Mayhugh. 5\1/2\ years, sir.
    Senator Specter. How long have you been married to Mrs. 
Mayhugh?
    Mr. Mayhugh. 10 years.
    Senator Specter. Children?
    Mr. Mayhugh. Two.
    Senator Specter. What are your future plans, are you ever 
going to be a miner again?
    Mr. Mayhugh. No, definitely not. Another thing, okay, our 
company was going off in 1957 and they proceeded to mine up 
until 1964 at the Saxman Mine, so how can anyone issue a map or 
whatever knowing that there was, what, 6, 7 years of extra 
mining in there and say to their best knowledge that 1957 map 
is accurate? I mean, it don't take a rocket scientist to figure 
out in 7 years you can load a lot of coal out.
    Senator Specter. So they used a 1957 map and they were 
mining at least until 1964?
    Mr. Mayhugh. That's the map that they've been talking about 
during the hearing.
    Mrs. Mayhugh. The one they found.
    Mr. Mayhugh. The one they found at the Windber Museum, and 
it was dated 1957, so they did 6, 7 years mining prior to 1964.
    Senator Specter. Are you familiar with this encroachment or 
bootlegging issue?
    Mr. Mayhugh. No. They showed us the map that they found or 
whatever, and if they would have had the accurate map, we would 
have never cut into it because it looked like the old Saxman 
mapping was accurate.
    Senator Specter. That the map was inaccurate?
    Mr. Mayhugh. That the new one they found was accurate. We 
would have never cut into the one that we cut into if they had 
the upgraded map.
    Senator Specter. Mr. Stewart, you had a comment about that?
    Mr. Stewart. He said that new map was accurate and that's 
not even accurate. Because when they looked into that hole it 
showed a lot more than what that map showed.
    Senator Specter. When you say the new map, what was the 
date of that map?
    Mr. Stewart. 1964.
    Senator Specter. But that map was not accurate either?
    Mr. Stewart. No.
    Senator Specter. Why do you say that, sir?
    Mr. Stewart. When the inspectors looked into that hole 
where they cut through, there was a, where they cut into was a 
rut driven off to the main, that one main there. Plus where 
they looked up through there was a great big opening, and 
according to the map there was roof stripping and that was all 
mined out.
    Senator Specter. Mr. Stewart, you were one of the miners 
who got out early?
    Mr. Stewart. Yes.
    Senator Specter. Tell us what happened with your group.
    Mr. Stewart. I was the foreman of that----
    Senator Specter. Pull the microphone a little closer to 
you.
    Mr. Stewart. I was a foreman of the other crew that night. 
At that time we started around 8:00, I did my preshifting in 
that section that night and I had to do all the outlying area 
preshifting there.
    So I proceeded to left section, left my crew there and told 
them what needed to be done and that there. I proceeded down 
No. 5, 5 main to make my examination. And I come to 1 left 
intersection there and I was heading up into 1 left and I was 
probably about one third of the way up into that section where 
the accident happened, and I was going up to the common entries 
which leads to No. 5 entry.
    I stopped there and checked the first pump and the intake, 
the pump in the intake was No. 7 entry. So I stopped there and 
I crawled through a man door, walked across No. 6 entry to No. 
7 entry, I still can remember putting a date on there at 8:50, 
and could hear this noise and that there. The noise kept 
getting louder and louder and louder.
    Senator Specter. What kind of a noise was it?
    Mr. Stewart. It was just like a big grumbling sound.
    Senator Specter. Water coming?
    Mr. Stewart. At first I thought it was a scoop coming down 
through, it was making like a noise, then all the sudden it got 
louder. When I put the date on the date board at 8:50, the man 
door that I came through slammed shut. So I knew there was 
something up then.
    I walked over to the No. 6 entry, when I got over there the 
noise was so loud, it's hard to describe.
    All of the sudden this big forced air came back over me and 
almost knocked my helmet off my head. I thought there was an 
explosion up in that section. I figured I was done then, 
because it would take all the oxygen out of the air.
    Senator Specter. You say you figured you were done?
    Mr. Stewart. Yes.
    Senator Specter. You mean done for?
    Mr. Stewart. Yeah, I figured I would be dead right there 
because it would take all the oxygen out of me.
    So when I looked up, I seen all that water coming at me. I 
hurried up and run to that man door, and I got it open, I 
jumped through it.
    As soon as I, as soon as I got through the man door I 
slammed it shut and there was discharge that goes through that 
wall right there. And all that water come down through sucked 
that line through right now. All the water started coming 
seeping through the wall right there.
    So I hurried up and jumped on my golf cart and I got it 
turned around and I went down over the hill as fast as it would 
go. I knew I didn't have much time but I stopped at the belt 
drive and I was calling for my guys to get the hell out of 
here, to let them know what happened.
    Senator Specter. You say to your guys; how many men were 
there?
    Mr. Stewart. There was eight on my other crew.
    Senator Specter. You were the nine who escaped at that 
time?
    Mr. Stewart. Yes. But I kept calling, I called and I was 
calling for these other guys to see what happened. I kept 
calling and calling and the outside guy got on there and said 
they already got ahold of these guys.
    When he said that all that water was coming down, right 
there is a big dip right in there. I knew if I didn't get out 
of there, I would be trapped. So I had to hurry up and jump on 
the golf cart again.
    I went flying out around there and later on Larry 
Summerville said that he seen me flying out around there and he 
said he was only a second behind me and when he got there it 
was already flooded to the roof. He thought that I was 
underneath all that.
    So I went down to the 5 main, I was calling my guys and 
calling and calling and calling and nobody would answer. So 
pretty soon Larry Summerville came through the intake wall, he 
kept yelling, he said Chad and I made it, Chad and I made it. 
He said the other guys behind me, he said, I don't think they 
made it. If you would have seen the look in his eyes that 
night, it looked like you seen a ghost.
    So we started talking for a little bit and we hollered 
outside to go and get ahold of the mine foreman and the owners 
and all that to tell them what happened.
    Probably about a minute or so later we heard voices down 
around the corner. We walked down around here and got the rest 
of my crew out. They said they come through there, the first 
travel way, it was already flooded shut, they couldn't get 
through and they had to keep backing up and find an intake. And 
he said when they come through here, a couple of guys, that's 
when I talked to Pete, and the other guys had to grab them, the 
water was up to their neck then.
    We kept talking there for a while and we figured we better 
get out of there, because we didn't know how far the water was 
behind, it went upgrade.
    So we got outside and both doors was hanging wide open, the 
doors into the common entry that normally stay closed, but the 
force of that air must have forced those doors open.
    We stayed outside, kept waiting and kept waiting for the 
other guys to come out, these other nine trapped guys, and we 
waited for probably 10, 15 minutes, figured we better get out 
in case something happens.
    So we went up to the main office, shower house there and 
that's where we spent probably till about 4:00, 5:00, 6:00 in 
the morning trying to help out with whatever we could do.
    Senator Specter. How did you feel when you got out?
    Mr. Stewart. I think I was just numb, I didn't know what I 
felt, I think we all was numb. I think we were just glad to be 
alive.
    Senator Specter. Thank you very much, Mr. Stewart. Mr. 
Phillippi, we heard from your wife. How long have you two been 
married?
    Mr. Phillippi. 10 years.
    Senator Specter. How long have you been a miner?
    Mr. Phillippi. 12\1/2\ years.
    Senator Specter. Children?
    Mr. Phillippi. Yes, one, a boy, 12.
    Senator Specter. Does your wife give you a hard time for 
being a coal miner?
    Mr. Phillippi. She does now, I ain't going to be one 
anymore.
    Senator Specter. Did she before?
    Mr. Phillippi. No, she, she was pretty okay with it, we 
thought we could trust.
    Senator Specter. Are you a native of the area of Somerset?
    Mr. Phillippi. Yes, I am.
    Senator Specter. Go to school there?
    Mr. Phillippi. Shade Central City.
    Senator Specter. Are you going back into the mines?
    Mr. Phillippi. No, I couldn't do that to my family again.
    Senator Specter. You don't have to now that you got the 
Disney contract do you?
    Mrs. Phillippi. That's not enough to live on now, think 
about that.
    Senator Specter. Mrs. Phillippi, what did you say?
    Mrs. Phillippi. That's not enough to live on, think about 
that.
    Senator Specter. Isn't it?
    Mrs. Phillippi. Not to raise a 12 year-old.
    Senator Specter. Maybe Mr. Messer will get you a new deal.
    Mrs. Phillippi. We're pretty young, you know, we're the 
youngest two couples. The other guys, our kids have a long way 
to go raising them.
    Senator Specter. I'm sorry to hear that's not enough to 
live on.
    Mrs. Phillippi. I wish it was.
    Senator Specter. Maybe the next contract----
    Mrs. Phillippi. It will pay for college.
    Senator Specter. What do you plan to do, Mr. Phillippi?
    Mr. Phillippi. I ain't decided right at this time till I 
get some things straightened out.
    Senator Specter. Are you thinking about being a Mr. 
Goodwrench?
    Mr. Phillippi. I'd like to be a GM man.
    Senator Specter. You got a hat on that says GM Goodwrench 
service. Do you get a premium for being on television wearing 
that hat?
    Mr. Phillippi. No, I didn't even get a truck yet.
    Senator Specter. Mr. Mayhugh, what's the New York Fire 
Department, Police Department doing for you, wearing an NYPD 
hat?
    Mr. Mayhugh. We was just up in New York and I picked the 
hat up.
    Mr. Phillippi. Mr. Specter, I would like to thank you for 
keeping this public because everybody needs to know about this 
because I'm afraid if it's hidden, they're going to sweep it 
under the table, things are going to be hidden and they're not 
going to know what happened.
    Senator Specter. Mr. Phillippi, nobody's going to be 
sweeping this under the table.
    Mr. Phillippi. So it doesn't happen again, I'm glad you're 
with us. And as far as--this company was aware of water.
    Senator Specter. Why do you say that? You say the company 
was aware of the water. Why do you say that?
    Mr. Phillippi. Because I was a miner operator and previous 
to this 2, 3 weeks, we were loading a lot of coal. Production 
cut into half, cut halfways, we slowed way down, the problem 
was there's water coming out of the roof, the bolters couldn't 
drill to keep up, everything was sloppy wet, they know the 
problem, we told them. I just, it's unbelievable that they can 
sit there and lie about it.
    Senator Specter. Well, I can see how you feel about that, 
Mr. Phillippi. It's a very emotional situation when your life 
is put at risk as yours was. Mr. Petree.
    Mr. Petree. Yes, sir.
    Senator Specter. Where were you when all this happened?
    Mr. Petree. Well, let me put it this way. I want to get one 
thing straight first. These people here----
    Senator Specter. Get it straight on mike, will you, please?
    Mr. Petree. These people here are saying----
    Senator Specter. Now wait a minute, we have got to get it 
straight. Mr. Hileman, you can change seats with Mr. Petree.
    Mr. Hileman. Yes.
    Senator Specter. We have got to have a transcript of this. 
I have already been asked if you will get a copy of the 
transcript, and the answer is yes. We have a court reporter 
here from the Senate, who is taking all this down. Anybody who 
wants to get a transcript can get a transcript. But the only 
way I can get you a transcript, Mr. Petree, is if you speak 
into the microphone; okay?
    Mr. Petree. Okay.
    Senator Specter. Go ahead.
    Mr. Petree. The only thing I want to, I was one of the nine 
that escaped, okay. And I hear people talking, like I heard one 
gentleman said that we walked out of that mine, which we did. 
Some people, I read in the paper, we ran out of that mine, 
which we didn't. We struggled the whole way out of that mine 
that night. Our lives was in jeopardy too, I mean, we was 
scared. I prayed going out of there because I didn't think I 
was going to make it.
    Like they said, that some of the guys got their feet swept 
out from under them. My one buddy he got his feet swept out 
from under him, I grabbed ahold of him, I might have saved his 
life, I'm just hoping I did.
    But a lot of people think that we ran out of that mine, we 
was cowards, we ran home. But we stuck it, we stayed for hours 
and hours and hours to save these guys, we stayed and pumped 
for hours.
    So, I mean, I just--if it had gone down in history that we 
ran out of that mine, it ain't going to get it, because we 
almost died and we struggled getting out of the mine.
    Senator Specter. What do you think about the issue of the 
company knowing about the water danger?
    Mr. Petree. Well, just like these guys said that we, we was 
down in seconds, we had water in the roof too. So, I mean, I 
don't know if that mine came down that way further, I don't 
know, and we was hitting water in the roofs. So it was wet down 
there. I mean, I don't know whether the maps shows down that 
way or not.
    Senator Specter. Mr. Custer, we haven't heard from you yet. 
Do you want to change places with Mr. Petree so you can speak 
into the microphone? And we'll put you in the transcript.
    Has anybody made the bad pun that it was almost Custer's 
Last Stand?

                 SUMMARY STATEMENT OF DOUGLAS L. CUSTER

    Mr. Custer. Nobody would be that ignorant.
    Senator Specter. Well, there's always one in the crowd. We 
have got to have a moment or two of lightness, this is the 
heaviest hearing I've ever been to and I've been to a lot of 
hearings.
    Mr. Custer. That's the type of guy I am. Hello, my name is 
Doug Custer, and I'm just a common man. I've had 26 years of 
mining experience. This was a disaster and that's all we can 
say about it, it's an unfortunate mishap. As miners we're 
trained to ventilate, deal with bad air, deal with water, this 
mine is considered a damped wet mine, but we have faith and 
trust in the Department of Protection, MSHA Miners and the 
company which we work for.
    The biggest question is that there are two maps that's 
supposed to be sealed and assigned to repositories in 
Harrisburg and wherever else, and it seems like this was not 
done. I think the law was passed in 1961 where there has to be 
closure maps.
    Senator Specter. You think those maps were inadequate?
    Mr. Custer. I think, you know, we'll let the 
investigation----
    Senator Specter. You think the company knew about the maps 
being inadequate?
    Mr. Custer. The company, when they applied for the permits, 
they do everything that they can do to their knowledge, and 
they were, you know, everybody----
    Senator Specter. So you think they operated in good faith?
    Mr. Custer. I think, yes, I think they did.
    Senator Specter. How about the mine inspectors, what do you 
think about that?
    Mr. Petree. They're straight shooters. If you're doing 
something wrong, they're going to----
    Senator Specter. Both Federal and State?
    Mr. Custer. Exactly, they do their job to the best of their 
ability, we do our job to the best of our ability. We have the 
right to a safe work place, we depend on the DEP, we depend on 
MSHA, we depend on the mine management, you know, we all work 
together. This whole rescue operation was a team effort, you 
know, you can't pinpoint it on some surveyor, you can't 
pinpoint it on a higher-up in the State, or a higher-up in 
MSHA.
    I had a speech, but I blew it because I speak from the 
heart, you know. There are just so many questions that need 
answers for us. And that this mine accident doesn't happen 
anyplace else in the United States or even in the world, you 
know. I almost lost nine of my best friends down there and when 
this happened, you know, when we had to go over the intake, you 
know, the water was probably about 18 inches high when we was 
riding the main trip out, we went over to the intake. And to 
see that roll and to see the water in there, we had no idea 
what we were going into.
    We got down on our hands and knees because you had to, it 
was probably about 34, 36 inches high right there. It was 
either get down and get wet or you're not coming out alive. It 
is as simple as that. That is what we had to do. Every miner 
here did what they had to do to save themselves and save 
everybody else.
    When we got outside we waited and waited and waited, and we 
went up on the hill. Because, you know, once the belt sensor 
stopped saying that there was a dangerous condition, we knew 
that there wasn't anything we could do right then and there in 
the pit, we had to go up onto the hill. We were still in wet 
clothes, soaking wet. When we were escaping, my friend Joe 
Kostyk and I, we were more or less the leaders of the pack 
making sure that everybody was coming through. When that water 
was coming through, it sounded like Niagara Falls. I mean the 
water was so swift that it picked me up, Joe up and a number of 
guys off our feet. And it took my hat off, my glasses off and 
it was cold, you know.
    But we had no idea what was taking place, we just got the 
word to get out of the mine, water is on its way. And I even 
joked, I said, all right, we got an early quit. We had no idea 
that this was as massive as it was.
    We stayed there, we stayed at that mine for 14, 16 hours 
after this ordeal, I was sent over with the families, and that 
was probably the hardest thing that I ever had to do other than 
bury my dad.
    Like I said, there is so many questions that need 
addressed. Why weren't the closure maps submitted, you know? 
And when did the mine close? The time differences of the map, 
it's so coincidental that a month before this accident happened 
that they find something down in Windber Museum, you know, 
somebody's not doing their homework.
    You know, like I said, I'm just a common man, I depend on 
DEP and MSHA and company officials. I'm not here to drag 
anybody down, you know, everybody has a job to do and thank God 
that everything took place the way God wanted it or this would 
have never happened.
    Senator Specter. Mr. Custer, we will do our best to answer 
those questions. Anybody else have anything they would like to 
add?
    Mr. Stewart. I would just like to add, know why the State 
never had those two maps, the final maps at that mine that, in 
their possession?
    Senator Specter. Why they didn't have the maps?
    Mr. Stewart. The owner of that mine was supposed to submit 
two final maps at the Saxman Mine.
    Senator Specter. We'll try to find the answer to that. Mr. 
Hileman, do you have one last comment?
    Mr. Hileman. Yes. One thing, one of the gentlemen said here 
a little earlier, this same type of accident happened in 1977 
in an anthracite mine. How many times does it got to happen 
before they do something? There was nine lives claimed at that 
one, there could have been 18 here. They're still not doing 
anything, you know.
    Senator Specter. The object of our inquiries will be to see 
to it that something is done and the Appropriations 
Subcommittee is prepared to fund what is necessary to provide 
for mine safety, that is our job.
    I want to thank you very much, ladies and gentlemen, for 
coming.
    Mr. Phillippi. Mr. Specter, one other thing. I would like 
to know how could a permit be issued off of a 1957 map whenever 
it is known that they mined that in there till 1962, 1963, or 
1964? I mean, that's 5 years of mining where nobody knowed 
where we was going. And, you know, how can you say, well, okay, 
yeah, 1956, years, and you're just going to not know where it's 
at and send us guys in there without knowing what's there?
    Senator Specter. Mr. Phillippi, we will pursue that 
question as well as the question as to the mine officials 
knowing about the water, knowing about the danger, staying in 
on the mine. Those are all questions which will be answered on 
this matter. Mr. Mayhugh, do you have another statement?
    Mr. Mayhugh. It's just to thank everybody. I mean, I 
figured this would be the best time, because I mean we've got 
letters from all over the world, the United States, how much 
this really affected people. I mean, they sent us cards and 
Psalms and I would just like to thank everybody for their 
prayers that they had for all 18 of us miners.
    Senator Specter. Thank you all very much. I want to thank 
the city council, this is the Anthony C. Priscella Chamber. I 
thank staff and all those who have been here, and it's been a 
very, very informative hearing.
    I said a few moments ago, it's a very heavy hearing, but 
because of what happened to the 18 of you and your wives and 
families, and what happened to the entire community, it's 
certainly odd that all of this would have happened 13 miles 
from Shanksvillle where Flight 93 went down on September 11, 
and less than a year later on July 24 this occurred. But these 
are important questions to be addressed by the Federal 
Government, which our subcommittee will do, and by the State 
government. There are people who will have to answer for what 
happened here, on the maps and the warnings. To what extent 
there is liability that will have to be determined when we 
review the record. Of even greater importance, to prevent a 
recurrence, and we will work on that.

                         CONCLUSION OF HEARING

    Thank you all very much for being here, that concludes our 
hearing.
    [Whereupon, at 12:25 p.m., Monday, October 21, the hearing 
was concluded, and the subcommittee was recessed, to reconvene 
subject to the call of the Chair.]

                                   - 

</pre></body></html>
